No. 21In the

Supreme Court of the United States
CALIFORNIA RESTAURANT ASSOCIATION, INC.,
Petitioner,
v.
SUPERIOR COURT OF LOS ANGELES COUNTY,
COUNTY OF LOS ANGELES DEPARTMENT OF
PUBLIC HEALTH, AND DR. BARBARA FERRER,
IN HER OFFICIAL CAPACITY AS DIRECTOR OF
PUBLIC HEALTH, COUNTY OF LOS ANGELES,
Respondents.
On Petition for a Writ of Certiorari to the
Court of A ppeal of the State of California,
Second A ppellate District

PETITION FOR A WRIT OF CERTIORARI
Browne George Ross O’Brien Browne George Ross O’Brien
Annaguey & Ellis LLP
Annaguey & Ellis LLP
Carl A lan Roth
Dennis S. Ellis
Noah S. Helpern
Counsel of Record
Richard A. Schwartz
Eric M. George
801 S. Figueroa Street,
K atherine F. Murray
Suite 2000
Ryan Q. Keech
Los Angeles, CA 90017
Lori Sambol Brody
(213) 725-9800
2121 Avenue of the Stars,
Suite 2800
Los Angeles, CA 90067
(310) 274-7100
dellis@bgrfirm.com
Counsel for Petitioner, California Restaurant
Association, Inc.
306187

i
QUESTION PRESENTED
Is due process satisfied, consistent with the
decision in Jacobson v. Massachusetts, 197 U.S. 11
(1905), where a public health department acts based
on “rational speculation” in issuing a public health
order that effects a taking of a citizen’s right to the
free use and enjoyment of his or her property?

ii
PARTIES TO THE PROCEEDING
AND RULE 29.6 STATEMENT
California Restaurant Association, Inc.
(“CRA”) is the petitioner in this Court. CRA was the
plaintiff and petitioner in the Superior Court of the
State of California, County of Los Angeles (“trial
court” or “Los Angeles Superior Court”) proceedings,
real-party-in-interest in the Court of Appeal of the
State of California, Second Appellate District (“Court
of Appeal”) writ proceeding, and petitioner in the
Supreme Court of the State of California (“California
Supreme Court”).
The County of Los Angeles Department of
Public Health and Dr. Barbara Ferrer, in her official
capacity as Director of Public Health, County of Los
Angeles (collectively, the “County”) are respondents
in this Court. The County was the defendant and
respondent in the trial court proceedings, petitioner
in the Court of Appeal writ proceeding, and
respondent in the California Supreme Court.
The Los Angeles Superior Court is also a
respondent in this Court, as well as respondent in the
Court of Appeal writ proceeding and in the California
Supreme Court.
Mark’s Engine Company No. 28 Restaurant,
LLC (“Mark’s Engine Company No. 28”) was also realparty-in-interest in the Court of Appeal writ
proceeding and petitioner in the California Supreme
Court. As of the filing of this Petition, Mark’s Engine

iii
Company No. 28 has not petitioned for certiorari
before this Court.
Pursuant to this Court’s Rule 29.6,
undersigned counsel state that CRA has no parent or
publicly held company owning 10% or more of the
corporation’s stock.
.

iv
RELATED CASES
•

California Restaurant Association, Inc. v.
County of Los Angeles, Department of Public
Health, et al., No. 20STCP03881, Superior
Court of the State of California, County of Los
Angeles.
Granting, in part, preliminary
injunction on December 15, 2020.1

•

County of Los Angeles, Department of Public
Health, et al. v. Superior Court of Los Angeles
County (California Restaurant Association,
Inc.), No. B309416, Court of Appeal of the State
of California, Second Appellate District.
Staying preliminary injunction on December
18, 2020. Issuing peremptory writ directing
the Superior Court to vacate its December 15,
2020 preliminary injunction on March 1, 2021.
Denying petition for rehearing on March 12,
2021.

•

County of Los Angeles, Department of Public
Health, et al. v. Superior Court of Los Angeles
County (California Restaurant Association,
Inc.), No. S268101, Supreme Court of the State
of California. Denying petition for review on
June 9, 2021.

This proceeding was consolidated with Mark’s Engine
Co. No. 28 Restaurant, LLC v. County of Los Angeles,
Department of Public Health, et al. (Los Angeles Super. Ct.) (No.
20STCV45134), solely for purposes of the hearing on the motions
for preliminary injunction.
1

v
TABLE OF CONTENTS
Page
QUESTION PRESENTED ......................................... i
PARTIES TO THE PROCEEDING AND RULE
29.6 STATEMENT .......................................... ii
RELATED CASES .................................................... iv
TABLE OF CONTENTS .............................................v
TABLE OF AUTHORITIES ................................... viii
PETITION FOR A WRIT OF CERTIORARI .............1
OPINIONS BELOW ....................................................1
JURISDICTION ..........................................................1
CONSTITUTIONAL PROVISIONS ...........................2
CALIFORNIA AND MUNICIPAL STATUTES,
REGULATIONS, AND ORDERS ....................2
INTRODUCTION .......................................................3
STATEMENT OF THE CASE ....................................5
A.

The Ban On Outdoor Dining .................5

B.

The Trial Court Grants CRA’s
Motion
For
Preliminary
Injunction ...............................................6

C.

The Appellate Court Issues A
Writ Of Mandate ..................................10

D.

The Court Of Appeal Denies
CRA’s Petition For Rehearing .............12

vi
E.

The California Supreme Court
Denies CRA’s Petition For Review
..............................................................13

REASONS FOR GRANTING THE PETITION .......13
A.

Review Is Necessary To Settle
Important Questions That Will
Recur During This Pandemic And
Future Public Health Crises ...............13

B.

This Court Should Affirm That
Traditional Rules For Reviewing
Agency Action Are Not Dispensed
With In A Pandemic ............................18

C.

Absent Review, Government
Actors Will Resist Takings Clause
Claims
By
Claiming
That
Shutdown
Orders
Were
Justifiable Regulations ........................28

CONCLUSION ..........................................................32
APPENDICES
Appendix A, Order of the Supreme Court of the
State of California, Filed June 9, 2021 ..........1a
Appendix B, Opinion of the Court of Appeal of
the State of California, Second Appellate
District, Division Four, Filed March 1,
2021 .................................................................2a
Appendix C, Opinion of the Superior Court of
the State of California, County of Los
Angeles,
Central
District,
Filed
December 15, 2020 .......................................29a

vii
Appendix D, Relevant Statutory Provisions ........157a
Appendix E, Order of the Health Officer of the
County of Los Angeles, Department of
Public Health, dated November 25, 2020
.....................................................................159a

viii
TABLE OF AUTHORITIES
Page(s)
FEDERAL CASES
Am. Pelagic Fishing Co. v. United States,
49 Fed. Cl. 36 (2001) ............................................31
Brach v. Newsom,
No. 20-56291, 2021 WL 3124310
(9th Cir. July 23, 2021) ........................................17
Calvary Chapel Dayton Valley v. Sisolak,
140 S. Ct. 2603 (2020) ..........................................11
Cienega Gardens v. United States,
331 F.3d 1319 (Fed. Cir. 2003) ............................31
County of Butler v. Wolf,
486 F. Supp. 3d 883 (W.D. Pa. 2020) ............25, 26
Dep’t of Homeland Sec. v. Regents of the
Univ. of Cal.,
140 S. Ct. 1891 (2020)..........................................22
E. Enters. v. Apfel,
524 U.S. 498 (1998) ..............................................30
First Eng. Evangelical Lutheran Church v.
County of Los Angeles,
482 U.S. 304 (1987) ..............................................29
Greene v. McElroy,
360 U.S. 474 (1950) ..............................................15

ix
Heller v. Doe ex rel. Doe,
509 U.S. 312 (1993) ................................................4
Hodel v. Irving,
481 U.S. 704 (1987) ..............................................31
Hund v. Cuomo,
501 F. Supp. 3d 185 (W.D.N.Y. 2020) .................26
Hurtado v. California,
110 U.S. 516 (1884) ..........................................4, 21
Indus. Union Dep’t v. Am. Petrol. Inst.,
448 U.S. 607 (1980) ..............................................22
Jacobson v. Massachusetts,
197 U.S. 11 (1905) ........................................ passim
Jew Ho v. Williamson,
103 F. 10 (C.C.N.D. Cal. 1900) ......................24, 25
League of Indep. Fitness Facilities &
Trainers, Inc. v. Whitmer,
468 F. Supp. 3d 940 (W.D. Mich. 2020) ..............25
Lucas v. S.C. Coastal Council,
505 U.S. 1003 (1992) ............................................29
MHC Fin. Ltd. P’ship v. City of San Rafael,
714 F.3d 1118 (9th Cir. 2013)..............................31
Michigan v. EPA,
576 U.S. 743 (2015) ..............................................22

x
Motor Vehicle Mfrs. Ass’n of the U.S. v.
State Farm Mut. Auto. Ins. Co.,
463 U.S. 29 (1983) ........................................ passim
Nordlinger v. Hahn,
505 U.S. 1 (1992) ....................................................4
Pa. Coal Co. v. Mahon,
260 U.S. 393 (1922) ..............................................29
Palazzolo v. Rhode Island,
533 U.S. 606 (2001) ..............................................30
Penn Cent. Transp. Co. v. City of New York,
438 U.S. 104 (1978) ...................................... passim
Preterm-Cleveland v. Att’y Gen. of Ohio,
456 F. Supp. 3d 917 (S.D. Ohio 2020) .................26
Ramsek v. Beshear,
468 F. Supp. 3d 904 (E.D. Ky. 2020) ...................26
Robinson v. Att’y Gen.,
957 F.3d 1171 (11th Cir. 2020)............................26
Roman Catholic Diocese of Brooklyn v.
Cuomo,
141 S. Ct. 63 (2020)...................................... passim
S. Bay United Pentecostal Church v.
Newsom,
140 S. Ct. 1613 (2020) .............................. 11, 25, 27

xi
S. Bay United Pentecostal Church v.
Newsom,
141 S. Ct. 714 (2021)............................ 3, 11, 24, 27
S. Wind Women’s Ctr. v. Stitt,
455 F. Supp. 3d 1219 (W.D. Okla. 2020) .............26
Tabernacle Baptist Church, Inc. v. Beshear,
459 F. Supp. 3d 847 (E.D. Ky. 2020) ...................26
Tahoe-Sierra Pres. Council, Inc. v. Tahoe
Reg’l Planning Agency,
535 U.S. 302 (2002) ..............................................30
Truax v. Raich,
239 U.S. 33 (1915) ................................................15
Wolff v. McDonnell,
418 U.S. 539 (1974) ..............................................21
Wong Wai v. Williamson,
103 F. 1 (C.C.N.D. Cal. 1900) ........................24, 25
Zinermon v. Burch,
494 U.S. 113 (1990) ..........................................4, 21
CALIFORNIA CASES
Cal. Hotel & Motel Ass’n v. Indus. Welfare
Comm’n,
25 Cal. 3d 200 (1979) ...........................................19
W. States Petrol. Ass’n v. Super. Ct. (Cal.
Air Res. Bd.),
9 Cal. 4th 559 (1995)............................................19

xii
OTHER STATE CASES
Gym 24/7 Fitness, L.L.C. v. Michigan,
No. 20-000132-MM, 2020 WL 6050543
(Mich. Ct. Cl. Sep. 24, 2020) ................................25
FEDERAL STATUTES
28 U.S.C. § 1257(a)......................................................1
STATE STATUTES
Cal. Health & Safety Code
§ 101040 .......................................................2, 7, 17
§ 120175 .......................................................2, 7, 17
RULES
Sup. Ct. R. 10(c) ........................................................13
CONSTITUTIONAL PROVISIONS
U.S. Const.
amend. I ............................................... 5, 15, 16, 27
amend. V .............................................. 2, 28, 29, 30
amend. XIV ..................................................2, 9, 21

xiii
OTHER AUTHORITIES
Office of Behavioral Safety Research,
Update to Special Reports on Traffic
Safety During the COVID-19 Public
Health Emergency: Third Quarter Data,
https://www.nhtsa.gov/sites/
nhtsa.dot.gov/files/documents/traffic_
safety_during_covid19_01062021_0.pdf
(Jan. 2021)............................................................23
Sophie Kasakove, Los Angeles County’s
sheriff declines to enforce the mask
mandate about to resume, N.Y. Times,
https://www.nytimes.com/2021/07/17/wo
rld/los-angeles-sheriff-mask.html (July
17, 2021) ................................................... 14, 15, 16
County of Los Angeles Dep’t of Pub. Health,
Order of the Health Officer, Reopening
Safer at Work and in the Community for
Control of COVID-19, Blueprint for a
Safer Economy–Tier 1 Surge Response
(Nov. 25, 2020) ...............................................3, 6, 7

1
PETITION FOR A WRIT OF CERTIORARI
CRA respectfully submits this petition for a
writ of certiorari for review of the opinion of the Court
of Appeal.
OPINIONS BELOW
The December 15, 2020 order of the Los
Angeles Superior Court entering the preliminary
injunction is unpublished.2
Appendix (“App.”)
29a. The December 18, 2020 order of the Court of
Appeal staying the preliminary injunction order is
unpublished. The March 1, 2021 opinion of the Court
of Appeal issuing the peremptory writ directing the
Los Angeles Superior Court to vacate its December
15, 2020 order is available at 61 Cal. App. 5th 478.
App. 2a. The March 12, 2021 order of the Court of
Appeal denying rehearing is unpublished. The June
9, 2021 order of the California Supreme Court
denying CRA’s petition for review is unpublished.
App. 1a.
JURISDICTION
On June 9, 2021, the California Supreme Court
denied CRA’s petition for review. App. 1a. The
jurisdiction of this Court is invoked under 28 U.S.C.
§ 1257(a).

The December 15, 2020 order is available at 2020 WL
8410014 but omits the referenced Exhibit A, the trial court’s
December 8, 2020 ruling granting the application for
preliminary injunction in part.
2

2
CONSTITUTIONAL PROVISIONS
The Fifth Amendment of the United States
Constitution provides, in relevant part,
No person shall be . . .
deprived of life, liberty, or
property,
without
due
process of law; nor shall
private property be taken
for public use, without just
compensation.
Section 1 of the Fourteenth Amendment of the
United States Constitution provides, in relevant part,
No State shall . . . deprive
any person of life, liberty,
or property, without due
process of law . . . .
CALIFORNIA AND MUNICIPAL STATUTES,
REGULATIONS, AND ORDERS
Pursuant to this Court’s Rule 14.1(f), the
following state statutes and municipal orders are set
out verbatim in the Appendix to this Petition:
California Health & Safety Code section
101040. App. 157a.
California Health & Safety Code section
120175. App. 158a.

3
County of Los Angeles Dep’t of Pub. Health,
Order of the Health Officer, Reopening Safer at Work
and in the Community for Control of COVID-19,
Blueprint for a Safer Economy–Tier 1 Surge Response
(Nov. 25, 2020). App. 159a.
INTRODUCTION
From Jacobson v. Massachusetts, 197 U.S. 11
(1905) (“Jacobson”) through Roman Catholic Diocese
of Brooklyn v. Cuomo, 141 S. Ct. 63 (2020) (per
curiam) (“Roman Catholic Diocese”) and South Bay
United Pentecostal Church v. Newsom, 141 S. Ct. 714
(2021) (“South Bay II”), this Court has made clear
that generally applicable rules of judicial review
apply to state health agencies’ exercise of emergency
powers, notwithstanding the exigencies of a
pandemic. Ignoring that clear instruction, however,
the Court of Appeal held that the trial court in this
case overstepped its bounds by requiring the County
to perform the basic task of considering the various
ramifications of a countywide shutdown of all outdoor
dining at restaurants before extending the shutdown
any further. By interdicting that modest order, the
Court of Appeal discarded the principle embodied in
federal and California administrative law that
agencies act arbitrarily and capriciously when they
fail “to consider an important aspect of the problem”
they are trying to solve. See Motor Vehicle Mfrs. Ass’n
of the U.S. v. State Farm Mut. Auto. Ins. Co., 463 U.S.
29, 43 (1983) (“State Farm”). Instead, the Court of
Appeal stated that agencies need not consider any
evidence whatsoever when non-fundamental rights
are implicated, provided that the agency can

4
articulate an after-the-fact justification that would
satisfy “rational basis review,” even if it is based on
rational speculation.
The Court of Appeal improperly applied the
rational basis review test that might apply to an equal
protection challenge, and thus excused the County
from complying with the mandates of the “arbitrary
and capricious” test that applies to administrative
actions in substantive due process challenges. In
doing so, the Court of Appeal provided too much
deference to the County and insulated the County’s
action—which was not based on any evidence
competent to employ in comparing the risks and
benefits of a countywide restaurant shutdown order—
from judicial review.3 This Court should grant
certiorari to clarify that, even in a pandemic,
For equal protection purposes, a decision maker need not
actually articulate at any point the purpose or rationale
supporting the regulation, and may act based on “rational
speculation” and without evidentiary support or empirical data.
Heller v. Doe ex rel. Doe, 509 U.S. 312, 320 (1993); Nordlinger v.
Hahn, 505 U.S. 1, 15 (1992). This rational speculation standard,
however, is completely irrelevant to the arbitrary and capricious
standard that applies in substantive due process challenges.
Unlike equal protection, the core concept of substantive due
process is protection against arbitrary government action,
Hurtado v. California, 110 U.S. 516, 527 (1884), “regardless of
the fairness of the procedures used to implement them.”
Zinermon v. Burch, 494 U.S. 113, 125 (1990) (quoting Daniels v.
Williams, 474 U.S. 327, 331 (1986)). As a result, the standard
that should have applied to the instant substantive due process
claim is whether the County’s action was “arbitrary and
capricious,” which requires agencies to “examine the relevant
data and articulate a satisfactory explanation for its action.”
State Farm, 463 U.S. at 43.
3

5
government agencies violate substantive due process
rights when they act arbitrarily or capriciously in
exercising their broad emergency powers.
Review is especially appropriate in this case,
given that the Court of Appeal’s approval of the
County’s shutdown order would cast significant doubt
on what should be straightforward Takings Clause
challenges brought by plaintiffs who were arbitrarily
precluded from enjoying the use of their property as a
result of sweeping government edicts. If lower courts
believe that the County’s shutdown order was not
arbitrary or capricious, they may be more inclined to
find that such regulations do not amount to a taking
under this Court’s test enunciated in Penn Central
Transportation Co. v. City of New York, 438 U.S. 104,
123 (1978) (“Penn Central”). While the rights to
pursue one’s chosen employment and to enjoy private
property without government interference may not be
not as “fundamental” as the religious liberties
enshrined in the First Amendment, they are basic
rights protected by the United States Constitution,
and thus this Court should grant certiorari to affirm
that these rights, too, deserve protection from
arbitrary and capricious government regulation.
STATEMENT OF THE CASE
A.

The Ban On Outdoor Dining

On November 25, 2020, the County’s public
health officials issued a sweeping ban on outdoor
dining throughout Los Angeles County (the
“Restaurant Closure Order”), without any scientific

6
evidence to suggest that outdoor dining posed any
particular risk of spreading COVID-19. App. 159a
(County of Los Angeles Dep’t of Pub. Health, Order of
the Health Officer, Reopening Safer at Work and in
the Community for Control of COVID-19, Blueprint
for a Safer Economy–Tier 1 Surge Response (Nov. 25,
2020)).
Indeed, prior to the enactment of the
Restaurant Closure Order, at a meeting of the Los
Angeles County Board of Supervisors to discuss the
proposed order, participants highlighted the lack of
scientific underpinning for banning outdoor dining.
County health officials admitted that they had not
been tracking COVID-19 transmission at Los Angeles
County restaurants and did not have State or County
data to support any outdoor dining closure. Los
Angeles County Health Officer Dr. Muntu Davis
referred to a single study by the Centers for Disease
Control and Prevention—calling it “the best
information that we have” in support of the
Restaurant Closure Order; but that study provided no
insight into the risks specific to outdoor dining
because it failed to distinguish between indoor and
outdoor dining as potential vectors for COVID-19
transmission, even while all available evidence on the
transmission of any airborne illness suggests that
ventilation is the key factor.
B.

The Trial Court Grants CRA’s
Motion For Preliminary Injunction

CRA sued, alleging, inter alia, substantive due
process violations, and moved for a preliminary
injunction against the County’s evidence-free
Restaurant Closure Order. The trial court granted a

7
preliminary injunction. App. 29a. In a circumspect,
53-page decision, the trial court found the Restaurant
Closure Order arbitrary and capricious because the
County, as a matter of fact, had failed to consider the
costs of its policies, and the County had no
information about its relative benefits. See App. 34a.
The trial court noted that agencies violate a
litigant’s due process rights with agency action that is
“arbitrary, capricious, or entirely lacking in
evidentiary support.” See App. 108a (quoting Davies
v. Contractors’ State License Bd., 79 Cal. App. 3d 940,
946 (1978)). The trial court correctly recited that its
duty was to “ensure that the agency has adequately
considered all relevant factors and has demonstrated
a rational connection between those factors and the
choice made.” App. 108a (quoting Carrancho v. Cal.
Air Res. Bd., 111 Cal. App. 4th 1255, 1265 (2003)). In
particular, the trial court evaluated the enabling
statutes for the County’s Restaurant Closure Order—
California Health and Safety Code sections 101040(a)
and 120175, App. 157a and 158a—and determined
that those provisions require health officials to
consider the important aspects of the problem they
are trying to solve, including the likely risks or
benefits of agency action because they authorize
health officials to take “measures as may be necessary
to prevent the spread of disease . . . .” App. 43a and
149a. In the same vein, the trial court noted that
under the State of California’s Blueprint for a Safer
Economy, local health agencies “may continue to
implement or maintain more restrictive public health
measures” than those imposed by the State’s
Blueprint for a Safer Economy, but only “if the local

8
health officer determines that health conditions in
that jurisdiction warrant such measures.” App. 148a.
After all, without any understanding of the likely
risks or benefits of a given course of action, how could
a government agency make a non-arbitrary or
capricious determination about what “may be
necessary”?4
The trial court also expressly acknowledged the
considerable deference owed to executive agencies
pursuant to this Court’s decision in Jacobson, and
emphasized that although “a municipality’s health
officer has broad authority” to enact reasonable
regulations to protect the public health and public
safety, that power is not “unbridled.” App. 43a-44a.
The trial court recited its “duty to evaluate an
exercise of that authority to ensure actions taken
have a ‘real and substantial relationship’ to public
health and safety. The health officer cannot act
arbitrarily or oppress. In addition, the health officer
cannot engage in a ‘plain, palpable invasion of rights’
secured by the Constitution.” Id. (quoting and citing
Jacobson, 197 U.S. at 31, 38).
The trial court also acknowledged and
addressed the County’s argument that it was entitled
to rely on “rational speculation” to support its
Restaurant Closure Order, noting that the rational
basis test “does not allow a party to probe the
Rather than showing that it had actually considered the
probable costs or risks associated with the Restaurant Closure
Order, the County argued that the trial court could not require
the County to consider such costs or risks at all. App. 139a-40a.
4

9
decision-making processes of the government” only
“[f]or purposes of equal protection claims,” as opposed
to the substantive due process claims advanced by
CRA. App. 107a. As the trial court explained, the
substantive component of the Due Process Clause of
the Fourteenth Amendment “bars arbitrary,
wrongful, government action,” and that “[w]hile
courts do not weigh evidence when applying this test,
they must ensure that the agency has adequately
considered all relevant factors and has demonstrated
a rational connection between those factors and the
choice made.” App. 108a (citing Zinermon, 494 U.S.
at 125; Carrancho, 111 Cal. App. 4th at 1265).
Applying that governing law to the public
health context, as informed by independent experts
and the County’s own evidence, the trial court found
that “public health decisions require a risk/benefit
analysis of health restrictions. In making public
health decisions, it is important for health officials to
weigh the overall risk of the given disease to the
overall benefits of the imposed public health policy.”
App. 136a. The trial court then found, as a matter of
fact, that the County had not assessed the costs or
risks of its Restaurant Closure Order before issuing
it, notwithstanding the County’s conclusory
declarations claiming to have done so. App. 138a and
155a.
The trial court also found that the County had
not relied on any quantitative data establishing the
magnitude of any risk posed by outdoor dining; it
found that the only evidence in the record about
transmission specific to outdoor dining concluded that

10
the risk was insubstantial. App. 144a-45a and 155a.
The trial court concluded that understanding the
likely prospective benefits of a policy would be an
important consideration of a non-arbitrary and
capricious health policy. App. 156a.
Notwithstanding its conclusion that the
Restaurant Closure Order was arbitrary and
capricious, the trial court did not put an end to the
Restaurant Closure Order; it merely held that the
County could not extend that ban any further unless
and until the County conducted a risk-benefit
analysis elucidating the County’s calculus. App.
156a. Nor did the trial court dictate that the County
needed to perform any particular form of analysis.
Instead, the trial court merely stated that the County
could not extend the Restaurant Closure Order
beyond a temporary three-week period.
C.

The Appellate Court Issues A Writ
Of Mandate

The County filed a Petition for Writ of Mandate
with the Court of Appeal two days after the trial court
issued the preliminary injunction. The next day, the
Court of Appeal stayed the preliminary injunction
and issued an order to show cause.
On March 1, 2021, the Court of Appeal issued
an opinion granting the County’s writ petition and
vacating the trial court’s preliminary injunction.
App. 2a (61 Cal. App. 5th 478). The Court of Appeal
upheld the County’s Restaurant Closure Order on the
ground that the County purportedly had a rational

11
basis to believe that closing outdoor dining would
mitigate the spread of COVID-19. App. 3a (61 Cal.
App. 5th 478, 482) (“Although the [County] had no
study specifically demonstrating that outdoor
restaurant dining contributes to the spread of the
disease, [it] had a rational basis to believe it does.”).
In order to uphold the Restaurant Closure
Order, the Court of Appeal fashioned a novel test for
how agency action should be analyzed during a
pandemic. The Court of Appeal held “that courts
should be extremely deferential to public health
authorities, particularly during a pandemic, and
particularly where, as here, the public health
authorities have demonstrated a rational basis for
their actions.” App. 4a (61 Cal. App. 5th 478, 483).
Surveying Jacobson, South Bay United Pentecostal
Church v. Newsom, 140 S. Ct. 1613 (2020) (“South
Bay I”), Calvary Chapel Dayton Valley v. Sisolak, 140
S. Ct. 2603 (2020), Roman Catholic Diocese, and
South Bay II, the Court of Appeal opined that agency
action must pass rational basis scrutiny, and would
fail if the agency action could be deemed “arbitrary,
capricious, or entirely lacking in evidentiary support.”
App. 17a (61 Cal. App. 5th 478, 490) (citing Davies, 79
Cal. App. 3d at 946).
However, the Court of Appeal did not discuss
the decades of case law holding that agency action is
“arbitrary and capricious if the agency has . . . entirely
failed to consider an important aspect of the problem.”
E.g., State Farm, 463 U.S. at 43. Instead, the Court
of Appeal construed the rational basis test and
arbitrary and capricious test as “identical.” App. 17a

12
(61 Cal. App. 5th 478, 490) (citing Ursack, Inc. v.
Sierra Interagency Black Bear Group, 639 F.3d 949,
958 (9th Cir. 2011)). Essentially, the Court of Appeal
ignored the trial court’s careful distinction between
equal protection claims, for which courts do not look
into governmental decision-making, and substantive
due process claims, for which courts are obligated to
ensure that agency action is not arbitrary, capricious,
or entirely lacking in evidentiary support.
Consistent with its view that extreme
deference to health agencies is required and heedless
of the case law requiring agencies to consider the
important aspects of the problem being addressed
through agency action, the Court of Appeal concluded
that
“[m]andating
a
nebulous
risk-benefit
requirement is inconsistent with the court’s
appropriate role,” and that CRA had consequently
“failed to satisfy [its] burden of demonstrating the
Order is arbitrary, capricious, or without rational
basis.” App. 23a and 25a (61 Cal. App. 5th 478, 493,
495).
D.

The Court Of Appeal Denies CRA’s
Petition For Rehearing

On March 11, 2021, CRA filed a Petition for
Rehearing in which CRA noted that the Court of
Appeal had failed to consider or discuss evidence
offered by two expert witnesses (who confirmed that
some assessment of likely risks or costs was necessary
in public health policy contexts). The Court of Appeal
denied the petition for rehearing the following day.

13
E.

The California Supreme Court
Denies CRA’s Petition For Review

On April 8, 2021, CRA filed a Petition for
Review with the Supreme Court of California seeking
review of the Court of Appeal’s March 1, 2021 opinion.
On June 9, 2021, the Supreme Court of California
denied the petition for review. App. 1a.
REASONS FOR GRANTING THE PETITION
A.

Review Is Necessary To Settle
Important Questions That Will
Recur During This Pandemic And
Future Public Health Crises

Review should be granted here because the
Court of Appeal “has decided an important question
of federal law that has not been, but should be, settled
by this Court.” Sup. Ct. R. 10(c). This Court should
issue a writ of certiorari and reverse the decision
below to clarify that generally applicable standards of
administrative law, which prohibit government
action that is “arbitrary and capricious,” apply to
government health agencies during a pandemic, even
where a non-fundamental right is abridged. As
discussed below, the Court of Appeal ignored key
aspects of that inquiry to excuse public health officials
and uphold the County’s Restaurant Closure Order,
although the trial court had ruled that the County
had “entirely failed to consider an important aspect of
the problem,” see State Farm, 463 U.S. at 43, by
ignoring the economic, social, and psychological costs
of its restaurant shutdown. Absent these safeguards

14
against arbitrary government action, the judiciary
will have abdicated its duty—recognized from
Jacobson through the present—to ensure that agency
powers are not exercised “in such an arbitrary,
unreasonable manner, or might go so far beyond what
was reasonably required for the safety of the public.”
Jacobson, 197 U.S. at 28; see also Roman Catholic
Diocese, 141 S. Ct. at 70 (Gorsuch, J., concurring)
(“Jacobson didn’t seek to depart from normal legal
rules during a pandemic, and it supplies no precedent
for doing so.”).
This case is neither sui generis nor moot.5
Judicial review of government agencies’ edicts for
arbitrary and capricious action will remain a vital and
The County may attempt to argue that this matter is
moot, notwithstanding its recent warnings about the Delta
variant of COVID-19 and its recent mandate that Los Angeles
residents must wear masks in indoor environments, an order
that its own chief law enforcement officer has said his
department will not enforce, in part because it is not supported
by science. See Sophie Kasakove, Los Angeles County’s sheriff
declines to enforce the mask mandate about to resume, N.Y.
Times, https://www.nytimes.com/2021/07/17/world/los-angelessheriff-mask.html (July 17, 2021).
The Court of Appeal
acknowledged that this matter is not moot, at the very least,
because “conditions may change and the County may re-impose
its outdoor restaurant dining ban.” App. 4a (61 Cal. App. 5th
478, 483). As a result, this matter “fits squarely within an
exception to mootness” for cases where the “(1) challenged action
is in its duration too short to be fully litigated prior to cessation
or expiration, and (2) there is a reasonable expectation that the
same complaining party will be subject to the same action
again.” App. 11a-12a (61 Cal. App. 5th 478, 487) (quoting Fed.
Election Comm’n v. Wis. Right to Life, Inc., 551 U.S. 449, 462
(2007)).
5

15
needed check on executive authorities purportedly
exercising emergency powers, especially as the
COVID-19 pandemic hopefully begins to fade and the
necessity of extreme intervention like the Restaurant
Closure Order here at issue dissipates. However, if
the Court of Appeal’s decision is left to stand
unchecked, health officials around the country might
conclude that they have free rein to order any
regulation they desire, heedless of cost or
consequence, so long as they steer clear of the First
Amendment or other clearly defined “fundamental
rights.”6

It can be argued (as Mark’s Engine Company No. 28 did
below) that fundamental rights are in fact implicated here with
respect to the right to pursue a chosen profession and the right
to assemble. See Opp’n to Pet. for Writ of Mandate, Prohibition
or Other Appropriate Relief and Request for Stay at 14-18,
County of Los Angeles, Dep’t of Pub. Health v. Super. Ct.
(California Restaurant Ass’n, Inc.) (Cal. Ct. App. 2021) (No.
B309416) (filed by Mark’s Engine Co. No. 28); Greene v. McElroy,
360 U.S. 474, 492 (1950); Truax v. Raich, 239 U.S. 33, 41 (1915).
But, even setting aside the complicated analysis of where the
line of fundamental rights begins and ends, the Court of Appeal’s
holding contradicts the precedent it claims to follow, including
Jacobson, which expressly instructs courts to invalidate
government regulation “purporting to have been enacted to
protect the public health” but which “has no real or substantial
relation to [that] object.” Jacobson, 197 U.S. at 31. The trial
court followed that precedent and concluded that the ban was
arbitrary and had no real relation to the public health, without
any indication that outdoor dining actually posed any risk of
substantial transmission or consideration of whether the
benefits outweighed the risks. App. 142-145a and 154a-156a.
The County has now done this again with respect to its renewed
mask order (for vaccinated individuals). Sophie Kasakove, Los
Angeles County’s sheriff declines to enforce the mask mandate
6

16
Because this Court has only revisited Jacobson
in the context of fundamental rights cases—
specifically, those involving First Amendment
challenges—an absence of authority from this Court
in non-fundamental rights cases has caused lower
courts to provide extreme and unjustifiable deference
to executive agencies. These courts have concluded
that, where “non-fundamental” rights are implicated,
government regulation of individuals’ liberty cannot
be curtailed in the face of a pandemic, no matter how
slapdash or ill-considered the government action.7
That conclusion is not an exaggeration. The
logic of the Court of Appeal’s decision holds that if
there is any articulable reason to believe that some
disease transmission is possible in a given context, a
public health agency may regulate that conduct out of
existence in the name of public health.8 The Court of
about
to
resume,
N.Y.
Times,
https://www.nytimes.com/2021/07/17/world/los-angeles-sheriffmask.html (July 17, 2021).
Although CRA tends to agree with Mark’s Engine
Company No. 28 that fundamental rights are implicated here,
no discussion of that point is necessary because the trial court
found that the County’s order was arbitrary, capricious, and
entirely lacking in evidentiary support irrespective of whether
or not fundamental rights were implicated for equal protection
purposes. App. 154a-55a. Therefore, in this Petition, CRA
advances the trial court’s conclusion that the Restaurant
Closure Order is improper regardless of whether fundamental
rights are involved. The undisputed fact is that the County did
not consider the devastating consequences of its decision to close
essentially an entire industry.
7

Recently, the United States Court of Appeals for the
Ninth Circuit determined that because citizens have no
8

17
Appeal specifically rejected the notion that a
government health agency might need to consider
whether the likely benefits of a given policy outweigh
its costs, or even to appreciate what costs or risks are
implicated, even though the relevant enabling
statutes required health officials to only promulgate
“measures as may be necessary” to combat the spread
of disease. App. 157a-58a (Cal. Health & Safety Code
§§ 101040, 120175); App. 17a-18a n.5 (61 Cal. App.
5th 478, 483 n.5).
Illustrating the lack of any limiting principle to
the Court of Appeal’s decision, the County’s only basis
for prohibiting outdoor dining was the premise that
prolonged in-person interaction increased the
possibility of transmitting COVID-19. The County
had no evidence quantifying the magnitude of that
fundamental right to any particular form of public education, the
State of California could permissibly prohibit all in-person public
education under rational basis review. Brach v. Newsom, No.
20-56291, 2021 WL 3124310, at *12 (9th Cir. July 23, 2021).
However, the Ninth Circuit determined that the State could not
prohibit in-person private education on the basis of the State’s
thin evidence that “[i]t is possible that in the school setting, as
in other settings, asymptomatic transmission may occur,”
because the State “did not identify any evidence indicating that
children in a school setting would present greater risks of
transmission than some of the other activities that the State had
authorized, such as operating grocery stores, factories, daycare
centers, and shopping malls.” Id. at *18. In other words, the
Ninth Circuit recognized that government actors have some
obligation to consider the relative costs and benefits in
promulgating emergency policies, but has refused to police that
requirement outside the fundamental rights context. A decision
from this Court is needed to provide guidance when the
regulatory line is crossed in the non-fundamental rights context.

18
“risk,” nor did it consider any evidence about the costs
that would be imposed on hundreds of thousands of
Los Angeles residents who were put out of a job while
the County completely shut down restaurants, and on
restaurant workers who depended on in-person
dining to make a living.
Thus, due to the absence of guidance from this
Court in the context of actions impacting nonfundamental rights—and more specifically, where
unelected officials promulgate sweeping policies
without considering any evidence that would lead
them to act non-arbitrarily—the Court of Appeal
erred in failing to properly apply Jacobson to this
case. This Court should grant review in order to
provide this much-needed guidance, lest government
agency officials interpret the Court of Appeal’s
decision as a blank check for unlimited authority in a
pandemic so long as those officials manufacture a
remotely plausible public safety justification after the
fact.
B.

This Court Should Affirm That
Traditional Rules For Reviewing
Agency Action Are Not Dispensed
With In A Pandemic

Both the Court of Appeal and the trial court
agreed that Jacobson and more recent decisions by
this Court require that a reviewing court evaluating
substantive due process claims must review the
challenged agency action under a standard of review
akin to what is applicable to “arbitrary and
capricious” action. App. 14a-17a (61 Cal. App. 5th

19
478, 488-490); App. 43a-44a; App. 105a-106a. The
agreement of these Courts ends there. The Court of
Appeal concluded that rational basis review in a
pandemic cannot impose any requirement that a
government agency consider the important aspects of
the problem it is trying to solve. Nor, concluded the
Court, does that standard of review require an agency
to consider any evidence that might inform on the
magnitude of the likely costs or benefits of the policies
it promulgates.
That modified test absolves
government agencies from having to “examine the
relevant data and articulate a satisfactory
explanation for its action[,] including a ‘rational
connection between the facts found and the choice
made.’”
State Farm, 463 U.S. at 43 (quoting
Burlington Truck Lines v. United States, 371 U.S.
156, 168 (1962)).9 Moreover, the Court of Appeal’s
test completely discards the rule that an agency fails
to meet the arbitrary and capricious standard if it has
“failed to consider an important aspect of the problem,
offered an explanation for its decision that runs
counter to the evidence before the agency, or is so
implausible that it could not be ascribed to a
California law is coterminous with federal law in
requiring that courts reviewing agency action “ensure that an
agency has adequately considered all relevant factors, and has
demonstrated a rational connection between those factors, the
choice made, and the purposes of the enabling statute.” Cal.
Hotel & Motel Ass’n v. Indus. Welfare Comm’n, 25 Cal. 3d 200,
212 (1979) (emphasis added); see also W. States Petrol. Ass’n v.
Super. Ct. (Cal. Air Res. Bd.), 9 Cal. 4th 559, 577-78 (1995)
(reversing Court of Appeal’s grant of a petition for writ of
mandate where the agency had failed to show its consideration
of factors relevant to its regulation).
9

20
difference in view or the product of agency expertise.”
Id.
The Court of Appeal’s approach engages in a
misunderstanding of this Court’s opinion in Jacobson
and its more recent decisions clarifying that Jacobson
did not modify generally applicable standards for
judicial review of administrative actions. Mistakenly
believing that this Court held that Jacobson required
only rational basis review in any context where nonfundamental rights were implicated, regardless of the
governmental actor,10 the Court of Appeal set aside
decades of administrative law requiring agencies to
consider at least some evidence or at least the
important aspects of the problems they are trying to
solve in order to avoid acting arbitrarily and
capriciously and infringing upon substantive due
process rights.
Had the Court of Appeal applied the generally
applicable administrative law analysis, as the trial
court did, it would have concluded that the County did
not consider important aspects of the public health
This Court has held that the standard in reviewing
whether action is arbitrary and capricious—applicable to review
of agencies’ quasi-legislative action—is not the same as rational
basis review. See State Farm, 463 U.S. at 44 n.9 (rejecting the
argument that “the arbitrary and capricious standard requires
no more than the minimum rationality a statute must bear in
order to withstand analysis under the Due Process Clause,”
because “[w]e do not view as equivalent the presumption of
constitutionality afforded legislation drafted by Congress and
the presumption of regularity afforded an agency in fulfilling its
statutory mandate.”).
10

21
problem it was trying to solve—namely, the economic,
psychological, and social costs of completely shutting
down the livelihoods of hundreds of thousands of Los
Angeles residents—and that the County therefore
acted arbitrarily and capriciously, in violation of those
residents’ substantive due process rights under the
Due Process Clause of the Fourteenth Amendment.
See Zinermon, 494 U.S. at 125 (“[T]he Due Process
Clause contains a substantive component that bars
certain arbitrary, wrongful government actions
‘regardless of the fairness of the procedures used to
implement them.’” (quoting Daniels, 474 U.S. at 331)).
The “core of the concept” of substantive due process is
the protection against arbitrary government action.
Hurtado, 110 U.S. at 527; see also Wolff v. McDonnell,
418 U.S. 539, 558 (1974) (“The touchstone of due
process is protection of the individual against
arbitrary action of government.” (citing Dent v. West
Virginia, 129 U.S. 114, 123 (1889))).
Here, the trial court correctly observed that
litigants may not probe government decision-making
only in the context of equal protection; conversely, in
this substantive due process challenge, government
actors are not allowed to “rationally speculate,” and
instead must demonstrate that they have considered
all relevant factors and demonstrate a rational
connection between those factors and the choice
made. See App. 139a-42a.
Because the relevant enabling statutes vest
discretion in the public health officer to determine
what measures “may be necessary” to combat the
spread of disease, the trial court concluded that the

22
County must at least consider the relative magnitude
of risks or costs on the one hand and the magnitude
of prospective benefits that would be gained from the
outdoor dining ban on the other hand. App. 155a-56a.
The trial court found, as a matter of fact, that the
County had failed to consider those factors prior to
issuing the outdoor dining ban. In other words, the
County had “failed to consider . . . important aspect[s]
of the problem” before implementing the outdoor
dining ban. See Dep’t of Homeland Sec. v. Regents of
the Univ. of Cal., 140 S. Ct. 1891, 1910, 1913 (2020)
(omission and alteration in original) (quoting State
Farm, 463 U.S. at 43); see also Michigan v. EPA, 576
U.S. 743, 752 (2015) (enabling statute authorizing
agencies to take actions that are “appropriate and
necessary” “requires at least some attention to cost”);
Indus. Union Dep’t v. Am. Petrol. Inst., 448 U.S. 607,
642-44 (1980) (authorizing statute’s use of
“reasonably necessary or appropriate” qualifier
required “some cost-benefit analysis before [the
Occupational Safety and Health Administration]
promulgates any standard”).
However, by
repudiating any consideration of relative cost and
benefit, the Court of Appeal abdicated its
responsibility to conduct even rational basis review,
much less arbitrary and capricious review. Michigan,
576 U.S. at 752 (“One would not say that it is even
rational, never mind ‘appropriate,’ to impose billions
of dollars in economic costs in return for a few dollars
in health or environmental benefits.”).
Reversing the trial court, the Court of Appeal
held that “[m]andating a nebulous risk-benefit
requirement is inconsistent with the court’s

23
appropriate role.” App. 23a (61 Cal. App. 5th 478,
493). All that is required, opined the Court of Appeal,
is that the County has “rationally speculated” that its
regulation would have some impact—without any
consideration of its size or cost—on public health. See
App. 22a-25a (61 Cal. App. 5th 478, 493-95) (relying
on claims that outdoor dining presents a “higher” risk
of transmission as justifying the County’s
determination that the Restaurant Closure Order
was “necessary”). This logic knows no bounds.
Under the Court of Appeal’s standard of
review, a government health agency could prohibit all
in-person interaction whatsoever without even
considering the costs because any in-person
interaction creates a “higher” risk of transmission.
See App. 24a-25a (61 Cal. App. 5th 478, 493-95).
Health officials could order all citizens to not sleep in
the same bed as a spouse or loved one who has
recently left their residence using the same rationale.
Health officials could claim authorization to ban all
car travel on the grounds that such travel poses an
unmitigatable risk of fatal accidents that would
contribute to overwhelming the hospital system.11 A
government agency could prohibit igniting flames in
Lest the Court view this suggestion as inapposite to the
exigencies imposed by a pandemic, the National Highway Traffic
Safety Administration has also concluded that highway
fatalities have increased as a result of the COVID-19 pandemic.
See Office of Behavioral Safety Research, Update to Special
Reports on Traffic Safety During the COVID-19 Public Health
Emergency: Third Quarter Data, https://www.nhtsa.gov/sites/
nhtsa.dot.gov/files/documents/traffic_safety_during_covid19_01
062021_0.pdf (Jan. 2021).
11

24
private residences when wildfires rage in California
because of the risk that a domestic kitchen fire could
tap scarce firefighting resources. Or, perhaps more
relevant here, the Court of Appeal is holding that
California public health agencies could issue an order
to force COVID-19 vaccinations on all citizens without
even considering the potential risks such a decision
might pose for sensitive populations. Cf. Jacobson,
197 U.S. at 29-30. Is this Court ready to countenance
such an order? Per the Court of Appeal, public health
agencies need not even consider the disproportionate
cost-benefit relationship of any of these measures, as
long as fundamental constitutional rights are not
implicated. App. 14a-15a (61 Cal. App. 5th 478, 488489).
Cases invalidating health agency action during
a pandemic demonstrate that the specific nature of
the right at issue is not, in and of itself, dispositive.
As Justice Gorsuch explained in both Roman Catholic
Diocese and South Bay II, “Jacobson didn’t seek to
depart from normal legal rules during a pandemic,
and it supplies no precedent for doing so.” Roman
Catholic Diocese, 141 S. Ct. at 70 (Gorsuch, J.,
concurring); see also South Bay II, 141 S. Ct. at 718
(Gorsuch, J., concurring) (“It has never been enough
for the State to insist on deference or demand that
individual rights give way to collective interests.”).
Even in cases like Jew Ho v. Williamson, 103 F. 10,
24 (C.C.N.D. Cal. 1900) and Wong Wai v. Williamson,
103 F. 1, 9 (C.C.N.D. Cal. 1900), where the courts
invalidated Chinatown quarantines targeting Asian
Americans, the courts took pains to observe that the
government “may not, under the guise of protecting

25
the public interests, arbitrarily interfere with private
business, or impose unusual and unnecessary
restrictions upon lawful occupations.” Jew Ho, 103 F.
at 20 (quoting Lawton v. Steele, 152 U.S. 133, 137
(1894)); see also Wong Wai, 103 F. at 7. Put simply,
each of these cases affirmed that generally applicable
administrative rules requiring government agencies
to not act arbitrarily, capriciously, or entirely without
evidentiary support apply, even in a pandemic.
In stark contrast to the Court of Appeal’s
failure to restrain enforcement of the County’s
Restaurant Closure Order, the court in County of
Butler v. Wolf performed the necessary review of an
overbroad and unjustified health regulation. See
County of Butler v. Wolf, 486 F. Supp. 3d 883, 922
(W.D. Pa. 2020) (“Wolf”) (“Rational basis review is a
forgiving standard for government acts, but it ‘is not
a toothless one . . . .’” (omission in original) (quoting
Mathews v. Lucas, 427 U.S. 495, 510 (1976)), stay
granted, No. 20-2936, 2020 WL 5868393 (3rd Cir. Oct.
1, 2020).12 In Wolf, the federal district court held that
Recognizing that even emergency powers have limits,
courts across the country have invalidated overbroad,
overreaching or arbitrary directives purportedly justified as
“necessary” to combat COVID-19. See, e.g., League of Indep.
Fitness Facilities & Trainers, Inc. v. Whitmer, 468 F. Supp. 3d
940, 948-99 (W.D. Mich. 2020), appeal dismissed as moot, 843 F.
App’x 707 (6th Cir. 2021) (even under the highly deferential
Jacobson and South Bay I standard, the state failed to introduce
evidence that demonstrated a rational relationship between
closing indoor gyms and public health when other similar
activities were permitted); Gym 24/7 Fitness, L.L.C. v.
Michigan, No. 20-000132-MM, 2020 WL 6050543, at *3 (Mich.
Ct. Cl. Sep. 24, 2020) (state was not entitled to summary
12

26
an order closing all “non-life-sustaining” businesses
with no end date was arbitrary and capricious
precisely because the government offered no objective
criteria for determining whether a business was “lifesustaining” or not, and thereby added “a governmentinduced cloud of uncertainty to the usual
unpredictability of nature and life,” running afoul of
the constitutional “protection against arbitrary
government action.” Wolf, 486 F. Supp. 3d at 921-22
(citing County of Sacramento v. Lewis, 523 U.S. 833,
846 (1998)). There, the court performed its role: it
checked arbitrary government action to protect its
constituents from the uncontested negative
consequences that flowed from that arbitrariness.
Requiring government agencies to consider the
costs of their policies and avoiding arbitrary
government action is all the more necessary now and
disposition on allegedly arbitrary regulations in the absence of
“documentary evidence suggesting whether the state relied on
these materials, or any other evidence, in its decision-making”);
Hund v. Cuomo, 501 F. Supp. 3d 185, 200-201 (W.D.N.Y. 2020)
(substantive due process challenge survived motion to dismiss
where regulation impeded pursuit of common professions); see
also Robinson v. Att’y Gen., 957 F.3d 1171, 1182 (11th Cir. 2020)
(state failed to justify limitations on abortions as necessary to
combat COVID-19); Preterm-Cleveland v. Att’y Gen. of Ohio, 456
F. Supp. 3d 917, 939 (S.D. Ohio 2020) (same); S. Wind Women’s
Ctr. v. Stitt, 455 F. Supp. 3d 1219, 1222 (W.D. Okla.), appeal
dismissed as moot, 823 F. App’x 677 (10th Cir. 2020) (same);
Ramsek v. Beshear, 468 F. Supp. 3d 904, 921 (E.D. Ky. 2020)
(blanket prohibition on gathering in large groups was
unconstitutionally overbroad), appeal dismissed as moot, 989
F.3d 494, 501 (6th Cir. 2021); Tabernacle Baptist Church, Inc. v.
Beshear, 459 F. Supp. 3d 847, 854-55 (E.D. Ky. 2020) (same).

27
going forward, in the remaining days of a dynamic
pandemic, when emergency health policies will have
questionable utility relative to the costs such policies
impose. As this Court’s decisions over the course of
the past year show, we are too far along in the
pandemic and our understanding of how COVID-19 is
transmitted to rely on pure exigency and speculation,
rational as it may be, as a reason to defer to public
health officials. In South Bay I (decided on May 29,
2020), a plurality of this Court held that the
exigencies of the then-new pandemic required
extreme deference to public health officials, even in
the face of a challenge to California’s public health
restrictions on First Amendment grounds. See South
Bay I, 140 S. Ct. at 1613. But in Roman Catholic
Diocese (November 25, 2020) and South Bay II
(February 5, 2021), months later in the course of the
pandemic, this Court held that such extreme
deference was no longer required, especially where
the litigants in those cases had established that the
government contravened constitutional rights by
favoring certain potentially COVID-19 spreading
activities over others. Roman Catholic Diocese, 141
S. Ct. at 66; South Bay II, 141 S. Ct. at 718.
Consistent with that authority, the trial court
correctly held that the County’s complete lack of
evidence quantifying the risk associated with outdoor
dining—and its failure to consider the mounting
evidence of the opposite, as reflected in CRA’s
submission and the record below—could not be
excused nine months into the pandemic. App. 142a45a. Established rules governing administrative
action, including those requiring basic considerations

28
of cost and benefit, must apply at some point. CRA is
not challenging a broad-based shutdown order
designed to handle an unstudied exigency, but rather
a narrowly tailored order that, nine months into the
pandemic, banned only outdoor dining while
contemporaneously permitting other businesses, such
as indoor/outdoor dining in the entertainment
industry, public parks with eating areas, and even
indoor hair and nail salons, to continue to operate,
even though the only scientific evidence available
(and certainly the only evidence in the record specific
to outdoor dining) showed that such measures were
unlikely to have any serious impact in curbing
COVID-19 transmission.
C.

Absent Review, Government Actors
Will Resist Takings Clause Claims
By Claiming That Shutdown Orders
Were Justifiable Regulations

This Court should also grant certiorari because
the decision of the California Supreme Court leaving
intact the flawed opinion of the Court of Appeal has
implications across other areas of constitutional law.
In particular, the Court of Appeal’s decision has
important ramifications for Takings Clause
jurisprudence. If the Court of Appeal’s order stands,
affirming that the County was justified in completely
shutting down outdoor dining in the name of public
health, governmental defendants may rely on that
decision to avoid paying just compensation for their
various takings under the Fifth Amendment. This
Court should grant certiorari to prevent these
governmental defendants from avoiding the Fifth
Amendment.

29
The United States Constitution states that “No
person shall be . . . deprived of life, liberty, or
property, without due process of law; nor shall private
property be taken for public use, without just
compensation.” U.S. Const. amend. V. The Fifth
Amendment “is designed not to limit the
governmental interference with property rights per
se, but rather to secure compensation in the event of
otherwise proper interference amounting to a taking.
Thus, government action that works a taking of
property
rights
necessarily
implicates
the
constitutional obligation to pay just compensation.”
First Eng. Evangelical Lutheran Church v. County of
Los Angeles, 482 U.S. 304, 315 (1987) (citation and
internal quotation marks omitted). This Court has
long recognized that the constitutional prohibition on
takings without compensation extends past physical
intrusions. “[I]f regulation goes too far it will be
recognized as a taking.” Pa. Coal Co. v. Mahon, 260
U.S. 393, 415 (1922).
A property owner can show that a government
action is a taking, without physical intrusion, in two
circumstances: “when the owner of real property has
been called upon to sacrifice all economically
beneficial uses in the name of the common good,”
Lucas v. S.C. Coastal Council, 505 U.S. 1003, 1019
(1992), and when there is a regulatory taking under
the rule established in Penn Central, 438 U.S. at 123.
Here, the County’s order shutting down all inperson dining in Los Angeles County gives rise to
takings claims. First, plaintiffs will be able to easily
establish clear diminution in value. In the trial court,

30
CRA introduced dozens of declarations highlighting
the ruinous economic impact of the Restaurant
Closure Order on restaurants within Los Angeles
County. App. 53a. As here, when a regulation
imposes a “considerable financial burden” on a party,
it supports a finding that there has been a taking. E.
Enters. v. Apfel, 524 U.S. 498, 529 (1998). These are
the sorts of burdens that fall squarely within Fifth
Amendment protection. See Penn Central, 438 U.S.
at 123-24 (“[T]he ‘Fifth Amendment’s guarantee . . .
[is] designed to bar Government from forcing some
people alone to bear public burdens which, in all
fairness and justice, should be borne by the public as
a whole.’” (omission and second alteration in original)
(quoting Armstrong v. United States, 364 U.S. 40, 49
(1960))).
Next, there has been an obvious interference
with reasonable investment-backed expectations. See
generally Palazzolo v. Rhode Island, 533 U.S. 606, 627
(2001). Restaurant owners have designed their
businesses to serve food. Suddenly, and with no
meaningful warning, they were prohibited from doing
so. Those same restaurants had, in many cases,
invested significant money and time into
implementing outdoor dining options. App. 53a. The
Restaurant Closure Order did not just interfere with
those expectations, it made them entirely valueless;
nor is the County’s order protected from being
classified as a taking just because it was temporary.
See, e.g., Tahoe-Sierra Pres. Council, Inc. v. Tahoe
Reg’l Planning Agency, 535 U.S. 302, 335-36 (2002)
(temporary takings are still analyzed within the Penn
Central framework).

31
However, lower courts analyzing the final
factor, the “character of the government action,” may
be inclined to conclude that only a total ban on dining
activity, instead of all on-premises dining, has the
character to constitute a taking, although the latter
undisputedly imposes a devastating financial
condition on restaurant owners, should this Court
allow the Court of Appeal’s decision to stand.
Compare, e.g., MHC Fin. Ltd. P’ship v. City of San
Rafael, 714 F.3d 1118, 1128 (9th Cir. 2013) (a rent
control ordinance was not a taking where “the
Ordinance is much more an ‘adjust[ment of] the
benefits and burdens of economic life to promote the
common good’ than it is a physical invasion of
property”) (quoting Penn Central, 438 U.S. at 124)
with Hodel v. Irving, 481 U.S. 704, 716 (1987) (a
taking exists when “the character of the Government
regulation here [was] extraordinary” because “the
regulation destroyed one of the most essential sticks
in the bundle of rights that are commonly
characterized as property”) (citations and internal
quotation marks omitted). See also Cienega Gardens
v. United States, 331 F.3d 1319, 1338 (Fed. Cir. 2003)
(“The character of the government’s action is that of a
taking of a property interest, albeit temporarily, and
not an example of government regulation under
common law nuisance or other similar doctrines,
which we would treat differently.”); Am. Pelagic
Fishing Co. v. United States, 49 Fed. Cl. 36, 47 (2001),
rev’d and remanded on other grounds, 379 F.3d 1363
(Fed. Cir. 2004) (“The relevant stick in the bundle in
this context is the right to use the Atlantic Star to
fish, subject to regulation.”).

32
Thus, absent guidance ensuring that arbitrary
exercises of government authority in the name of
public health are not “adjusting the benefits and
burdens of economic life to promote the common
good,” Penn Central, 438 U.S. at 124, lower courts
may ultimately hold that arbitrary and overreaching
government regulations do not amount to a taking.
That risk is heightened in the COVID-19 context
because these regulations will be easily “justified”
under Jacobson as interpreted by the Court of Appeal,
because any restriction on an economic use of private
property (at least, any use involving people
interacting in-person) could be justified as a nonarbitrary exercise of public health authorities’ powers
to prevent the spread of COVID-19, no matter how
significant an infringement on property rights.
As a result, allowing the County’s Restaurant
Closure Order to stand undisturbed would cast
significant doubt on what should be straightforward
Takings Clause claims, and raises important
questions of federal law that have not been, but
should be, settled by this Court.
CONCLUSION
For the reasons set forth above, a writ of
certiorari should issue to review the decision of the
California Court of Appeal and, ultimately, to reverse
that decision and render a decision in favor of CRA.

33
Dated: July 30, 2021
Respectfully submitted,
BROWNE GEORGE ROSS BROWNE GEORGE ROSS
O’BRIEN ANNAGUEY & O’BRIEN ANNAGUEY & ELLIS
ELLIS LLP
LLP
Dennis S. Ellis
Carl Alan Roth
Counsel of Record Noah S. Helpern
Eric M. George
Richard A. Schwartz
Katherine F. Murray
801 S. Figueroa Street
Ryan Q. Keech
Suite 2000
Lori Sambol Brody
Los Angeles, CA 90017
2121 Avenue of the
T: (213) 725-9800
Stars, Suite 2800
Los Angeles, CA 90067
T: (310) 274-7100
dellis@bgrfirm.com
Attorneys for Petitioner, California Restaurant
Association, Inc.

APPENDIX

1a
Appendixof
A the Supreme
Appendix A — Order
Court of THE STATE OF California,
Filed June 9, 2021
Court of Appeal
Second Appellate District
Division Four
No. B309416
S268101
IN THE SUPREME COURT OF CALIFORNIA
En Banc
COUNTY OF LOS ANGELES, DEPARTMENT
OF PUBLIC HEALTH, et al.,
Petitioners,
v.
SUPERIOR COURT OF LOS ANGELES COUNTY,
Respondent,
CALIFORNIA RESTAURANT ASSOCIATION, INC.,
et al.,
Real Parties in Interest.
The petitions for review are denied.
CANTIL-SAKAUYE
Chief Justice
Filed: June 9, 2021

2a
Appendix of
B the COURT OF
Appendix B — opinion
APPEAL OF the state of CALIFORNIA,
SECOND APPELLATE DISTRICT, DIVISION
FOUR, FILED March 1, 2021
COURT OF APPEAL OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION FOUR
B309416
COUNTY OF LOS ANGELES DEPARTMENT
OF PUBLIC HEALTH, et al.,
Petitioners,
v.
THE SUPERIOR COURT OF
LOS ANGELES COUNTY,
Respondent,
CALIFORNIA RESTAURANT
ASSOCIATION, INC., et al.,
Real Parties in Interest.
March 1, 2021, Opinion Filed
Opinion by Currey, J., with Manella, P. J., and Willhite,
J., concurring.

3a
Appendix B
INTRODUCTION
At a time when infection rates were surging, and
Southern California’s intensive care units were about to be
overwhelmed by COVID-19 patients, Los Angeles County’s
Department of Public Health issued an emergency order
temporarily prohibiting outdoor restaurant dining. Indoor
restaurant dining had already been banned. Although the
Department and its leadership (collectively, the County)
had no study specifically demonstrating that outdoor
restaurant dining contributes to the spread of the disease,
they had a rational basis to believe it does.
For example, it is undisputed that the disease spreads
through airborne transmission from an infected person
(who may be asymptomatic) to an uninfected member of
the community, if the latter receives a sufficient dose to
overcome his or her defenses. The risk of transmission
thus increases when people from different households
gather in close proximity for extended periods without
masks or other face coverings. The risk also increases
with unmasked talking and laughter. These conditions are
often all present when people dine together in restaurants,
whether indoors or out.
According to the County’s Chief Medical Officer and
Director of Disease Control, the wide consensus in the
public health field is that pandemic risk reduction does
not require definitive proof that a particular activity
or economic sector is “the” cause of an increase in
cases. Rather, best practices dictate that public health
departments take steps to mitigate identified risks,
particularly as infection rates and hospitalizations surge.

4a
Appendix B
In these consolidated cases, the trial court enjoined
the County’s order temporarily banning outdoor
restaurant dining until the County performed a riskbenefit analysis acceptable to the court. We issued a stay
and an order to show cause why the lower court’s order
should not be set aside. We now hold that courts should
be extremely deferential to public health authorities,
particularly during a pandemic, and particularly where,
as here, the public health authorities have demonstrated
a rational basis for their actions. Wisdom and precedent
dictate that elected officials and their expert public health
officers, rather than the judiciary, generally should decide
how best to respond to health emergencies in cases not
involving core constitutional freedoms. Courts should
intervene only when the health officials’ actions are
arbitrary, capricious, or otherwise lack a rational basis,
or violate core constitutional rights, which demonstrably
is not the case here.
Thankfully, during the pendency of this petition,
infection rates declined and ICU availability increased,
causing the Governor to rescind a similar prohibition on
outdoor dining at restaurants, and the County to lift its
prohibition as well. While we hope we do not see another
surge, we recognize that conditions may change and the
County may re-impose its outdoor restaurant dining ban.
Thus, the cases are not moot. Accordingly, we issue a
peremptory writ of mandate directing the trial court to
set aside its order granting a preliminary injunction, and
to instead deny the motions seeking that relief.
This does not mean we are unsympathetic to the plight
of restaurant owners and their employees, or to those in so

5a
Appendix B
many other sectors who have had their livelihoods taken
away and personal finances decimated by the pandemic.
Far from it. Both the disease itself and its economic
consequences have harmed people and communities
unequally, sometimes devastatingly so. But whether, when,
and how a risk-benefit calculus should be performed, and
whether existing orders should be altered to mitigate their
costs, is a matter for state and local officials to decide. The
Los Angeles County Board of Supervisors considered the
restaurant industry’s objections to the order prohibiting
outdoor dining at restaurants, but declined (by a majority
vote) to rescind the order. On these facts, we will not
disturb that decision.
FACTUAL AND PROCEDURAL BACKGROUND
On March 4, 2020, Governor Newsom declared a
“State of Emergency,”1 in response to the global outbreak
of COVID-19, “a new disease, caused by a novel (or
new) coronavirus that has not previously been seen in
humans.” (Centers for Disease Control and Prevention,
Coronavirus Disease, COVID-19, Frequently Asked
Questions, What is COVID-19? (Feb. 2, 2021) <https://
1. The California Emergency Services Act empowers state
and local governments to declare emergencies and coordinate
efforts to provide services. (Gov. Code, §§ 8550–8669.7.) A “state
of emergency” means “the existence of conditions of disaster or
of extreme peril to the safety of persons and property within the
state caused by conditions” including an “epidemic” and “which,
by reason of their magnitude, are or are likely to be beyond the
control of” any single county or city and “require the combined
forces of a mutual aid region or regions.” (Gov. Code, § 8558.)

6a
Appendix B
www.cdc.gov/coronavirus/2019-ncov/faq.html> [as of Mar.
1, 2021].) To limit the spread of COVID-19, on March 19,
2020, Governor Newsom issued a Stay-at-Home Order,
requiring California residents to remain in their homes
except when engaging in essential activities.
Since March 2020, the County has also issued a series
of health orders to combat the spread of COVID-19. These
orders have been modified in response to hospitalization
and death rates, and scientists’ evolved understanding
of how the virus is transmitted. The County’s June 1,
2020 order prohibited restaurants from providing indoor
dining, but permitted them to offer outdoor dining if
they followed safety protocols set forth in the order.
On November 19, 2020, the County imposed further
restrictions on outdoor dining, including that dining must
be reduced by 50 percent or tables must be repositioned
so that they are at least eight feet apart.
On November 22, 2020, the County announced that,
effective November 25, 2020, it would temporarily prohibit
both indoor and outdoor dining at restaurants, breweries,
wineries, and bars to combat the alarming surge in
COVID-19 hospitalizations and deaths (“Order”). Under
the Order, restaurants were permitted to continue takeout, delivery, and drive-through services.
In response to the Order, the California Restaurant
Association, Inc. (CRA) and Mark’s Engine Company
No. 28 Restaurant LLC (Mark’s) (collectively, the
“Restaurateurs”), filed separate suits against the County
in respondent Los Angeles County Superior Court.

7a
Appendix B
CRA alleged the County “shut down outdoor dining
without relying on or making available to the public any
competent scientific, medical, or public health evidence
stating that outdoor dining poses a substantial risk of
unacceptably increasing the transmission of COVID-19.”
It brought claims for (1) writ of traditional mandate;
(2) writ of administrative mandate; (3) declaratory and
injunctive relief; and (4) violation of due process and equal
protection. Similarly, Mark’s alleged the Order “is an
abuse of Defendants’ purported ‘emergency powers’ and
is neither grounded in science, evidence nor logic, and thus
should be deemed and adjudicated … to be unenforceable
as a matter of law.” It brought claims for (1) declaratory
judgment; and (2) infringement of its right to liberty (Cal.
Const., art. I, § 1). 2
On November 24, 2020, the trial court denied CRA’s
ex parte application to stay the Order for failure to
present sufficient evidence to make a prima facie case.
It permitted CRA to renew its application, however, as
one for a temporary restraining order (TRO) and an
order to show cause re: preliminary injunction (OSC) if it
“presented evidence that the restrictions are unsupported
2. Neither CRA nor Mark’s, however, argues in this writ
proceeding that the Order violates its right to liberty under
the California Constitution or the equal protection clause of the
Fourteenth Amendment, except for Mark’s cursory statement that
the Order “had a disparate impact on [Mark’s] and has unfairly
targeted the restaurant industry, despite the total lack of scientific
evidence … .” We therefore deem these arguments abandoned.
(Daniels v. Select Portfolio Servicing, Inc. (2016) 246 Cal.App.4th
1150, 1171, fn. 12 [201 Cal. Rptr. 3d 390].)

8a
Appendix B
and of irreparable harm.” On December 1, 2020, the court
also denied Mark’s separate ex parte application, but
permitted it to file a new ex parte application for a TRO
and OSC. The trial court later denied CRA’s and Mark’s
ex parte applications for a TRO, but issued an OSC and
set the consolidated actions for hearing.
While this action was pending in the trial court,
Governor Newsom issued a “Regional Order,” which took
effect on December 5, 2020. The Regional Order, among
other things, prohibited indoor and outdoor dining at
restaurants in the Southern California region in the event
available ICU beds in the region fell below 15 percent of
capacity. The Regional Order was to remain in effect for
at least three weeks and, after that period, would be lifted
if the region’s ICU availability projection for four weeks
equaled or exceeded 15 percent of capacity.
On December 8, 2020, the trial court held a hearing on
the OSC. On December 15, 2020, the trial court entered
an order enjoining the County from enforcing or enacting
any County ban on outdoor dining after December 16,
2020, unless and until its public health officers “conduct[]
an appropriate risk-benefit analysis and articulate it for
the public to see.”
The County petitioned this court for a writ of
mandate directing respondent court to immediately
stay the preliminary injunction, and issue a peremptory
writ commanding respondent court to set aside the
injunction. We stayed the preliminary injunction order
and issued an order to show cause on December 18, 2020.

9a
Appendix B
The Restaurateurs filed a return, and the County filed
a reply. 3 We also granted the applications of the City
of Santa Clarita, Golden Gate Restaurant Association,
Bicycle Casino, LP, et al., and Restaurant Law Center to
file amicus briefs in support of the Restaurateurs.
While this writ petition was pending, on January 25,
2021, the Governor lifted the Regional Order based on the
latest projections of improved regional ICU availability.
The County also announced on January 25, 2021 that it
3. CRA requests we take judicial notice of nine documents.
Exhibits 1 through 5 are printouts from the Centers for Disease
Control and Prevention and the County of Los Angeles Public
Health websites purporting to demonstrate that federal and Los
Angeles County health authorities conduct risk-benefit analyses in
connection with determinations about public health policy. These
documents were not presented to the trial court, and we decline
to judicially notice them. (See Brosterhous v. State Bar (1995)
12 Cal.4th 315, 325–326 [48 Cal. Rptr. 2d 87, 906 P.2d 1242] [“An
appellate court may properly decline to take judicial notice under
Evidence Code sections 452 and 459 of a matter which should have
been presented to the trial court for its consideration in the first
instance. [Citations.]”].) We also deny CRA’s request to judicially
notice exhibits 8 and 9, minute orders dated December 16, 2020,
and December 17, 2020, in Midway Ventures, LLC v. County of
San Diego, case No. 37-2020-00038194-CU-CR-CTL. We do not
consider unpublished trial court orders in other cases as authority
and, in any event, the Court of Appeal reversed the trial court
on the ground it “erred by entering an overbroad injunction that
was unsupported by the law.” (Midway Venture LLC v. County of
San Diego (2021) 60 Cal.App.5th 58 [___ Cal. Rptr. 3d ___].) We
grant CRA’s request to judicially notice exhibits 6 and 7, County
orders dated December 11, 2020, and December 27, 2020. (Evid.
Code, § 452, subd. (h).)

10a
Appendix B
would permit outdoor dining at restaurants beginning
January 29, 2021, but with significant restrictions
(including minimum specified distances between tables,
requiring servers to wear face coverings at all times and
patrons to do so unless eating or drinking, and a new
requirement that diners may only be seated at a table
with members of their own household).
DISCUSSION
A. 	Standard of Review
We generally review the grant of a preliminary
injunction for abuse of discretion. (Sahlolbei v. Providence
Healthcare, Inc. (2003) 112 Cal.App.4th 1137, 1145 [5
Cal. Rptr. 3d 598].) In exercising its discretion, the court
must consider “two interrelated factors: the likelihood
the moving party ultimately will prevail on the merits,
and the relative interim harm to the parties from the
issuance or nonissuance of the injunction. [Citation.]”
(Hunt v. Superior Court (1999) 21 Cal.4th 984, 999 [90
Cal. Rptr. 2d 236, 987 P.2d 705].) “A trial court may
not grant a preliminary injunction, regardless of the
balance of interim harm, unless there is some possibility
that the plaintiff will ultimately prevail on the merits
of the claim. [Citation.] ‘Where there is … no likelihood
that the plaintiff will prevail, an injunction favoring the
plaintiff serves no valid purpose and can only cause
needless harm.’ [Citation.]” (Aiuto v. City & County of
San Francisco (2011) 201 Cal.App.4th 1347, 1361 [135
Cal. Rptr. 3d 617].) Where “the determination on the
likelihood of a party’s success rests on an issue of pure

11a
Appendix B
law not presenting factual issues to be resolved at trial,
we review the determination de novo. [Citation.]” (14859
Moorpark Homeowner’s Assn. v. VRT Corp. (1998) 63 Cal.
App.4th 1396, 1403 [74 Cal. Rptr. 2d 712].) For the reasons
discussed below, we conclude the trial court failed to apply
the proper deferential standard for evaluating state and
local agencies’ responses to public health emergencies.
Under the correct standard, there is no likelihood the
Restaurateurs will prevail on the merits of their claims.
The trial court therefore abused its discretion by issuing
a preliminary injunction.
B. 	This Action Is Not Moot
As stated above, while this writ was pending, the
County lifted its prohibition on outdoor dining based on
the latest data demonstrating a decline in daily case and
hospitalization rates. This matter is not moot, however.
(See Roman Catholic Diocese of Brooklyn v. Cuomo
(2020) 592 U.S ___ [208 L.Ed.2d 206, 210, 141 S.Ct. 63,
68] (per curiam) (Roman Catholic Diocese) [holding the
applications to enjoin an order restricting attendance at
religious services were not moot despite those restrictions
being lifted during the pendency of the action because
“the applicants remain under a constant threat” that those
restrictions may be reinstated as the COVID-19 pandemic
evolves].) The County has made it clear that it may reimpose its prohibition on outdoor dining if the region faces
another surge. This matter therefore fits squarely within
an exception to mootness: “‘(1) the challenged action is in
its duration too short to be fully litigated prior to cessation
or expiration, and (2) there is a reasonable expectation

12a
Appendix B
that the same complaining party will be subject to the
same action again.’ [Citation.]” (Federal Election Comm’n
v. Wisconsin Right to Life, Inc. (2007) 551 U.S. 449, 462
[168 L.Ed.2d 329, 127 S.Ct. 2652]; see also Amgen Inc. v.
California Correctional Health Care Services (2020) 47
Cal.App.5th 716, 728 [260 Cal. Rptr. 3d 873] [an appellate
court retains “‘discretion to decide a moot issue if the case
presents an issue of “‘substantial and continuing public
interest’” and is capable of repetition yet evades review.’
[Citation.]”].)
C. 	The Order Is Not a Plain, Palpable Invasion of
Rights Secured by the Fundamental Law and
Is Rationally Related to Limiting the Spread of
COVID-19
a.

Jacobson and Its Progeny

More than 100 years ago, the United States Supreme
Court established the extremely deferential standard of
review applicable to emergency exercises of governmental
authority during a public health emergency. In 1905,
the Supreme Court upheld a mandatory vaccination law
against a substantive due process challenge. (Jacobson
v. Massachusetts (1905) 197 U.S. 11, 39 [49 L.Ed. 643, 25
S.Ct. 358] (Jacobson).) It stated: “Upon the principle of
self-defense, of paramount necessity, a community has
the right to protect itself against an epidemic of disease
which threatens the safety of its members.” (Id. at p. 27.)
Thus, government action that “purport[s] to … protect
the public health” in such an emergency will be upheld,
unless it “has no real or substantial relation” to the object

13a
Appendix B
of public health or is “beyond all question, a plain, palpable
invasion of rights secured by the fundamental law.” (Id.
at p. 31.)
Jacobson predates the tiers of scrutiny used in modern
constitutional law. Some (including the Restaurateurs)
have questioned its continued vitality and applicability
to state and local responses to the COVID-19 pandemic.
(See Delaney v. Baker (D.Mass., Jan. 6, 2021, No. 2011154-WGY) 2021 U.S.Dist. Lexis 1567 [collecting some
criticism of Jacobson, particularly as applied to 1st
Amend. challenges to pandemic restrictions].)
Jacobson was cited both positively and negatively
in both concurrences and dissents in the recent series
of United States Supreme Court cases adjudicating
challenges to emergency exercises of state authority in
the current pandemic based on the free exercise clause
of the First Amendment. The Supreme Court had ample
opportunity to overrule Jacobson, but did not. (See,
e.g., South Bay United Pentecostal Church v. Newsom
(2020) 592 U.S. ___ [207 L.Ed.2d 154, 140 S.Ct. 1613]
(per curiam) (South Bay I); Calvary Chapel Dayton
Valley v. Sisolak (2020) 591 U.S. ___ [207 L.Ed.2d 1129,
140 S.Ct. 2603] (mem.) (Calvary Chapel Dayton Valley);
Roman Catholic Diocese, supra, 592 U.S. ___ [141 S.Ct.
63] (per curiam); South Bay United Pentecostal Church
v. Newsom (2021) 592 U.S. ___ [141 S.Ct. 716] (mem.)
(South Bay II).)
In the first two cases, South Bay I and Calvary
Chapel Dayton Valley, the Supreme Court declined to

14a
Appendix B
enjoin pandemic restrictions despite Free Exercise Clause
challenges. In Roman Catholic Diocese and South Bay
II, however, it enjoined health orders, concluding the
orders unlawfully discriminated against religious groups.
The different outcomes may be attributed to factual
differences, and/or to the fact that Justice Amy Coney
Barrett joined the court. In any event, the dissenters in
South Bay I and Calvary Chapel Dayton Valley were in
the majority in the later cases.
Under precepts of stare decisis, it is our role to
harmonize Jacobson and these recent cases. We do so
without difficulty. Jacobson admonished that “no rule
prescribed by a State, nor any regulation adopted by a
local governmental agency acting under the sanction of
state legislation” to protect public health may “contravene
the Constitution of the United States, nor infringe any
right granted or secured by that instrument.” (Jacobson,
supra, 197 U.S. at p. 25.) Roman Catholic Diocese and
South Bay II enjoined application of public health orders
that the majorities concluded violated the Free Exercise
Clause because public officials failed to demonstrate that
the distinctions drawn between houses of worship and
secular businesses were based on scientific or medical
expertise. This is fully consistent with Jacobson. As Chief
Justice Roberts wrote in his concurrence in South Bay II,
in a clear reference to his earlier reliance on Jacobson in
South Bay I, “I adhere to the view that the ‘Constitution
principally entrusts the safety and the health of the people
to the politically accountable officials of the States.’ … But
the Constitution also entrusts the protection of the people’s
rights to the Judiciary … . Deference, though broad, has

15a
Appendix B
its limits.” (South Bay II, supra, 592 U.S. at p. ___ [141
S.Ct. at p. 717], citation omitted (conc. opn. of Roberts,
C. J.); see also Thaler, The Next Surges Are Here: What
Can American Governments Lawfully Do In Response
to the Ongoing COVID-19 Pandemic? (2021) 42 Mitchell
Hamline L.J. Pub. Pol’y & Prac. 165.)
In any event, the substantive due process claims
advanced by the Restaurateurs are analyzed in essentially
the same way under Jacobson or employing modern
rational basis review.4 (See Roman Catholic Diocese,
supra, 592 U.S. at p. ___ [141 S.Ct. at pp. 69–71] (conc.
opn. of Gorsuch, J.) [equating Jacobson and rational basis
review].)
We agree with the following summary of the current
state of the law as laid out by Justice Kavanaugh in his
dissenting opinion in Calvary Chapel Dayton Valley,
supra, 591 U.S. at p. ___ [140 S.Ct. at pp. 2614–2615], and
believe a majority of the United States Supreme Court
would, too. It reconciles Jacobson with the Supreme
Court’s most recent cases and indicates the Restaurateurs’
claims in this case should be resolved by extending great
deference to the State and County, per Jacobson:
“[C]ourts should be very deferential to the
States’ line-drawing in opening businesses
4. We note some courts appear to interpret the Jacobson
test as more deferential than the rational basis standard. (See,
e.g., Calvary Chapel v. Mills (D.Me. 2020) 459 F.Supp.3d 273,
284 [“while such an epidemic is ongoing, the ‘traditional tiers of
constitutional scrutiny do not apply.’ [Citations.]”].)

16a
Appendix B
and allowing certain activities during the
pandemic. For example, courts should be
extremely deferential to the States when
considering a substantive due process claim
by a secular business that is being treated
worse than another business. Cf. Jacobson v.
Massachusetts, 197 U.S. 11, 25–28 [49 L.Ed.
643, 25 S.Ct. 358] (1905). Under the Constitution,
state and local governments, not the federal
cour ts, have the pr imar y responsibility
for addressing COVID-19 matters such as
quarantine requirements, testing plans, mask
mandates, phased reopenings, school closures,
sports rules, adjustment of voting and election
procedures, state court and correctional
institution practices, and the like.
“But COVID 19 is not a blank check for a
State to discriminate against religious people,
religious organizations and religious services.
There are certain constitutional red lines that
a State may not cross even in a crisis. Those
red lines include racial discrimination, religious
discrimination, and content-based suppression
of speech.” (Calvary Chapel Dayton Valley,
supra, 591 U.S. at p. ___ [140 S.Ct. at pp.
2614–2615] (dis. opn. of Kavanaugh, J.).)
For purposes of substantive due process claims, the
rational basis test is “the law must not be unreasonable,
arbitrary or capricious but must have a real and substantial
relation to the object sought to be obtained. [Citations.]”

17a
Appendix B
(Gray v. Whitmore (1971) 17 Cal.App.3d 1, 21 [94 Cal.
Rptr. 904].) “[N]o valid objection to the constitutionality of
a statute under the due process clause may be interposed
‘if it is reasonably related to promoting the public health,
safety, comfort, and welfare, and if the means adopted to
accomplish that promotion are reasonably appropriate
to the purpose.’ [Citations.]” (People v. Aguiar (1968) 257
Cal.App.2d 597, 602 [65 Cal. Rptr. 171].)
Similarly, “[w]here judicial review of administrative
action by an agency acting in its legislative capacity is
sought, that review begins and ends with a determination
as to whether the agency’s action has been ‘“‘arbitrary,
capricious, or entirely lacking in evidentiary support
… .’”’ [Citations.]” (Davies v. Contractors’ State License
Bd. (1978) 79 Cal.App.3d 940, 946 [145 Cal. Rptr. 284];
see also Ursack, Inc. v. Sierra Interagency Black Bear
Group (9th Cir. 2011) 639 F.3d 949, 958 [noting “rational
basis” and “arbitrary and capricious” standards of review
are “identical”].) “A court reviewing a quasi-legislative
act cannot reweigh the evidence or substitute its own
judgment for that of the agency. [Citation.]” (Plastic Pipe
& Fittings Assn. v. California Building Standards Com.
(2004) 124 Cal.App.4th 1390, 1406 [22 Cal. Rptr. 3d 393].)
b.

Analysis

Here, the Restaurateurs contend the County exceeded
its “emergency powers” under the Health and Safety
Code5 by implementing the Order without conducting a
5. Health and Safety Code section 101040, subdivision (a)
states, in relevant part: “The local health officer may take any

18a
Appendix B
risk-benefit analysis. They also contend the Order violates
their substantive due process rights under the Fifth and
Fourteenth Amendments. Although the Restaurateurs
did not specifically label their claims as violations of
their “substantive” due process rights, the trial court so
characterized them because the claims target alleged
arbitrary government action.
As discussed above, the Restaurateurs’ excess of
power and constitutional arguments both call for the same
analysis: the core issue is whether the County’s temporary
suspension of outdoor restaurant dining is rationally
related to a legitimate state interest, i.e., limiting the
spread of COVID-19. (See Roman Catholic Diocese,
supra, 592 U.S. at p. ___ [141 S.Ct. at p. 67] [“Stemming
the spread of COVID-19 is unquestionably a compelling
interest … .”].)6
preventive measure that may be necessary to protect and preserve
the public health from any public health hazard during any …
‘state of emergency,’ or ‘local emergency,’ … within his or her
jurisdiction.” (Health & Saf. Code, § 101040, subd. (a).) Health
and Safety Code section 120175 states: “Each health officer
knowing or having reason to believe that any case of the diseases
made reportable by regulation of the department, or any other
contagious, infectious or communicable disease exists, or has
recently existed, within the territory under his or her jurisdiction,
shall take measures as may be necessary to prevent the spread of
the disease or occurrence of additional cases.”
6. The Restaurateurs also argue the Order infringes their
fundamental right to pursue a profession. But “[t]he right to pursue
one’s chosen profession is not a fundamental right for the purpose
of invoking the strict scrutiny test. [Citations.]” (Cunningham v.
Superior Court (1986) 177 Cal.App.3d 336, 348 [222 Cal. Rptr.
854].)

19a
Appendix B
In support of their requests for a preliminary
injunction, the Restaurateurs offered several expert
declarations regarding the purported lack of evidence
to support the Order and the economic harm the Order
would cause restaurant owners and employees. For
example, Jeff Barke, M.D., a primary care physician,
opined the Order does not comport with epidemiological
science and lacks a rational and legitimate medical basis.
Similarly, Hubert A. Allen Jr., a biostatistician, declared
no evidence or scientific studies support the conclusion that
operating outdoor dining in Los Angeles County poses an
unreasonable risk to public health.
The Restaurateurs also offered the declaration of
Jayanta Bhattacharya, M.D., a Professor of Medicine
and infectious disease specialist at Stanford University.
In Dr. Bhattacharya’s opinion, restaurants could safely
permit outdoor dining by following the Centers for
Disease Control and Prevention guidelines (i.e., social
distancing and mask wearing by servers and by patrons
when not eating). He explained the County provided “no
indication that it has estimated or otherwise taken into
account any of the economic, social, and public health
costs of restricting outdoor dining.” He also opined,
without reference to any supporting evidence, that “[b]
asic standards of public health policy design require a
comparison of health costs and benefits of a policy to
justify it from a scientific and ethical point of view.” He
further stated, “[a] scientifically justified policy must
explicitly account for these costs—including an explicitly
articulated economic analysis—in setting, imposing, and
removing criteria for business restrictions such as the
blanket prohibition on outdoor dining.”

20a
Appendix B
In response, the County submitted the declaration of
Muntu Davis, M.D., the County’s Health Officer and medical
expert regarding public health matters. He declared: “The
County recognizes that it has asked businesses in the
County and its more than 10 million residents to make
significant adjustments to fight this pandemic. Yet, in the
considered opinions of myself and that of DPH [the County
Department of Health] and its top communicable disease
experts, these temporary adjustments and modifications
are necessary to combat the ongoing surge in COVID-19
cases and hospitalizations, and the resulting strain on
the County’s health care system.” He further stated:
“Allowing COVID-19 to proliferate unchecked across the
County, without taking affirmative measures to reduce
transmission would be unacceptable, unethical, and bad
public policy. The societal costs of allowing large numbers
of preventable deaths in a quest for ‘herd immunity’
would far outweigh any economic or other benefits. That
is why the overwhelming majority view has rejected and
criticized Dr. Bhattacharya’s suggested approach.” Dr.
Davis concluded: “Based on the data, I determined that
the risks and harms of uncontrolled community spread,
strain on the health care system, and excess preventable
deaths outweighed the social and economic harm of a
temporary suspension on in-person restaurant dining.”
The County also offered the declaration of Jeffrey
Gunzenhauser, M.D., the County’s Chief Medical Officer
and the Director of the Disease Control Bureau. He initially
noted that “[b]ecause the virus that causes COVID-19 is
novel, much remains uncertain.” He explained, however,
there is a consensus among epidemiologists that the
most common mode of transmission of COVID-19 is from

21a
Appendix B
person-to-person respiratory droplets that are expelled
when a person coughs, sneezes, or projects his or her voice.
“There is also evidence that COVID-19 may be spread
through aerosols that are expelled when a person speaks.”
There is no scientifically agreed-upon safe distance, but
it is widely accepted that standing or sitting near an
infectious person is riskier than being farther away.
Moreover, it is “widely accepted that an infected
person is capable of transmitting COVID-19 before they
develop symptoms and if they ever develop symptoms at all.
Asymptomatic and pre-symptomatic transmission make
COVID-19 particularly difficult to contain. Individuals
without symptoms are generally unaware that they are
infected and are thus less likely to isolate or take other
steps to avoid transmitting the virus.”
Dr. Gunzenhauser further stated, “[t]he risk of
transmission further increases when individuals are in
close proximity for an extended period of time” and when
“individuals are not wearing face coverings.” “Being in
close proximity to an unmasked infected person for a
prolonged period of time presents an especially high risk
of receiving a viral dose sufficient to cause COVID-19
infection.”
Marianne Gaushe-Hill, medical director for the
County’s Department of Emergency Medical Services
Agency, detailed the recent surge in COV ID -19
hospitalizations and the then imminent overwhelming
of the County’s health care system. Specifically, the
“County’s ICU bed availability in the month of November

22a
Appendix B
… decreased to less than 5% of total capacity.” The
County notes in its Reply brief, filed January 19, 2021,
that available ICU capacity in the Southern California
region “has been down to 0% since early December 2020.”
After reviewing the evidence, the trial court found the
“County ha[d] shown that the greatly decreased capacity
of hospitals and ICUs [were] burdening the healthcare
system and action w[as] necessary.” It concluded,
however, that what it called “the County’s syllogism”—“(a)
COVID[-19] is spread by expelled droplets that transmit
the virus to others in proximity, (b) people eating outdoors
in restaurant are in proximity to others and they are
not wearing masks, (c) therefore outdoor dining has a
risk of spreading COVID[-19]—only weakly supports
closure of outdoor restaurant dining because it ignores
the outdoor nature of the activity which the CDC says
carries only a moderate risk (and less with mitigations.)”
After conceding it could not “weigh evidence in deciding
whether the restriction ha[d] a rational basis, and [that] the
Department [had] generalized evidence of a COVID[-19]
risk in outdoor dining,” the trial court nevertheless held
the County acted arbitrarily, because it failed “to perform
the required risk-benefit analysis.”
Thus, despite acknowledg ing Supreme Cour t
precedent requiring it to show great deference to the
County in these circumstances, and the “syllogism”
demonstrating a rational basis for the challenged order, the
trial court took it upon itself to adopt Dr. Bhattacharya’s
unsupported opinion and mandate a “risk-benefit analysis”
before the County could enforce its order. The trial court

23a
Appendix B
stated it could not “dictate what the [County] must do as
part of the risk-benefit analysis.”
Mandating a nebulous risk-benefit requirement
is inconsistent with the court’s appropriate role. As
discussed above, our “review begins and ends with a
determination … whether the agency’s action has been
‘“‘arbitrary, capricious, or entirely lacking in evidentiary
support … .’”’ [Citations.]” (Davies v. Contractors’ State
License Bd., supra, 79 Cal.App.3d at p. 946.) The County’s
imposition of the Order is none of those things.
Of course, more particularized studies of the spread
of COVID-19 while dining at outdoor restaurants would
be valuable. But undertaking those studies takes time
and resources that may not be available when swift
government action must be taken in response to surging
infection, hospitalization, and death rates during a once
in a century pandemic.7 As of this writing, government
sources indicate more than 500,000 Americans have died
with COVID-19. As has been widely reported, that grim
7. Information about outdoor COVID-19 transmission is not
completely absent, however. Relying on an incident in which a
27-year-old man contracted COVID-19 after having a conversation
with another individual outdoors who had recently returned from
Wuhan, Dr. Davis noted that “[w]hile the risk of transmission is
lower outdoors, it is still present.” Dr. Davis also cited a study on
the effectiveness of physical distancing in controlling the spread
of COVID-19, and stated, “outdoor, well-ventilated spaces, such as
an open patio restaurant, where unmasked persons have prolonged
contact, present a moderate risk of transmission. Being outdoors
reduces risk but does not eliminate it.”

24a
Appendix B
figure exceeds the number of U.S. soldiers killed in combat
in the Vietnam War and both World Wars combined.
Approximately 50,000 of those deaths reportedly occurred
in the State of California, with about 20,000 reported in
Los Angeles County alone. (United States COVID-19
Cases and Deaths by State (<covid.cdc.gov/covid-datatracker/#cases_totaldeaths> [as of Mar. 1, 2021]); LA
County Daily COVID-19 Data (<publichealth.lacounty.
gov/media/coronavirus/data/index.htm> [as of Mar. 1,
2021]).)8
When the Order went into effect, Los Angeles was
experiencing a surge of infections. Against this backdrop,
the County was forced to take immediate action. As
detailed in Dr. Davis’s declaration, the County recognized
the preventative measures required to slow the spread
of COVID-19, including temporarily restricting inperson dining, have an emotional and economic impact
on businesses, families, and individuals, but ultimately
determined the restriction on outdoor dining was necessary
because “dining with others creates a circumstance where
non-household members are gathering in close proximity
to each other without any COVID-19 infection control
protections and typically for more than 15 minutes.” This
scenario presents “significant risks of transmission from
persons who are asymptomatic or pre-symptomatic” and
“from a disease control standpoint” restricting in-person
dining “is necessary to mitigate the risks presented by
persons gathering together without masks.” In making
8. On our own motion, we take judicial notice of the CDC
and the County of Los Angeles Public Health websites tracking
the numbers of COVID-19 deaths. (Evid. Code, § 452, subd. (h).)

25a
Appendix B
this determination, Dr. Davis relied, in part, on “a number
of studies showing the role of masks in limiting the
spread of COVID-19, and that situations where unmasked
individuals from different households spend extended
periods of time in close proximity to one another present
a higher risk of transmission than settings where one or
more of these factors is absent.”
We decline the Restaurateurs’ invitation to secondguess public health officials’ actions in an “‘area[ ] fraught
with medical and scientific uncertainties.’” (South Bay
I, supra, 590 U.S. at p. ___ [140 S.Ct. at p. 1613] (conc.
opn. of Roberts, C. J.).) Because the Restaurateurs
failed to satisfy their burden of demonstrating the Order
is arbitrary, capricious, or without rational basis, we
conclude they cannot ultimately succeed on the merits of
their claims. Thus, they were not entitled to injunctive
relief. (Aiuto v. City & County of San Francisco, supra,
201 Cal.App.4th at p. 1361 [“A trial court may not grant
a preliminary injunction, regardless of the balance of
interim harm, unless there is some possibility that the
plaintiff will ultimately prevail on the merits of the claim.
[Citation.]”].)
D. Mark’s Freedom of Assembly Argument
Mark’s joins in the arguments of CRA, but also
separately contends the Order violates its (or its patrons’)
First Amendment right to freedom of assembly. Mark’s
seemingly forfeited this argument by failing to raise it in
the trial court. (In re Riva M. (1991) 235 Cal.App.3d 403,
411–412 [286 Cal. Rptr. 592] [“As a general rule, a party

26a
Appendix B
is precluded from urging on appeal any point not raised in
the trial court. [Citation.]”].) In its complaint, Mark’s also
failed to allege the Order violated its (or its patrons’) First
Amendment right to freedom to assembly. The closest it
came to raising the issue below is one sentence in its trial
court brief where it contends it is entitled to preliminary
injunctive relief because the Order “is irrational, arbitrary
and capricious,” and “has caused irreparable harm,
economic damages, loss of civil liberties, and massive
unemployment” and “represents a plain and palpable
invasion of clearly protected rights, i.e., Freedom of
Association, Right to Labor, Right to Equal Protection of
the Law.” But perhaps recognizing its complaint is devoid
of any First Amendment claim, Mark’s did not argue the
Order violated its First Amendment right to freedom of
assembly (i.e., a fundamental right) and therefore should
be subject to intermediate or strict scrutiny. Because
Mark’s did not raise a freedom of association claim in its
complaint, did not request leave to amend to add such
a claim, and made no reasoned argument about such a
claim, the trial court did not consider it or address it in
its 52-page decision.
In any event, we reject Mark’s argument on the
merits. Initially, we note Mark’s fails to address whether
a restaurant—as opposed to its patrons—has a right
to freedom of assembly. Even assuming, however, that
Mark’s has such a right, or has standing to bring a First
Amendment challenge on behalf of its patrons or employees,
its contention fails. The First Amendment guarantees that
“Congress shall make no law … abridging … the right
of the people to peaceably assemble.” (U.S. Const., 1st

27a
Appendix B
Amend.) Constitutional rights, however, “may at times,
under the pressure of great dangers” be restricted “as
the safety of the general public may demand.” (Jacobson,
supra, 197 U.S. at p. 29.) Specifically, states may impose
reasonable restrictions on the time, place, and manner of
protected speech and assembly provided the restrictions
“‘are justified without reference to the content of the
regulated speech, that they are narrowly tailored to serve
a significant governmental interest, and that they leave
open ample alternative channels for communication of the
information.’ [Citations.]” (Ward v. Rock Against Racism
(1989) 491 U.S. 781, 791 [105 L.Ed. 661, 109 S.Ct. 2746]
(Ward).) The Order meets this standard.
First, the Order does not regulate assembly based on
the expressive content of the assembly. Instead, it prohibits
all outdoor dining at restaurants, breweries, wineries, and
bars irrespective of the purpose of the gathering or type
of speech the patrons may wish to express.
Second, as stated above, it is undisputed limiting
the spread of COVID-19 is a legitimate and substantial
government interest. Banning outdoor dining, where
people from different households gather in close proximity
for extended periods without masks, is narrowly tailored
to limiting the spread of COVID-19. (See Ward, supra,
491 U.S. at p. 800 [“So long as the means chosen are
not substantially broader than necessary to achieve the
government’s interest … the regulation will not be invalid
simply because a court concludes that the government’s
interest could be adequately served by some less-speechrestrictive alternative.”].)

28a
Appendix B
Third, the Order leaves open alternative channels
for assembling, i.e., videoconference or in-person socially
distant gatherings with face coverings. (See, e.g., Amato
v. Elicker (D.Conn. 2020) 460 F.Supp.3d 202, 222 [“[T]he
limitation on the size of in-person social and recreational
gatherings leaves open alternative channels of expression:
… residents are free to communicate and express
themselves in any means other than a large, in-person
gathering. They may assemble in small groups and may
communicate with any number of people over the phone or
over videoconference.”].) We therefore conclude the Order
does not violate Mark’s purported First Amendment right
to freedom of assembly or that of its patrons.
DISPOSITION
Let a peremptory writ of mandate issue directing
respondent court to vacate its December 15, 2020 order
enjoining the County from enforcing its orders to the
extent they prohibit outdoor dining until after conducting
an appropriate risk-benefit analysis, and enter a new order
denying the Restaurateurs’ request for a preliminary
injunction. The County is awarded its costs in this original
proceeding.
Manella, P. J., and Willhite, J., concurred.

29a
Appendixof
C the SUPERIOR
Appendix c — opinion
COURT OF THE STATE OF CALIFORNIA
COUNTY OF LOS ANGELES, CENTRAL
DISTRICT, FILED DECEMBER 15, 2020
SUPERIOR COURT OF THE STATE OF
CALIFORNIA COUNTY OF LOS ANGELES,
CENTRAL DISTRICT
Case No. 20STCP03881
CALIFORNIA RESTAURANT ASSOCIATION, INC.,
a California Corporation,
Petitioner and Plaintiff,
vs.
COUNTY OF LOS ANGELES DEPARTMENT
OF PUBLIC HEALTH, a governmental
entity; BARBARA FERRER, in her official
capacity as Director of Public Health,
County of Los Angeles; DOES 1 through
100, inclusive,
Respondents and Defendants.
[PROPOSED] PRELIMINARY INJUNCTION
Date: December 8, 2020
Time: 1:30 p.m.
Dept.: 85
––––––––––––––––––––––––––––––

30a
Appendix C
Case No. 20STCV45134
MARK’S ENGINE CO. NO. 28, et al.,
Plaintiffs,
vs.
COUNTY OF LOS ANGELES, et al.
Defendants.
[PROPOSED] PRELIMINARY INJUNCTION
Counsel appeared in the above-captioned matter on
December 8, 2020, before Department 85, the Honorable
James C. Chalfant presiding, for a hearing on this Court’s
Order to Show Cause (the “Order to Show Cause”) in the
above-captioned matter.
As detailed in this Court’s December 8, 2020 ruling
(a copy of which is attached hereto as Exhibit A), IT IS
HEREBY ORDERED THAT Respondents-Defendants
(“Respondents”) the Los Angeles County Department of
Public Health and Barbara Ferrer, directly or indirectly,
and whether alone or in concert with others, including
any officer, agent, employee, and/or representative of
Los Angeles County, are hereby enjoined from enforcing
the November 25, 2020 Reopening Safer at Work and in
the Community for Control of COVID-19, Blueprint for a
Safer Economy – Tier 1 Surge Response, or the December
6, 2020 Revised Temporary Targeted Safer at Home

31a
Appendix C
Health Officer Order for Control of COVID-19; Tier 1
Substantial Surge Updated Response to the extent either
order seeks to prohibit outdoor dining, and/or any other
order prohibiting outdoor dining beyond the period which
ends on December 16, 2020, and Respondents are further
enjoined from promulgating any further order to prohibit
outdoor dining at restaurants and other food facilities
that prepare and serve food until after conducting an
appropriate risk-benefit analysis and articulating it for
the public to see. Nothing herein enjoins Respondents
from enforcing the State of California’s December 3,
2020 Regional Stay At Home Order, as supplemented
on December 6, 2020, which took effect in Los Angeles
County on December 6, 2020, at 11:59 p.m., including,
but not limited to, the prohibition of outdoor dining at
restaurants and other food facilities that prepare and
serve food, to the extent that order remains in effect.
IT IS FURTHER ORDERED THAT PlaintiffPetitioner California Restaurant Association, Inc. and
Plaintiff Mark’s Engine Co. No. 28, Inc. shall, jointly and
severally, deposit a bond with the Court in the amount of
$10,000 within five court days of this order.
The Court reserves jurisdiction to modify this
injunction as the ends of justice may require.
IT IS SO ORDERED.
DATED: 12/15/2020

/s/			
Hon. James C. Chalfant
JUDGE OF THE SUPERIOR COURT

32a
Appendix C
APPROVED AS TO FORM:
DATED: December 10, 2020
MILLER BARONDESS, LLP
/s/					
AMNON Z. SIEGEL
Attorneys for Respondents

33a
Appendix C

EXHIBIT A

34a
Appendix C
California Restaurant Association, Inc. v. County
of Los Angeles Department of Public Health, et al.,
20STCP03881
Mark’s Engine Company No. 28 Restaurant LLC, vs
County of Los Angeles-Department of Public Health, et
al., 20STCV45134
Tentative decision on application for preliminary
injunction: granted in part
Petitioners California Restaurant Association, Inc.
(“CRA”) and Mark’s Engine Company No. 28 Restaurant,
LLC (“MEC”), each apply in a consolidated hearing (with
Case No. 20STCP03881 as the lead case) for a preliminary
injunction enjoining Respondents/Defendants County
of Los Angeles Department of Public Health and Dr.
Barbara Ferrer (“Ferrer”), in her official capacity as
Director of Public Health, and Muntu Davis, M.D., M.P.H,
(“Davis”) in his official capacity as Health Officer for
County (collectively, “Department”), from enforcing the
November 25, 2020 Order of the Health Officer entitled
“Reopening Safer at Work and in the Community for
Control of COVID 19, Blueprint for a Safer Economy–Tier
1 Surge Response” (“Restaurant Closure Order”).
The court has read and considered the moving papers,
the County’s oppositions to the ex parte applications
and consolidated opposition to the order to show cause
(“OSC”), and the replies, and renders the following
tentative decision.

35a
Appendix C
A. Statement of the Case
1.

20STCP03881

Petitioner CRA commenced this action on November
24, 2020, alleging causes of action for administrative and
traditional mandamus and declaratory relief. The Petition
alleges in pertinent part as follows.
The Department has issued a series of health orders in
an effort to halt the spread of COVID.1 The Department’s
Health Order dated November 19, 2020 (“November 19
Order”) issued restrictions that outdoor dining and wine
service seating must be reduced by 50%, or tables must
be repositioned so that they are at least eight feet apart.
On November 22, 2020, the Department announced
that it was modifying the November 19 Order to eliminate
outdoor dining and drinking entirely at restaurants,
bars, breweries, and wineries by issuing the Restaurant
Closure Order. The Restaurant Closure Order took effect
on November 25, 2020.
The Department’s own data provide no support for
the planned shutdown of outdoor restaurant operations.
The data tracks all non-residential settings at which three
or more laboratory confirmed COVID cases have been
identified. Of the 204 locations on the list, fewer than 10%
are restaurants. Of the 2,257 cases identified on the list,
fewer than 5% originate from restaurants.
1. For convenience, the court will refer to COVID-19 and
SARS-CoV-2 as “COVID”.

36a
Appendix C
On November 17, 2020, the Department held a hearing
at which COVID and restaurant closures were discussed.
The Department scheduled another hearing for November
24, 2020. On November 23, 2020, CRA sent a notice and
objection letter to the Department asking it to cancel the
proposed modification to the November 19 Order on the
grounds that the spread of COVID is due primarily to
people in close proximity at private gatherings and other
sources, not from restaurants.
CRA contends that the Department prejudicially
abused its discretion by having hearings at which it failed to
take and consider relevant advice. The Department made a
decision to close restaurant dining that is not realistically
designed to halt the spread of COVID. The Department
proceeded without, and in excess of, its discretion, failed
to give CRA a fair hearing, and prejudicially abused its
discretion. The Restaurant Closure Order is not supported
by any findings or the evidence.
2.

20STCV45134

Plaintiff MEC commenced this action on November
24, 2020 against the Department and Davis, in his official
capacity as Health Officer for County, alleging causes of
action for declaratory relief and violations of the California
Constitution and seeking the remedy of injunctive relief.
The Complaint alleges in pertinent part as follows.
The Department’s initial June 2020 Health Order
(“June Order”) allowed many businesses, including MEC,
to operate so long as they followed guidelines established

37a
Appendix C
by the state and County to help curb the spread of COVID.
As of June 1, 2020, restaurants in the County such as MEC
were not permitted to provide dine-in service indoors.
They were able to provide outdoor dining and take-out
dining upon implementing County safety protocols as set
forth in the June 2020 Order.
Since the promulgation of the June Order, MEC has
complied with all local and statewide protocols relating
to the safe operation of its restaurant, including a large
investment of time and resources, to pivot from its
previous indoor-dining concept to a takeout and outdoordining model.
On November 20, 2020, the Department announced
that its June Order, as it relates to the operation of
restaurants across the County, was being revised by the
November 19 Order to limit the number of customers at
outdoor restaurants to 50% of the outdoor establishment’s
outdoor capacity (which is already limited by virtue of
compliance with the June 2020 Order, which requires
physically distanced tables). In addition, the November
19 Order curtailed the hours of operation for restaurants
by banning operations between 10:00 p.m. and 6:00 a.m.
On November 22, 2020, without any evidence to
support it, the Department further modified the November
19 Order by issuing the Restaurant Closure Order, which
prohibits any outdoor dining irrespective of capacity or
curfew. The Restaurant Closure Order took effect on
November 25, 2020 at 10 p.m. and will last for a minimum
of three weeks. Take-out, delivery, and drive-thru services
remain unaffected.

38a
Appendix C
In attempting to justify the Restaurant Closure
Order, Respondent Ferrer said at a November 22, 2020
press conference that there had been a 61% increase in
hospitalization cases involving COVID in the County
between November 7 and 20, 2020, which could potentially
lead to overwhelming the healthcare system. Further,
Ferrer pointed out that while most restaurants have
complied with safety mandates, almost 20% of restaurants
have had issues, mainly regarding social distancing.
Ferrer conceded that she did not have concrete data
on how many people had been infected by outside dining
at a restaurant. In actuality, the Department’s data
indicates that COVID cases traced back to the County’s
restaurants and bars accounted for a mere 3.1 % (70 of
the total 2,257) confirmed cases countywide from over
204 outbreak locations -- the vast majority of which were
chain/fast-food type restaurants and not MEC’s model.
Of those 2,257 confirmed cases, 2,249 of were traced to
staff members at workplaces and just eight cases came
from non-staff members.
The Restaurant Closure Order is an abuse of the
Department’s emergency powers, is not grounded in
science, evidence, or logic, and should be adjudicated to
be unenforceable as a matter of law.
3. 	Course of Proceedings
On November 24, 2020, the court denied CRA’s ex
parte application to stay the Restaurant Closure Order for
failure to present sufficient evidence to make a prima facie

39a
Appendix C
case. The court permitted CRA to renew its application
as one for a temporary restraining order (“TRO”) and
OSC re: preliminary injunction (“OSC”) if it presented
evidence that the restrictions are unsupported and of
irreparable harm.
On December 1, 2020, the court denied MEC’s ex
parte application for declaratory and injunctive relief and
informed the parties that declaratory relief cannot be
granted on an ex parte basis. The court permitted MEC to
file and serve new ex parte application for a TRO and OSC.
On December 2, 2020, the court denied CRA’s and
MEC’s ex parte applications for a TRO, but it set an OSC
for the instant date.
The independent calendar court assigned to Case No.
20STCV45134 found that it and Case No. 20STCP03881
are not related under CRC 3.300(a) and declined to relate
them. This court consolidated both cases only for hearing
on the OSCs and designated 20STCP03881 as the lead
case for the hearing.
B. Governing Law
1. 	Emergency Services Act
The Emergency Services Act (“ESA”) empowers
state and local governments to declare emergencies and
coordinate efforts to provide services. Govt. Code §§ 8550668. The purpose of the ESA and the policy of the state is
that all emergency services functions shall be coordinated

40a
Appendix C
as far as possible with the comparable functions of its
political subdivisions, the federal government, and private
agencies, to the end that the most effective use may be
made of all resources for dealing with an emergency. Govt.
Code §8550.
A “state of emergency” means the existence of
conditions of disaster or of extreme peril to the safety
of persons and property within the state caused by
conditions including an epidemic and which by reason of
their magnitude, are or likely to be beyond the control of
any single county or city and require the combined forces
of a mutual aid region or regions. Govt. Code §8558.
During a state of emergency, the Governor shall, to
the extent he deems necessary, have complete authority
over all agencies of the state government and the right to
exercise within the area designated all police power vested
in the state by the California Constitution and laws of the
State of California in order to effectuate the purposes of
this chapter. Govt. Code §8627.
The Governor may make, amend, and rescind orders
and regulations necessary to carry out the provisions of
this chapter. The orders and regulations shall have the
force and effect of law. Due consideration shall be given
to the plans of the federal government in preparing
the orders and regulations. The Governor shall cause
widespread publicity and notice to be given to all such
orders and regulations, or amendments or rescissions
thereof. Govt. Code §8567(a).

41a
Appendix C
“State Emergency Plan” means the State of California
Emergency Plan approved by the Governor. Govt. Code
§8560. The Office of Emergency Services shall update the
State Emergency Plan on or before January 1, 2019 and
every five years thereafter. Govt. Code §8570.4.
“The Governor may, in accordance with the State
Emergency Plan and programs for the mitigation of the
effects of an emergency in this state: ...(c) Use and employ
any of the property, services, and resources of the state
as necessary to carry out the purposes of this chapter;...
(i) Plan for the use of any private facilities, services, and
property and, when necessary, and when in fact used,
provide for payment for that use under the terms and
conditions as may be agreed upon. Govt. Code §8570.
In the exercise of the emergency powers vested
in him during a state of emergency, the Governor is
authorized to commandeer or utilize any private property
or personnel deemed by him necessary in carrying out the
responsibilities hereby vested in him as Chief Executive
of the state and the state shall pay the reasonable value
thereof. Govt. Code §8572.
A political subdivision of the state is obligated to take
all actions necessary to carry out a State Emergency
Plan once the Governor has declared an emergency. Govt.
Code §8568. A political subdivision includes any city, city
and county, county, district, or other local governmental
agency or public agency authorized by law. Govt. Code
§8557(b).

42a
Appendix C
The governing body of a county or city may proclaim
a local emergency. Govt. Code §8630. A local emergency
must be reviewed by the governing body every 30 days
and it shall be terminated at the earliest possible date that
conditions warrant. Govt. Code §8630(c), (d). During a local
emergency, the governing body of a county or city may
promulgate orders and regulations necessary to protect
life and property. Govt. Code §8634.
2. 	Health and Safety Code
The Restaurant Closure Order specifies the authority
upon which it is based—Health and Safety Code (“H&S
Code”) sections 101040, 101085 and 120175. H&S Code
section 101040 permits a local health officer to take
preventative measures that may be necessary to protect
and preserve the public health during an “state of
emergency” or “local emergency” under the ESA. 2
H&S Code section 120175 provides:
“Each health officer knowing or having reason
to believe that any case of the diseases made
reportable by regulation of the department, or
any other contagious, infectious or communicable
disease exists, or has recently existed, within
2. H&S Code section 101085 confers powers on a local health
officer to take action after a declaration of a health emergency or
local health emergency under H&S Code section 101080. In turn,
H&S Code section 101080 concerns hazardous waste spills and
releases. As such, H&S Code section 101085 has no application
in this case.

43a
Appendix C
the territory under his or her jurisdiction, shall
take measures as may be necessary to prevent
the spread of the disease or occurrence of
additional cases.” H&S Code §120175 (emphasis
added).
While H&S Code section 101040 is dependent on the
ESA, H&S Code section 120175 is not. The statute imposes
a mandatory duty on a health officer to take measures
to prevent the spread of contagious and communicable
diseases. AIDS Healthcare Foundation v. Los Angeles
County Dept. of Public Health, (2011) 197 Cal.App.4th
693, 701. The health officer must take “measures as may
be necessary,” or “reasonably necessary,” to achieve the
Department’s goals and policies, leaving the course of
action to the health officer’s discretion. Ibid. The health
officer is vested with discretion to act in a particular
manner depending upon the circumstances. Ibid.
The notion that a municipality’s health officer has broad
authority is well-established and long-standing. Jacobson
v. Commonwealth of Massachusetts, (“Jacobson”) (1905)
197 U.S. 11, 25. “[A] community has a right to protect itself
against an epidemic of disease which threatens the safety
of its members.” Id. at 27. According to settled principles,
the police power of a state must be held to embrace, at
least, such reasonable regulations established directly by
legislative enactment as will protect the public health and
public safety. Ibid.
The health officer’s authority is not unbridled. Courts
have the duty to evaluate an exercise of that authority

44a
Appendix C
to ensure actions taken have a “real and substantial
relationship” to public health and safety. Id. at 31. The
health officer cannot act arbitrarily or oppress. Id. at 38.
In addition, the health officer cannot engage in a “plain,
palpable invasion of rights” secured by the Constitution.
Id. at 31. See also Jew Ho v. Williamson, (C.D. Cal.
1900) 103 F. 10. (Whether the regulation in question is a
reasonable one, directed to accomplish the purpose that
appears to have been in view, is a question for the court
to determine).
3. 	Injunctive Relief
An injunction is a writ or order requiring a person
to refrain from a particular act; it may be granted by
the court in which the action is brought, or by a judge
thereof; and when granted by a judge, it may be enforced
as an order of the court. CCP §525. An injunction may be
more completely defined as a writ or order commanding
a person either to perform or to refrain from performing
a particular act. See Comfort v. Comfort, (1941) 17 Cal.2d
736, 741. McDowell v. Watson, (1997) 59 Cal.App.4th 1155,
1160. 3 It is an equitable remedy available generally in
the protection or to prevent the invasion of a legal right.
3. The courts look to the substance of an injunction to
determine whether it is prohibitory or mandatory. Agricultural
Labor Relations Bd. v. Superior Court, (1983) 149 Cal.App.3d
709, 713. A mandatory injunction — one that mandates a party
to affirmatively act, carries a heavy burden: “[t]he granting of
a mandatory injunction pending trial is not permitted except in
extreme cases where the right thereto is clearly established.”
Teachers Ins. & Annuity Assoc. v. Furlotti, (1999) 70 Cal.App.4th
187, 1493.

45a
Appendix C
Meridian, Ltd. v. City and County of San Francisco, et
al., (1939) 13 Cal.2d 424.
The purpose of a preliminary injunction is to preserve
the status quo pending final resolution upon a trial. See
Scaringe v. J.C.C. Enterprises, Inc., (1988) 205 Cal.App.3d
1536. Grothe v. Cortlandt Corp., (1992) 11 Cal.App.4th
1313, 1316; Major v. Miraverde Homeowners Assn., (1992)
7 Cal.App.4th 618, 623. The status quo has been defined to
mean the last actual peaceable, uncontested status which
preceded the pending controversy. Voorhies v. Greene
(1983) 139 Cal.App.3d 989, 995, quoting United Railroads
v. Superior Court, (1916) 172 Cal. 80, 87. 14859 Moorpark
Homeowner’s Assn. v. VRT Corp., (1998) 63 Cal.App.4th
1396. 1402.
A preliminary injunction is issued after hearing on
a noticed motion. The complaint normally must plead
injunctive relief. CCP §526(a)(1)-(2). 4 Preliminary
injunctive relief requires the use of competent evidence
to create a sufficient factual showing on the grounds for
relief. See e.g. Ancora-Citronelle Corp. v. Green, (1974)
41 Cal.App.3d 146, 150. Injunctive relief may be granted
based on a verified complaint only if it contains sufficient
evidentiary, not ultimate, facts. See CCP §527(a). For this
reason, a pleading alone rarely suffices. Weil & Brown,
California Procedure Before Trial, 9:579, 9(ll)-21 (The
Rutter Group 2007). The burden of proof is on the plaintiff
as moving party. O’Connell v. Superior Court, (2006) 141
Cal.App.4th 1452, 1481.
4. However, a court may issue an injunction to maintain
the status quo without a cause of action in the complaint. CCP
§526(a)(3).

46a
Appendix C
A plaintiff seeking injunctive relief must show the
absence of an adequate damages remedy at law. CCP
§526(4); Thayer Plymouth Center, Inc. v. Chrysler Motors,
(1967) 255 Cal.App.2d 300, 307; Department of Fish &
Game v. Anderson-Cottonwood Irrigation Dist., (1992)
8 Cal.App.4th 1554, 1565. The concept of “inadequacy
of the legal remedy” or “inadequacy of damages” dates
from the time of the early courts of chancery, the idea
being that an injunction is an unusual or extraordinary
equitable remedy which will not be granted if the remedy
at law (usually damages) will adequately compensate
the injured plaintiff. Department of Fish & Game v.
Anderson-Cottonwood Irrigation Dist., (1992) 8 Cal.
App.4th 1554, 1565.
In determining whether to issue a preliminary
injunction, the trial court considers two factors: (1) the
reasonable probability that the plaintiff will prevail on
the merits at trial (CCP §526(a)(1)), and (2) a balancing
of the “irreparable harm” that the plaintiff is likely to
sustain if the injunction is denied as compared to the
harm that the defendant is likely to suffer if the court
grants a preliminary injunction. CCP §526(a)(2); 14859
Moorpark Homeowner’s Assn. v. VRT Corp., (1998) 63
Cal.App.4th 1396. 1402; Pillsbury, Madison & Sutro v.
Schectman, (1997) 55 Cal.App.4th 1279, 1283; Davenport
v. Blue Cross of California, (1997) 52 Cal.App.4th 435, 446;
Abrams v. St. Johns Hospital, (1994) 25 Cal.App.4th 628,
636. Thus, a preliminary injunction may not issue without
some showing of potential entitlement to such relief. Doe
v. Wilson, (1997) 57 Cal.App.4th 296, 304. The decision to
grant a preliminary injunction generally lies within the

47a
Appendix C
sound discretion of the trial court and will not be disturbed
on appeal absent an abuse of discretion. Thornton v.
Carlson, (1992) 4 Cal.App.4th 1249, 1255.
A preliminary injunction ordinarily cannot take effect
unless and until the plaintiff provides an undertaking for
damages which the enjoined defendant may sustain by
reason of the injunction if the court finally decides that
the plaintiff was not entitled to the injunction. See CCP
§529(a); City of South San Francisco v. Cypress Lawn
Cemetery Assn., (1992) 11 Cal.App.4th 916, 920.
D. Statement of Facts
1. 	CRA and MEC’s Evidence5
a. Background
On March 4, 2020, Governor Newsom declared a
“State of Emergency” 5followed by a March 19, 2020 Stay5. CRA requests judicial notice of the following exhibits
attached to the Ellis declaration: (1) a November 22, 2020
Department press release entitled “Public Health to Modify
Health Officer Order to Restrict Dining at Restaurants,
Breweries, Wineries and Bars Amid Surge in Cases - 5-Day
Average of New Cases is 4,097” (Ex. 1); (2) a transcript of a
November 24, 2020 County Board of Supervisors (sometimes
“Board”) meeting (Ex. 11); (3) the Restaurant Closure Order, a
November 25, 2020 Order of the Health Officer for Los Angeles
County entitled “Reopening Safer at Work and in the Community
for Control of COVID-19, Blueprint for a Safer Economy – Tier
1 Surge Response” (Ex. 17); (4) a September 2020 California
Department of Public Health chart entitled “Blueprint for a Safer

48a
Appendix C
at-Home Order which included an indefinite prohibition
on operating “nonessential businesses,” including
restaurants. Ellis Decl., Ex. 18. Governor Newsom
specified that California’s response to the coronavirus
pandemic “must be done using a gradual, science-based
and data-driven framework.” Id. (emphasis added). He
also stated that the state’s actions should be aligned to
achieve the objectives of (1) ensuring the ability to care
for the sick within the state’s hospitals, (2) preventing
infection in people who are at high risk for severe disease,
(3) building the capacity to protect the health and wellbeing of the public, and (4) reducing social, emotional,
and economic disruptions. Id.
Economy” (“Blueprint”) (Ex. 7); (5) a press release issued by
the Governor entitled “Governor Newsom Outlines Six Critical
Indicators the State will Consider Before Modifying the Stay-atHome Order and Other COVID-19 Interventions” (Ex. 18); (6) the
United States Supreme Court’s opinion in Roman Catholic Diocese
of Brooklyn, New York v. Cuomo, (“Roman Catholic Diocese”)
(Nov. 25, 2020) 2020 WL 6948354, 592 U.S. ___ (Ex. 21); and (7)
the TRO/OSC and accompanying minute order dated November
6, 2020 in Midway Ventures, LLC v. County of San Diego, et al.,
Case No. 37-2020-00038194-CU-CR-CTL (San Diego County
Superior Court) (Ex. 22).
The existence of the Exhibits 21 and 22, but not the truth of
their contents, is judicially noticed. Evid. Code §452(d); Sosinsky v.
Grant, (1992) 6 Cal.App.4th 1548, 1551 (judicial notice of findings
in court documents may not be judicially noticed). The existence of
the press release (Ex. 1), the Restaurant Closure Order (Ex. 17),
the Blueprint (Ex. 7), and the Governor’s press release (Ex. 18) are
judicially noticed. Evid. Code §452(c). The court cannot judicially
notice a reporter’s transcript (Ex. 11), and the request is denied.

49a
Appendix C
On August 28, 2020, Governor Newsom and the
California Department of Public Health announced a
revised regulatory regime entitled the “Blueprint for a
Safer Economy” (the Blueprint), outlining a four-tiered
system of community disease transmission risk with
activity and business tiers for each risk level. Ellis Decl.
Ex. 7. Restaurants are listed as a separate sector in the
Blueprint. Id. A county in Tier 2 may allow indoor dining
at a maximum capacity of 25% or 100 people, whichever
is less, while a county in Tier 1 may permit only outdoor
dining. Id. Even in the most restrictive tier, outdoor dining
is expressly permitted. Id.
b. 	The Restaurant Closure Order
On November 22, 2020, the Department issued a press
release announcing the issuance of the Restaurant Closure
Order, effective November 25, 2020, which would ban
outdoor dining for at least three weeks. Ellis Decl., Ex. 1.
On November 23, 2020, CRA sent an objection letter
to the Department, asking it to cancel the proposed
Restaurant Closure Order on grounds that the spread
of COVID is due primarily to persons in close proximity
at private gatherings and other sources, and not from
restaurants. Ellis Decl. ¶9, Ex. 8. The letter contended
that the County had no study that would support the
Restaurant Closure Order, it was not supported by the
existing scientific evidence, and it would cause significant
harm to restaurants, their employees, and customers. Ex.
8, p. 1-2.

50a
Appendix C
On November 24, 2020, the Board of Supervisors held
a public meeting at which the potential Restaurant Closure
Order was discussed, and the Department was questioned
about the basis for its contemplated action. Ellis Decl.,
¶13, Ex. 11. At this meeting, the Department admitted
that it has not been tracking COVID transmission at
County restaurants and did not have state or County data
to support the Restaurant Closure Order. Id. Instead,
County Health Officer Davis referred to a study by the
Centers for Disease Control (“CDC”), calling it “the best
information that we have” to support the Restaurant
Closure Order. Id.
Department public health officials Davis, Health
Officer, Ferrer, Director of the Department of Public
Health, and Dr. Christina Ghaly (“Ghaly”), Director of
the Department of Health Services, explained the reasons
for the Restaurant Closure Order during the November
24 Board meeting:
Ghaly: “[H]ospital capacity is available right
now, but we do risk using it up if the case
counts continue to rise at the level they have
to date.” Siegel Decl. Ex. B, p. 131 (emphasis
added).
Davis: “We are solving the problem of people
mixing together, often times from different
households, being in close contact with a face
covering while they are eating and drinking.”
Id., p. 136.

51a
Appendix C
Ferrer: “[B]ecause all of the people and
customers are not wearing their face coverings
while eating drinking, there’s lot of increased
risk in those settings. A s you know, we
have seen picture after picture of activity
at restaurants, people close together and
intermingling and many people going to . . .
restaurants are not with members . . . of their
household, when we proposed in the beginning
of reopening restaurants, we said perhaps
it makes sense to limit people coming into
restaurants and sitting together in households,
and the restaurants notified us that would
be impossible to enforce. They have no way
of knowing whether people are from one
household. We are looking at increased risk,
and a significant increase in increased risk
because people are not wearing their face
covering.” Id, pp. 137-38 (emphasis added).
Ferrer: “[I] agree that it seems a little bit
counterintuitive to talk about cases when really
all we are worried about is overwhelming the
healthcare system. The issue is that cases are
the earlier predictor of what is going to happen
in our hospital care system. And I think Dr.
Ghaly spoke to this as well, you don’t want to
wait until the case numbers in the hospitals
are really high, because those numbers that
you are seeing in the hospital reflect people who
are infected a couple of weeks earlier. As I said,
we have seen this rapid acceleration this past

52a
Appendix C
week and a half with hospitals and the number
of patients that are there with COVID-19 and
it is not attributed to the 4,500 cases we are
seeking today, it is attributed to the 2,300
cases we saw two weeks ago.” Id., pp. 139-40
(emphasis added).
Ferrer: “We are, in fact, trying to make sure
that whenever you’re out and you’re not with
people in your household, you’re always at an
activity where you can wear your face covering
and keep it on the entire time. And then we’re
also trying to reduce crowded situations and
having people not—and having people stay with
just people from their household.” Id., p. 149.
Ghaly: “And now about this most recent surge,
we’ve seen that test positivity rate creep
up again at 6, 7 percent. And that’s what’s
concerning. And that’s one of the things that
may lead in the future to more hospitalization
over the next week or two.” Id., pp. 161-62. Opp.
to CRA Ex Parte at 14-15.
Two Board supervisors expressed their opinion at the
November 24 meeting that scientific evidence was lacking
to support the Restaurant Closure Order. Supervisor
Barger stated: “There is no data to support closing
restaurants. This action was arbitrary and only further
encourages private gatherings, which is where the virus is
actually spreading.” Ellis Decl. Ex. 14. Supervisor Janice
Hahn stated: “I don’t think we have the data to prove that

53a
Appendix C
outdoor dining is driving the recent surge in cases, nor do
we have the data to assure us that this action will turn our
case numbers around. I am also very worried that it will
drive more people to indoor gathering.” Ellis Decl. Ex. 13.
On November 25, 2020, the Department issued the
Restaurant Closure Order, shutting down all outdoor
dining by 10:00 p.m. that night. Ellis Decl., Ex. 17. The
Restaurant Closure Order states that restaurants,
breweries, and wineries can only offer food and beverage
via takeout, drive-thru, or delivery -- i.e., no indoor
or outdoor dining at restaurants. Id. Pursuant to the
Restaurant Closure Order, County restaurants are
prohibited from offering outdoor dining of any kind,
regardless of the safety protocols in place. Id. The
Department ordered the closure of all restaurants for
in-person onsite dining for an indefinite period. Id.
CRA presents evidence that the Restaurant Closure
Order imposes great financial hardship on the restaurant
industry. Many restaurants previously had implemented
safety measures to comply with the previous Health
Order at significant financial cost. See Leon, Rosenthal,
Terzian, Shams, Gay, and Thornberg declarations. CRA’s
declarations refer to the abrupt nature of the County’s
Restaurant Closure Order, the harm that restaurant
outdoor dining closure will cause, and the risk of layoffs
and permanent restaurant closure from an outdoor
dining ban. See Shams Decl., ¶¶ 9, 11. Many restaurant
owners feel the Restaurant Closure Order is unreasonable
because the risk of COVID transmission from outdoor
dining is greatly outweighed by the devastating economic
consequences. Id.

54a
Appendix C
c. 	Expert Declarations6
(i) Barke
Jeff Barke, M.D. (“Barke”), is a primary care
physician based in Orange County, California who has
treated numerous COVID patients on a near-daily basis
since the start of the outbreak. Barke Decl., ¶4.
Barke opines that there is no rational and legitimate
basis to support the breadth and scope of the Department’s
shutdown of outdoor dining. Barke Decl., ¶7. Since the
beginning of the pandemic, one of the consistent findings
of studies of COVID transmission has been that the
risk of transmission in outdoor settings is low, and the
risk becomes negligible when combined with the use of
commonly-accepted COVID precautionary measures such
as symptom checks, spacing, and the appropriate use of
personal protective equipment by servers according to
CDC guidelines. Barke Decl., ¶7.
An academic study published on April 7, 2020 by
professors and scientists from Southeast University,
the University of Hong Kong, and Tsinghua University
(“China Study”) extracted case reports from the local
municipal health commissions of 320 prefectural (a district
governed by a prefect) cities in China, identified all
outbreaks of COVID (defined as three or more individual
6. CRA and MEC filed similar declarations from two experts,
Jayanta Bhattachara and Sean Kaufman. The court’s citations are
to CRA’s declarations.

55a
Appendix C
cases), reviewed the major characteristics of the enclosed
spaces in which the outbreaks were reported and their
associated indoor environmental issues, and found that
only one of the 318 identified outbreaks – amounting
to only two infected persons – implicated an outdoor
environment. Barke Decl., ¶8, Ex. A.
Another academic study published on April 16, 2020
by professors and scientists from the Japanese Ministry
of Health, Labour and Welfare, Hokkaido University,
the Tohoku University Graduate School of Medicine,
and the Japanese National Institute of Public Health
and National Institute of Infectious Diseases (“Japan
Study”), examined clusters of COVID in Tokyo, Aichi,
Fukuoka, Hokkaido, Shiakawa, Kanagawa and Wakayama
prefectures in Japan, finding that closed – not open –
environments contribute to the secondary transmission
of COVID. Barke Decl., ¶9, Ex. B. The Japan Study also
found that an infected person transmitted COVID in a
closed environment at a rate 18.7 times greater than an
open-air environment. Id. On the basis of these findings,
the Japan Study concluded that a reduction of unnecessary
close contact in closed environments may help prevent
large case clusters and so-called “superspreading” events
relating to COVID. Barke Decl., ¶9, Ex. B.
An article from the Mayo Clinic describes a general
medical consensus regarding safe outdoor activities
during the COVID pandemic. Barke Decl., ¶10, Ex. C.
According to the Mayo Clinic article, COVID is primarily
spread from person-to-person by those within six feet
of each other. Ex. C. In some situations, especially in

56a
Appendix C
enclosed spaces with poor ventilation, COVID can spread
when a person is exposed to small droplets or aerosols that
stay in the air for minutes to hours. Id. When the weather
is appropriate, outside patio dining can be a good outdoor
option. Id. Outdoor patio dining at uncrowded restaurants
where patio tables are spaced appropriately is safer than
indoor dining. Id. The article advises persons to wear a
mask when not eating or drinking, in other areas of the
restaurant, keep a distance of at least six feet (two meters),
avoid self-service food and drink options, and remember
to wash their hands when they enter and leave. Id.
These studies comport with Barke’s observations
in practice. Barke has not treated a single COVID who
contracted it in an outdoor dining setting. Barke Decl.,
¶11. The risk of COVID infection and transmission is much
lower when eating in an outdoor setting, just as it is safe
and permitted to travel for hours across the country in a
crowded and enclosed aircraft. Id.
(ii) Bhattacharya
Jayanta Bhattacharya, M.D. (“Bhattacharya”) is a
Professor of Medicine and infectious disease specialist
at Stanford University with a primary research area in
health economics, including a focus on epidemiology and
infectious disease epidemiology. Bhattacharya Decl., ¶¶
2, 4. Bhattacharya opines that the blanket countywide
prohibition on outdoor dining in the County does not
comport with, and is inconsistent with, good public health
practice applicable to COVID. Bhattacharya Decl., ¶2.

57a
Appendix C
Bhattacharya conducted a study that found that 4.3%
of County adults showed specific antibody evidence of
prior or current COVID infection by April 10-11, 2020.
Bhattacharya Decl., ¶6. This prevalence rate represents
a multiple 43.5 times the number of cases confirmed by
the County’s public health authority by that same date.
Bhattacharya Decl., ¶6. One important implication of
this paper is that, on the date of the survey, the COVID
infection fatality rate (the probability of dying from a
COVID infection) in the County was at least an order
of magnitude lower than the “case fatality rate”, which
consists only of patients who have been infected with
COVID and identified as a “case”. Id. A case most typically
is a patient with severe symptoms who has come to the
attention of medical authorities. Id.
In May 2020, Bhattacharya testified at a virtual
roundtable organized by United States Senator Pat
Toomey on the subject of the potential reopening of
youth baseball leagues while protecting the safety of
participants. Bhattacharya Decl., ¶12. At this roundtable,
he reviewed the evidence regarding the relatively low
mortality and morbidity risk that COVID infection
poses to children and adolescents and discussed social
distancing and other protocols to make youth baseball
safer for coaches, umpires, and other adult participants.
Id.
In October 2020, Bhattacharya, Harvard Professor
Dr. Martin Kulldorff, and Oxford Professor Dr. Sunetra
Gupta, wrote a declaration (the “Great Barrington
Declaration”) which discussed an alternative to the

58a
Appendix C
current COVID strategies in jurisdictions across the
United States. Bhattacharya Decl., ¶15. The Great
Barrington Declaration offers an alternative approach
called focused protection. Bhattacharya Decl., ¶16.
According to focused protection, the most compassionate
approach to the COVID pandemic balances the risks and
benefits of reaching herd immunity by allowing those who
are at minimal risk of death to live their lives normally to
build up immunity to the virus through natural infection,
while better protecting those who are at highest risk.
Id. The Great Barrinton Declaration was published
with approximately 30 co-signers in early October 2020.
Bhattacharya Decl., ¶17. Since then, it has been co-signed
by more than 10,000 medical and public health scientists
and 30,000 medical practitioners. Id.
Pursuant to the CDC’s “Considerations for Restaurant
and Bar Operators,” updated November 18th, 2020, outdoor
dining may occur with relative safety at restaurants if
precautionary measures are observed, including but not
limited to, social distancing and mask wearing by servers
and by patrons (when not eating). Bhattacharya Decl., ¶20.
The CDC includes outdoor dining in the second lowest
tier of risk, and notes that even this risk can be mitigated
by reasonable accommodations such as spacing tables
appropriately, encouraging mask wearing by servers,
frequent sanitizing of surfaces, and other actions that
are well within the capability of County restaurants. Id.
The Restaurant Closure Order is inconsistent with this
guidance. Id.

59a
Appendix C
Bhattacharya’s medical opinion is that restaurants
in the County can safely permit outdoor dining by
following the CDC guidelines. Bhattacharya Decl., ¶20.
Bhattacharya has read many of the contact tracing studies
in the scientific literature that document the most common
sources of spread of COVID infection and he is aware
of no evidence suggesting that outdoor dining is more
likely to spread the COVID virus than the activities –
including private gatherings – that remain permissible.
In fact, spread through permitted activities will be more
likely if the Restaurant Closure Order remains in effect.
Bhattacharya Decl., ¶22.
The County guidelines prohibiting outdoor dining
are substantively stricter than is required by the
state. Bhattacharya Decl., ¶23. The state’s Blueprint
builds considerable lags into the measurement of the
epidemiological metrics (a seven-day lag and a sevenday smoothing requirement) and requires that a county
must stay in the same tier for at least 21 days before it is
permitted to move to a less restrictive tier even if it meets
the criteria of the less restrictive tier. Bhattacharya Decl.,
¶26. By prohibiting outdoor on-premises dining and doing
so throughout the county, the Department is imposing
stricter requirements than those required by the state.
Bhattacharya Decl., ¶28.
The County has done so without a scientific justification
for imposing such stricter requirements on these
activities. Id. The Department’s available data does not
contain any epidemiological or other model that shows
prohibiting outdoor dining on a countywide basis in a

60a
Appendix C
county the size of the County has any relationship to
avoiding circumstances that challenge the healthcare
delivery system’s ability to deal with a surge with space,
supplies, and staff as required by the Blueprint, does
not compare hospitalization forecasts against hospital
capacity in light of prohibitions on outdoor dining, does
not account for the possibility of transfers of patients
across counties, and does not account for the possibility
of building and staffing field hospitals in overstretched
areas. Bhattacharya Decl., ¶28.
The Department also has provided no indication that
it has estimated or otherwise taken into account any of
the economic, social, and public health costs of restricting
outdoor dining. Bhattacharya Decl., ¶29. Basic standards
of public health policy design require a comparison of both
costs and benefits of a policy to justify it from a scientific
and ethical point of view. Id. A scientifically justified
policy must explicitly account for these costs – including
an explicitly articulated economic analysis – in setting,
imposing, and removing criteria for business restrictions
such as the blanket prohibition on outdoor dining. Id.
The County’s positivity rate data is scientifically
unjustified. Bhattacharya Decl., ¶30. Both the number
of new daily cases and the percent positivity criteria
require analysis of results from the reverse transcriptase polymerase chain reaction (“RT-PCR”) test for the COVID
virus utilized by the County. Id. The available scientific
information regarding the accuracy of COVID PCR
tests, as conducted by clinical laboratories in California,
suggests that they are not sufficiently accurate regarding

61a
Appendix C
infectivity risk to warrant the central role they play in the
criteria the County has adopted for restricting activity. Id.
There are two major problems that render these
criteria scientifically unjustified. Id. Both criteria used
by the County -- the new daily cases number and the
positivity number -- are premised on a measurement
that includes many people who are identified as COVID
positive but who pose little or no community transmission
risk. Bhattacharya Decl., ¶35.
First, neither new daily cases number nor the positivity
number represent random samples of the California
population, but rather results from selected populations
who have chosen to obtain testing. Bhattacharya Decl., ¶31.
Without population representative sampling for testing,
the number does not reflect the risk of transmission and
thus is scientifically unjustified as a criterion for imposing
restrictions on normal activities. Id.
Second, the criteria do not account for the fact that
the RT-PCR tests, as used in most laboratories around
the U.S., likely register positive test results even for
non-infectious viral fragments. Bhattacharya Decl., ¶32.
Although a positive test result indicates that a person has
come into contact with the COVID genomic sequence or
some other viral antigen at some point, the mere presence
of the viral genome is not sufficient by itself to indicate
infectivity. Id. A binary “yes or no” approach to the RTPCR test will result in false positives, segregating large
numbers of people who are no longer infectious and not a
threat. Bhattacharya Decl., ¶35.

62a
Appendix C
The mortality rates used by the County as a
justification for the ban on outdoor dining similarly
lack a rational medical and scientific basis. The best
evidence on the COVID infection fatality rate (the
fraction of infected people who die from the infection)
comes from seroprevalence studies. Bhattacharya Decl.,
¶36. Seroprevalence studies provide better evidence of
the total number of people who have been infected than
do case reports or a positive RT-PCR test, which both
miss infected people who either are not identified by the
public health authorities or do not volunteer for RT-PCR
testing. Id. Because the County’s mortality rates ignore
unreported cases in the denominator, its fatality rate
estimates based on case reports and positive test counts
are substantially biased upwards. Id.
According to a meta-analysis by Dr. John Ioannidis of
every seroprevalence study conducted with a supporting
scientific paper (74 estimates from 61 studies and
51 different localities around the world), the median
infection survival rate from a COVID infection is 99.77%.
Bhattacharya Decl., ¶37. For COVID patients under
70, the meta-analysis finds an infection survival rate of
99.95%. Id. A newly released meta-analysis by analysts
independent of Dr. Ioannidis’ group, reaches qualitatively
similar conclusions. Id.
In September 2020, the CDC updated its current
best estimate of the infection fatality ratio—the ratio
of deaths to the total number of people infected—for
various age groups. Bhattacharya Decl., ¶39. The CDC
estimates that the infection fatality rate for people ages

63a
Appendix C
0-19 years is .00003, meaning infected children have a
99.997% infection survivability rate. Id. The CDC’s best
estimate of the infection fatality rate for people ages 20-49
years is .0002, meaning that young adults have a 99.98%
survivability rate. Id. The CDC’s best estimate of the
infection fatality rate for people age 50-69 years is .005,
meaning middle-aged persons have a 99.5% survivability
rate. Id. The CDC’s best estimate of the infection fatality
rate for elderly people aged 70+ years is .054, meaning
seniors have a 94.6% survivability rate. Id.
The CDC’s current best fatality rate estimates for
COVID patients who are symptomatic among patients
less than 50 years old is 0.05% (5 in 10,000), 0.2% for
patients between ages 50 and 64, and 1.3% for patients 65
and above. Bhattacharya Decl., ¶40. The infection fatality
rates are lower than these numbers since only a fraction
of patients is symptomatic. Id.
A study of the seroprevalence of COVID in Geneva,
Switzerland provides a detailed age break down of the
infection survival rate in a preprint companion paper:
99.9984% for patients 5 to 9 years old; 99.99968% for
patients 10 to 19 years old; 99.991% for patients 20 to 49
years old; 99.86% for patients 50 to 64 years old; and 94.6%
for patients above 65. Bhattacharya Decl., ¶41.
In all of California through August 2020, there have
been only two deaths among COVID patients below age
18. Id. 74.2% of all COVID-related deaths occurred in
patients 65 and older. Id.

64a
Appendix C
The scientific evidence shows that, for non-elderly
outdoor diners, the mortality risk from contracting the
disease is very low. Bhattacharya Decl., ¶43. The infection
survival rate is more than 99.8% for this population. Id.
Even this number overestimates the risk of outdoor dining,
since the probability of contracting the disease during an
outdoor meal is much less than one, though difficult to
estimate with available public health information. Id.
For elderly congregants (age 70+), the mortality risk
conditional on contracting the disease is higher, but still
small, with 98.7% of infected elderly people surviving the
infection, according to the infection fatality rate from the
Santa Clara study. Id. These risks are commensurate
with other risks that many people are prepared to take
in their lives. Id. The risks are lower, in fact negligible, if
precautions of wearing masks, social distancing, spacing
and hand washing are followed. Bhattacharya Decl., ¶44.
The risks of COVID transmission should be considered
against the substantial evidence that social eating provides
significant and tangible psychological and physiological
benefits for diners that are lost through the imposition
of such scientifically and epidemiologically unjustified
blanket and untargeted bans. Bhattacharya Decl., ¶45.
A comprehensive survey of 17,612 men and 19,581 women
over the age of 65 found that eating alone has been
linked to a higher incidence of depression among adults,
particularly those who live alone. Id. Eliminating the
possibility of all outdoor dining, no matter the precautions
taken, reduces or eliminates these important benefits. Id.

65a
Appendix C
Public health recommendations regarding behavior
by private actors (such as the decision to protest) should
weigh the benefits of that behavior against the public
health costs. Bhattacharya Decl., ¶50. If the benefits of the
undertaking are important enough relative to the public
health risks and care is taken to minimize those risks by
adhering to the extent possible to safe practice guidelines
promulgated by public health authorities, then the activity
should receive approval by public health experts. Id.
(iii) Lyons-Weiler
Dr. James Lyons-Weiler (“Lyons-Weiler”) is a scientific
researcher with a background in public health policy and
statistical research. Weiler Decl., ¶1. He opines that the
risk of COVID transmission in outdoor dining is minimal
because of the outdoor setting, with breeze, humidity, and
sunlight. Weiler Decl., ¶2.
As of November 27, 2020, 364,261 cases, including
presumed cases as well as laboratory-confirmed cases,
have been detected in the County, with 7,174 deaths
attributed to COVID infection. Weiler Decl., ¶8.
Transmission is understood to occur in enclosed spaces
with poor ventilation. Id.
In the County, the overall infection case fatality rate
is 0.0196 (7,174/364,261). Weiler Decl., ¶9. In the week of
November 29, 2020, 37 new deaths and 5087 new cases
have been reported, implying a much lower current
infection case fatality rate (0.007). Id.

66a
Appendix C
A person who tests positive for the presence of the
virus may not be contagious. Weiler Decl., ¶18. That
depends on viremia (viral load), which is supposed to
be reflected in the PCR curve. Id. All of the available
empirical estimates support a minimum false positive
rate of 0.48, meaning that 45-48% of cases of COVID
have nearly a zero risk of transmission. Weiler Decl.,
¶19. Concern over person-to-person transmission from
people who test positive (and are thus given a presumptive
diagnosis of COVID) must be adjusted downward by at
least 50%. Id. It is possible that most of the asymptomatic
cases being reported are false positives. Id.
Dr. Bonnie Henry, B.C. Provincial Health Officer,
reported to CBC Vancouver that the risk of becoming
infected by walking through a cloud of droplets from
someone who has sneezed outside while walking by is
“negligible.” Weiler Decl., ¶20. These principles have
been applied to the study of the outdoor transmission as
of COVID. Id.
The China Study found for 318 outbreaks that only 1 of
7,324 cases was assumed to be due to outdoor transmission.
Id. The Japan Study tested 110 COVID individuals and
used contact-tracing to follow-up on secondary cases.
Weiler Decl., ¶23. The data indicated that people are
much more likely to catch COVID indoors; the authors
estimated that a primary case was 18.7 times more likely
to transmit the disease in a closed environment than in
the open air. Id. The environments considered included
exercise gyms, a restaurant boat, and eating spaces in
tents with minimum ventilation. Id.

67a
Appendix C
The CDC reports that there are 24,292 restaurants in
the County. Weiler Decl., ¶24. When the seating capacity
is limited to 60 patrons for all 24,000 County restaurants,
about two to 450 new COVID cases every 30 days would
be expected. Weiler Decl., ¶30. COVID has as >99.9%
survival rate, and it would be reasonable to conclude that
about 4.5 deaths might occur (worst case scenario). Id.
Scientists recognize that all for ms of human
death should be avoided if possible. Weiler Decl., ¶31.
Nevertheless, all forms of human activity, including eating
at restaurants, carry some risk. Weiler Decl., ¶33. The
risks associated with COVID from outdoor dining are far
smaller than the risks of choking or food poisoning. Id.
While on average, there is about one death from COVID
for every 124 days of outdoor restaurant operation -assuming that every restaurant in the County is operating
at full capacity with 40 outdoor seats -- about 250 people
die each year in the County from either choking or food
poisoning. Id. Given the information available on outdoor
transmission, the risk is “lower than a convenience store”.
Weiler Decl., ¶33.
(iv) Allen
Hubert A. Allen, Jr. (“Allen”) has a Masters of Science
Degree in Biostatistics from Johns Hopkins University,
Bloomberg School of Public Health and 35 years as a
statistician and in public health. Allen Decl., ¶2. He
acknowledges that COVID rages in November 2020 with
daily records of cases, hospitalizations, and deaths. Allen
Decl., ¶3. The question is what are the effective methods
of controlling community spread of COVID? Id.

68a
Appendix C
Allen opines that the County has no basis to close
outdoor dining because the Department has provided
no supporting evidence and/or scientific studies, data,
or evidence that the operating of outdoor dining
establishments poses an unreasonable risk to public
health. Allen Decl., ¶5. The Department’s own data
provide no support for the planned shutdown of outdoor
restaurant operations. Allen Decl., ¶6. The data tracks all
non-residential settings at which three or more laboratoryconfirmed COVID cases have been identified. Id. Of the
204 locations identified on this list, fewer than 7% are
restaurants. Id. Based on the case data for OctoberNovember, it is clear that the County’s increased cases
are not due to the restaurant sector as restaurants only
making up 3.10% of new infections during that period.
Allen Decl., ¶7. Allen’s independent analyses show little
risk of COVID spread in restaurants, and no evidence that
outdoor dining is the problem. Allen Decl., ¶8.
Allen opines that the state’s California Risk Tier
System and trigger definitions are too simple and too
blunt as deliberating instruments. Allen Decl., ¶11. There
was no effort to conduct a comprehensive risk-benefit
analysis, which means looking not only at two metrics
but also the economic consequences of a move to greater
constriction of the economy and whether the constricting
actions are targeting the greatest risk businesses and
activities based on business sector data and statistics in
the specific country. Id.

69a
Appendix C
(v) Kaufman
Sean G. Kaufman (“Kaufman”) is a certified public
health professional, behaviorist, health education and
infectious disease specialist with over 25 years of
expertise in both behavioral-based training and infectious
disease risk mitigation in clinical, laboratory and other
public health settings. Kaufman Decl., ¶1. He worked for
the CDC from 1999 through 2006. Kaufman Decl., ¶5. He
opines that the risk of COVID transmission in an outside
environment is extremely low due to the wind, dryness,
sunlight, and the mere dilution of quantities needed for an
exposure to cause illness and no scientific evidence exists
which would warrant wide-spread closures of outside
dining. Kaufman Decl., ¶2.
Contrary to Davis’s statement that a CDC study is the
“best data” in support of the Restaurant Closure Order,
the CDC study is not specific to restaurants and does
not support the conclusion that outdoor dining should be
banned. Kaufman Decl., ¶¶ 16-17. The study showed that a
subset of COVID patients reported that they had recently
dined at restaurants more than the general population.
Id. The CDC study does not make any distinction between
indoor and outdoor dining, even though all available
evidence on the transmission of any airborne illness
suggests that this is a key factor. Kaufman Decl., ¶17.
There is no scientific evidence that County public
officials have cited that demonstrates that there is a
measurable risk of transmission of COVID in an outdoor
dining situation when the appropriate safety measures are

70a
Appendix C
implemented. Kaufman Decl., ¶19. With the precautions
already implemented by most restaurants in the County
prior to the Restaurant Closure Order -- socially distanced
outdoor dining, masks, and temperature checks -- the
transmission of the virus from one person to another is
highly unlikely. Id. The Department’s data only attributed
3.1% of County COVID cases to restaurants. Id.
The CDC has determined that masks can help
prevent people infected with COVID from spreading the
virus. Kaufman Decl., ¶25. Restaurants that subscribe
to adequate precautions, such as outdoor air ventilation,
temperature checks, requiring restaurant employees to
wear masks and gloves, and social distancing, can safely
and effectively prevent the spread of the virus. Id. A
restaurant that offers outsider dining is reducing disease
transmission drastically. Id.
There is no rational and legitimate scientific or
public health basis supporting the ban on outdoor dining
in restaurants. Kaufman Decl., ¶21. In making public
health decisions, it is important for health officials
to weigh the overall risk of the given disease to the
overall benefits of the imposed public health policy.
Kaufman Decl., ¶22. The likelihood of symptomatic and
pre- symptomatic transmission, reproduction rates,
signs, symptoms, mortality, risks and other infectious
disease characteristics of COVID in both child and adult
populations both domestically and internationally does
not rationally support the County’s order. Id.

71a
Appendix C
There is now a widespread scientific consensus that
COVID does not affect all people equally. Kaufman Decl.,
¶26. Over 41% of the COVID deaths in the United States
have occurred in nursing homes. Id. And 94% of all deaths
associated with the COVID condition involved victims
with pre-existing underlying medical conditions—such as
diabetes or heart disease. Id. It is now understood that
most of the severe cases of the disease occur in individuals
over the age of 65. Id.
The recent countywide ban on all indoor and outdoor
dining in restaurants is counter to the purpose and
mission of public health. Kaufman Decl., ¶27. Realistically,
asymptomatic transmission of COVID is fairly low. Id.
Logically, it is unlikely that a symptomatic person would
choose to dine out at a restaurant, just as someone with
flu symptoms is unlikely to opt for a restaurant dining
experience versus staying home. Id.
The sweeping nature of the Department’s order shows
that it is not rationally targeted as an infectious disease
control mechanism. Kaufman Decl., ¶29. There is no public
health reason that a restaurant in an unaffected portion
of a California county must be prohibited from operating
outdoor dining because of an outbreak in an affected
portion of a California county. Id.

72a
Appendix C
2.

The Department’s Ex Parte Evidence7
a.

Jeffrey D. Gunzenhauser

Jeffrey D. Gunzenhauser, M.D. (“Gunzenhauser”)
is the County’s Chief Medical Officer/Medical Director.
Guzenhauser Decl., ¶1. While older adults and those with
underlying medical conditions are at higher risk of severe
illness and death from COVID, the virus can cause severe
illness and death in individuals of any age. Gunzenhauser
Decl., ¶9. Unusual blood clotting has also been observed in
COVID patients, which can lead to pulmonary embolism,
deep vein thrombosis, or stroke. COVID-related clotting
often does not respond to standard treatment, such as
blood-thinners. Id.
Emerging evidence suggests that some who recover
from COVID experience serious effects that linger long
after clearing the viral infection. Gunzenhauser Decl., ¶10.
Some of these long-term effects may be attributable to
organ damage caused by the COVID infection. Id. Scans
and tests of some patients who recovered from COVID
have shown damage to heart muscle and scarring in
the lungs. Id. Some of this damage is believed to be the
result of COVID-related blood clotting, including clots
7. CRA has filed written objections to the County’s evidence
supporting its ex parte opposition and its OSC opposition. Most
of these objections are made on relevance grounds. The court
has considered only relevant evidence and need not rule on those
objections. The court has ruled on the other objections, the vast
majority of which were overruled. The clerk is ordered to scan
and file the rulings.

73a
Appendix C
that weaken blood vessels and very small clots that block
capillaries. Id.
The effectiveness of treatment remains limited, and a
widely available vaccine is still months away. Gunzenhauser
Decl., ¶11. Additionally, despite improved treatment, the
proportion of COVID patients requiring hospitalization
has remained elevated above 10% throughout the
pandemic and averaging about 10% in the most recent four
months, with approximately one quarter to one third of
hospitalized patients in the ICU, and approximately one
half of those ICU patients requiring ventilators. Id.
There is consensus among epidemiologists that the
most common mode of transmission of COVID is from
person-to-person through respiratory droplets that are
expelled when a person coughs, sneezes, or projects their
voice. Gunzenhauser Decl., ¶13. There is no scientifically
agreed-upon safe distance, but it is widely accepted that
standing or sitting near an infectious person is riskier
than being farther away. Id.
Not every exposure to the COVID virus will lead
to infection. Gunzenhauser Decl., ¶15. Infection occurs
when a person receives a dose of the virus large enough to
overcome the body’s defenses, which may vary from person
to person. Id. Measures to control the spread of COVID
should therefore include efforts to limit interactions in
conditions that support exposure to higher viral doses. Id.
Conditions that pose a particularly high risk are present
in gatherings. Id. It is widely accepted that a gathering
of any size increases the risk of community transmission.

74a
Appendix C
Id. Risk increases with the size of the gathering because
the more people who gather, the likelier it is that one or
more infected persons will be present. Id. In turn, the
number of people who are potentially exposed to the virus
increases with the size of the gathering. Id.
The risk of transmission further increases when
individuals are in close proximity for an extended period
of time. Gunzenhauser Decl., ¶16. Risk is also increased
when individuals are not wearing face coverings. Id. Close
proximity to an unmasked infected person for a prolonged
period of time presents an especially high risk of receiving
a viral dose sufficient to cause COVID infection. Id.
Many cases of COVID are the result of secondary
spread wherein an individual who did not attend a
particular event contracts the virus as a result of an
outbreak triggered by that event. Gunzenhauser Decl.,
¶27.
Evidence indicates that gatherings of individuals
from different households facilitate the spread of COVID.
Gunzenhauser Decl., ¶26. While large gatherings present
the greatest risk, any gathering of individuals poses a risk
of transmission. Id. There is widespread consensus among
public health experts that restrictions on gatherings are
a necessary and effective tool for preventing the spread
of COVID. Id. Principles of infection control have shown
that systematic administrative control measures such
as the prohibition of gatherings are more effective than
measures dependent on widespread individual compliance
as the latter are difficult to enforce and sustain and

75a
Appendix C
will fail in protecting the public’s health even if a small
proportion is non-compliant. Id. Excluding symptomatic
individuals from gatherings is an inadequate strategy
because a substantial proportion of transmission, and
perhaps even the majority, involves spread of the virus
from persons who are pre-symptomatic or asymptomatic
carriers of the virus. Id.
The County’s experience bears out the effectiveness of
systematic responses such as prohibitions on gatherings.
Gunzenhauser Decl., ¶29. While the initial March 2020
state and County stay-at-home orders were in effect, the
rate of COVID transmission dropped significantly. Id.
When COVID spreads, it is believed that the average
infected person goes on to infect two to four other people.
Id. This is sometimes referred to as the “R number.”
When the stay-at-home orders were in effect, the County’s
R number dropped to less than one, indicating that on
average each infected person would infect less than one
other individual, leading to a reduction in the number of
new daily cases. Id. Once the orders were lifted, the R
number began increasing again. Id. As of November 23,
2020, the R number for the County was 1.27, meaning the
daily number of new COVID cases is expected to increase
over time. Id.
The County’s experience demonstrates the risk in
relying on widespread individualized compliance alone to
control the spread of COVID. Gunzenhauser Decl., ¶30.
During one weekend in June, Department inspectors
found that 49% of bars and 33% of restaurants were not
adhering to physical distancing protocols and that 54%

76a
Appendix C
of bars and 44% of restaurants were not enforcing mask
requirements. Id. In September, the County reported
that 20% of restaurants inspected were violating COVID
protocols. Id.
A key part of any public health department’s response
to outbreaks involves field investigations. The level of
evidence required in a field investigation is not the same
as that required in a clinical trial. Gunzenhauser Decl.,
¶32. In a field investigation, the purpose is to determine
what steps can be taken to stop or slow the spread of
an infectious disease. Id. The purpose of public health
decisions based on field investigations is to take actions
in a timely manner that will prevent or curtail the spread
of the virus or other disease-causing agent. Id. Often,
officials will have to make decisions quickly and when
information is limited, especially in comparison to other
medical studies such as full-blown, clinical trials when the
urgency of the situation is not so severe. Id.
The accepted approach to outbreak response is
systemic and multi-pronged. The purpose of “reopening”
sectors is to create spaces where people can resume
normal activities without triggering uncontrolled spread
of the virus. Gunzenhauser Decl., ¶34.
From November 1, 2020 to November 22, 2020, the
County’s seven-day average of new daily cases more than
doubled from 1,216 per day to 3,099 per day. Gunzenhauser
Decl., ¶36. On November 23, 2020, the County reported
6,124 new cases for that day alone, which is the most since
the onset of the pandemic. Id. Between November 13

77a
Appendix C
and November 27, hospitalizations of confirmed COVID
patients increased by 101%. Id. This indicates widespread
and uncontrolled community transmission of the virus.
Id. Currently, approximately one in 145 County residents
is infectious to others. During the week of November 16,
that number was one in 250. Id.
The number of new cases and hospitalizations is
expected to rapidly increase over the next 21 days which,
without rapid public health interventions, will lead to
a major increase in the number of persons with severe
illness and the number of deaths and will stress the
healthcare system and healthcare workers. Gunzenhauser
Decl., ¶37. This stress will limit the availability of
ICU beds for patients who may need them, including
patients hospitalized for conditions other than COVID.
Gunzenhauser Decl., ¶37.
On November 21, 2020, the County reported 4,522
new confirmed cases and 1,391 people hospitalized, 26%
of whom were in the ICU. On November 22, 2020, the
County reported that the five-day average of new cases
surpassed 4,000 daily cases—the threshold for suspending
in- person dining. Gunzenhauser Decl., ¶40.
On November 23, the County reported the highest
number of COVID cases in a single day, at 6,124.
Gunzenhauser Decl., ¶41. This brought the total number of
known COVID cases in the County to 370,636, with 7,446
deaths. Id. As of November 29, 2,049 COVID patients were
hospitalized in the County, with 24% in the ICU. Id. The
day before, 1,951 patients were hospitalized, with 25% in
the ICU. Id.

78a
Appendix C
When community spread of the virus increases,
the number of known and suspected COVID patients
occupying both ICU and non-ICU beds increases as well.
Gunzenhauser Decl., ¶43. On most days in June, there
were fewer than 1,500 confirmed COVID cases in the
County’s hospital beds. Id. For ICU beds, that number
rarely exceeded 500. Id. Because hospitalizations tend to
lag behind by two to three weeks, those numbers did not
yet fully reflect the increase in community spread that
followed the County’s reopening measures that began in
May. Id. During the July surge, the number of confirmed
COVID patients exceeded 1,500 every day, and often
approached 2,000. Id. For the ICU, those numbers never
dropped below 500 and at times approached 700. Id. On
November 1, 2020, known and suspected COVID cases
accounted for 721 non-ICU beds and 239 ICU beds. Id.
By the day before Thanksgiving, those numbers had
risen to 1,431 and 475, respectively. Id. From October 27
to November 27, 2020, COVID hospitalizations jumped
from 747 to 1,893. Id. The current surge is accelerating
much more rapidly than the July surge. New cases and
hospitalizations in the current surge are increasing at
double the rate seen in July. Id.
Data shows that infections among younger people
are a significant contributing factor to the surge. The
CDC found that the median age of confirmed COVID
cases decreased from 46 years in May to 38 years in
August. Gunzenhauser Decl., ¶44. That same study found
that people in their twenties accounted for the largest
proportion of cases (more than 20%) out of any age group.
Id. Younger adults make up a significant proportion of
workers in front-line occupations such as retail stores

79a
Appendix C
and highly exposed industries such as restaurants and
bars, where they have more contact with members of the
public. Id.
Increased hospitalizations due to COVID, including
ICU admissions, risk overwhelming the County’s hospital
capacity. Gunzenhauser Decl., ¶45. A secondary effect
of the COVID pandemic is that some individuals delay
seeking treatment for other conditions for fear of being
exposed to COVID at healthcare facilities. Gunzenhauser
Decl., ¶46. More people in the United States have died in
2020 than in an ordinary year, but not all of these excess
deaths are attributable to COVID. Id.
Based on public health observations of the effects of
the virus during this pandemic, hospitalizations typically
increase two to three weeks after a spike in cases, and
deaths increase thereafter. Gunzenhauser Decl., ¶49.
Therefore, while the County is currently experiencing
a surge in hospitalizations, it expects the current high
case counts to lead to an even higher hospitalization
rate in the coming weeks, which is why the Department
took proactive steps to combat the virus: ordering the
temporary closure of in-person dining and issuing a new
Safer-at-Home Order. Id.
There is general consensus that in-person eating
and drinking at restaurants, breweries, and wineries
are among the riskiest activities in terms of COVID
transmission. Gunzenhauser Decl., ¶48. Studies have
demonstrated that COVID is less likely to be transmitted
in outdoor spaces than in indoor spaces, where respiratory
droplets and aerosols can accumulate. Id. The risk of

80a
Appendix C
transmission is further reduced when outdoor diners are
spaced away from each other, when restaurant staff wear
face coverings and face shields, and when patrons only
remove their face coverings to eat and drink. Id.
Studies show the role of masks in limiting the spread
of COVID, and that situations where unmasked individuals
from different households spend prolonged periods of
time in proximity to one another present a higher risk of
transmission than settings where one or more of these
factors is absent. Gunzenhauser Decl., ¶51.
In-person dining and drinking are particularly high
risk, and an effective response to the COVID pandemic
must account for these risks. Gunzenhauser Decl., ¶52. By
contrast, activities such as shopping in stores and working
in offices present lower risk because they lack one or more
of the risk factors associated with restaurant dining.
Id. The County has identified 90 restaurant outbreaks,
including 20 in the last four weeks. Id.
CRA cites figures from the Department’s COVID
webpage in claiming that the Department’s data does not
support the Restaurant Closure Order. Gunzenhauser
Decl., ¶54. This data is dynamic, changes daily, and may
not reflect real-time investigation counts for the settings
listed. Gunzenhauser Decl., ¶55. Restaurants and other
employers are required to notify the Department if three
or more employees test positive for COVID in a 14-day
period. Id. It can be difficult or impossible for these
businesses to know if they have been visited by customers
who tested positive in that same time span. Id.

81a
Appendix C
While every business on the list identified three
or more confirmed staff cases, the “Total Confirmed
Non-Staff” column for the vast majority of businesses
lists zero. This does not mean that there were no cases
of COVID among non-staff (such as customers). Id. It
simply means that the Department has not identified
any laboratory-confirmed cases that can be linked to the
outbreak. Id. Non-restaurant businesses will necessarily
be over-represented in the data set on which CRA relies
because other sectors have been reopened for longer, and
some were never closed for in-person operations to begin
with. Gunzenhauser Decl., ¶56. These businesses, such
as grocery stores and other essential businesses, will
necessarily be over-represented in any location-based
listing of outbreaks. Id.
There is wide consensus that risk reduction in
a pandemic does not require definitive proof that a
particular sector or activity is the cause of an increase in
cases. Gunzenhauser Decl., ¶58. Best practices dictate
that public health departments identify those sectors
and activities that present a higher risk of transmission
and take steps to mitigate those risks, especially during
a surge in cases and hospitalizations. Id.
b. 		Peter B. Imrey8
Peter B. Imrey (“Imrey”) is a biostatisticianepidemiologist. Imrey Decl., ¶1. The disciplines most
central to understanding and combatting infectious
8. The Imrey declaration is attached to the Siegel declaration
as Exhibit A.

82a
Appendix C
diseases in populations outside a clinic or hospital
are infectious disease epidemiology and public health
disciplines such as health education and biostatistics.
Imrey Decl., ¶13. Medical students and residents typically
receive only a rudimentary orientation to epidemiology,
biostatistics, and other public health disciplines. Imrey
Decl., ¶13. Relatively long-term projections from
infectious disease outbreak models are highly fallible.
Imrey Decl., ¶21.
Bhattacharya’s studies seroprevalence survey-based
claims of very low overall and age-specific COVID
infection fatality rates, generally and specifically in
California, remain matters on which there is no scientific
consensus. Imrey Decl., ¶¶ 42, 43, 49, 50.
3. 	The Department’s OSC Evidence9
a.

Davis

Respondent Davis is the County Health Officer and
serves as the 9 County’s medical expert regarding public
9. In support of its OSC opposition, the County requests
judicial notice of: (1) a May 1, 2020 Department of Finance public
release of a “California Tops 39.8 Million Residents at New Year
per New State Demographic Report” (Ex. 1); (2) the Blueprint
(Ex. 2); (3) a County press release titled “Public Health to Modify
Health Officer Order to Restrict Dining at Restaurants, Breweries,
Wineries and Bars Amid Surge in Cases – 5-Day Average of New
Cases is 4,097” dated November 22, 2020 (Ex. 3); (4) the County’s
Public Heath Temporary Targeted Safer at Home Health Officer
Order to Control of COVID-19 (Ex. 4); (5) a Blueprint update

83a
Appendix C

on December 1, 2020 (Ex. 5); (6) a California State Workbook:
COVID-19 Cases report, updated on December 2, 2020 (Ex. 6); (7)
“About COVID_19 restrictions”, an update accessed on December
3, 2020 (Ex. 7); (8) a County press release titled “COVID-19 New
Cases and Hospitalizations Continue to Break Records – L.A.
County Public Health advises everyone to stay home as much as
possible” dated December 3, 2020 (Ex. 8); (9) a December 3, 2020
California Department of Public Health Regional Stay At Home
Order (Ex. 9); (10) a December 1, 2020 CDC article title “People
with Certain Medial Conditions” (Ex. 10); (11) a Declaration of
Peter B. Imrey dated August 31, 2020 and filed in the matter
titled South Bay United, et al. v. Newsom, et al., United States
District Court case No. 3:20-cv-00865 BAS-AHG (Ex. 11); (12)
a Declaration of Michael A. Stoto dated December 2, 2020 and
filed in the matter titled Burfitt v. Newsom, et al., Kern County
case No. BCV-20-102267 (Ex. 12); (13) a Declaration of Dr. George
Rutherford dated December 2, 2020 and filed in the matter titled
Burfitt v. Newsom, et al., Kern County case No. BCV-20-102267
(Ex. 13); (14) a Declaration of Marc Lipsitch dated on November 17,
2020 and filed in the matter titled Tandon, et al. v. Newsom, et
al., United States District Court (San Jose Division) case No.
20CV07108LHK (Ex. 14); (15) a Declaration of Yvonne Maldonado
dated November 18, 2020 and filed in the matter titled Tandon,
et al. v. Newsom, et al., United States District Court (San Jose
Division) case No. 20CV07108LHK (Ex. 15); (16) a Declaration of
Arthur R. Reingold dated November 17, 2020 and filed in the matter
titled Tandon, et al. v. Newsom, et al., United States District
Court (San Jose Division) case No. 20CV07108LHK (Ex. 16); (17) a
September 11, 2020 CDC article titled “Morbidity and Mortality
Weekly Report” (Ex. 17); and (18) a December 3, 2020 press
release “California Health Officials Announce a Regional Stay at
Home Order Triggered by ICU Capacity” (Ex. 18).
The requests are granted as to Exhibits 1-5, 8-10, and 1618. Evid. Code §452(c). The requests are denied as to Exhibits
6-7, which are not official acts. With the exception of the Reingold

84a
Appendix C
health matters. He provides guidance and direction across
the Department. Davis Decl., ¶¶ 2-3.
From November 1 to November 22, 2020, the County’s
seven-day average of new daily cases more than doubled
from 1,216 per day to 3,099 per day. Davis Decl., ¶7.
Between November 13 and November 27, 20202, the
number of hospitalized COVID patients increased by
101%. Id. As of December 3, 2020, there are 2,572 COVID
patients hospitalized, 23% of whom are in the ICU. Id.
On November 23, 2020, the County reported its
then-highest number of cases for a single day at 6,124.
Davis Decl., ¶8. That record was broken on December 1,
2020 and again on December 3, 2020, when the County
reported 7,854 new cases. Id. The average daily cases have
declaration (Exhibit 16), none of the other declarations (Exhibits
11-15) were made under penalty of perjury of the laws of California.
While otherwise subject to judicial notice under Evid. Code section
452(d), they are inadmissible and therefore not relevant. The
requests for Exhibits 11-15 are denied.
In an unauthorized sur-reply, the County asks the court
to judicially notice a California Department of Public Health
press release dated December 5, 2020 announcing the latest
ICU capacity by region (Ex. 19), a Department press release
dated December 5, 2020 stating that Southern California Region
ICU capacity has fallen below 15% (Ex. 20), the Department’s
revised Restaurant Closure Order intended to conform with
the Governor’s Regional Order, effective December 6, 2020 and
continuing for at least 21 days (Ex. 21), and a Department press
release dated December 6, 2020 and stating that the County has
surpassed 10,000 new cases for the first time (Ex. 22). Although
unauthorized, the exhibits present the latest information available
and are judicially noticed. Evid. Code §452(c).

85a
Appendix C
increased by 225% since early November. Id. The County
has also seen a jump in the daily death rate, which has
increased by 92% since November 9, 2020. Id.
The majority of COVID hospitalized patients have
been adults between the ages of 18 and 64. Davis Decl., ¶9.
This is consistent with the high numbers of infections the
County has seen in younger and middle-aged adults. Id.
These numbers are consistent with the theory advanced
by many experts that increased infections among young
adults are driving the ongoing surge. Davis Decl., ¶10.
This is believed to be due to young adults engaging in
risky behaviors, including socializing with people outside
of their household. Id. Although members of this younger
and healthier cohort are less likely to die, they may still
transmit and have transmitted the virus to older or other
individuals at high risk for severe COVID illness. Davis
Decl., ¶12.
The Department regrets that the preventative
measures required to slow the spread of the ongoing
pandemic have had an emotional and economic impact
on businesses, families, and individuals and, at the same
time, must implement measures to fulfill its day-today statutory responsibility for communicable disease
control, based on appropriate preventive measures for the
communicable disease hazards in the community. Davis
Decl., ¶14.
Because COVID spreads between persons in close
contact via droplets and, under special circumstances,
via airborne transmission produced through speaking,
shouting/singing, breathing, coughing or sneezing, Davis

86a
Appendix C
issues orders that require persons and businesses to
modify their behaviors so that human interactions can
occur with less risk of transmission. Davis Decl., ¶15.
The County’s restriction on outdoor dining is necessary
because dining with others creates a circumstance where
non-household members are gathering in close proximity
without COVID infection control protections and typically
for more than 15 minutes. Davis Decl., ¶18. Close proximity
for more than 15 minutes are two of the three criteria for
the definition of a close contact; the third is this occurring
with a person who is knowingly or unknowingly infected
with the COVID virus. Id.
The County recognizes that it has asked its businesses
and more than ten million residents to make significant
adjustments to fight this pandemic. Davis Decl., ¶19.
Yet, in the considered opinions of the Department and
its top communicable disease experts, these temporary
adjustments and modifications are necessary to combat
the ongoing surge in COVID cases and hospitalizations,
and the resulting strain on the County’s healthcare
system. Id.
The rate at which a pathogen spreads in a community
is determined by its reproductive number, sometimes
referred to as the “R number” or simply “R.” Davis
Decl., ¶20. R describes the number of new cases directly
generated by one case in a population— the number of
other people a single infected person is expected to infect.
Id. When R is below 1.0, the number of cases diminishes
over time, and community spread eventually ends. Id.

87a
Appendix C
When R is greater than 1.0, community spread increases
over time. Id. That increase is exponential, not linear. Id.
Most public health experts believe that employing
health measures such as distancing, gathering restrictions,
and masking is scientifically, morally, and ethically
justified and necessary. Davis Decl., ¶25. A minority of
the scientific community has advocated for a more handsoff approach to the pandemic, in which the government
does not employ measures such as physical distancing
or limits on gatherings, and instead would let the virus
spread unimpeded among the general population while
(purportedly) protecting the most vulnerable. Id. This
approach—allowing the virus to proliferate among
healthy individuals so that herd immunity is achieved
through “natural infection”—has been advanced by
Plaintiffs’ expert Bhattacharya. Id. Bhattacharya’s
opinion is a minority opinion in the scientific community.
The Department strongly disagrees with the handsoff approach advocated by Bhattacharya in the Great
Barrington Declaration and believes it to be contrary
to accepted public health practice, public health ethical
standards, and the public interest. Id.
A herd immunity approach similar to the one
Bhattacharya advances was initially employed in Sweden
with disastrous results. Sweden experienced a much
higher rate of severe illness and death than neighboring
countries, as well as a worse economic downturn and
higher level of unemployment. Davis Decl., ¶27.

88a
Appendix C
Most public health experts believe the hands-off
approach would result in many more deaths and much
more severe illness than would the approach followed by
the County, the state, and most other jurisdictions. Davis
Decl., ¶29. Most public health professionals would view any
approach that would result in many preventable deaths to
be unethical and would conclude that the overall societal
costs of such an approach far outweigh any economic
or other benefits. Id. The County’s orders reflect these
principles and are consistent with public health best
practices. They provide for various sectors to reopen
based upon their risk factors, while other sectors and
activities are required to stay closed or reopen at reduced
capacities. Davis Decl., ¶30.
Increased community spread leads to increasing
numbers of infections, hospitalizations, and deaths. Davis
Decl., ¶35. Community spread can be reduced by limiting
activities that present a higher risk of exposure. Id. It is
now well-established that gatherings of individuals from
different households of any size presents a greater risk
of COVID transmission, which increases with the size of
the gathering. Id.
The purpose of the suspension of restaurant dining is
to address the County’s current emergency. Davis Decl.,
¶31. Based on the data, the Department determined that
the risks and harms of uncontrolled community spread,
strain on the health care system, and excess preventable
deaths outweighed the social and economic harm of a
temporary suspension on in-person restaurant dining. Id.

89a
Appendix C
Gunzenhauser, the Department’s Communicable
Disease Bureau director, identified a number of studies
showing the role of masks in limiting the spread of
COVID, and that situations where unmasked individuals
from different households spend extended periods in
close proximity to one another present a higher risk of
transmission than settings where one or more of these
factors is absent. Davis Decl., ¶33. See Gunzenhauser
Decl. ¶¶ 51-52. Residents are instructed to wear masks
even when outdoors because it is undisputed that COVID
transmission can occur and has occurred in outdoor
settings. Davis Decl., ¶34. While the risk of transmission
is lower outdoors, it is still present. Id. This is why face
coverings are recommended whenever individuals from
different households are in proximity to one another,
regardless of whether it is indoors or outdoors. Id.
A study on the effectiveness of physical distancing
in controlling the spread of COVID shows that, in
outdoor, well-ventilated spaces, such as an open patio at
a restaurant, where unmasked persons have prolonged
contact, present a moderate risk of transmission. Davis
Decl., ¶37. Being outdoors reduces risk but does not
eliminate it. Id. The risk of transmission outdoors is even
more elevated at a restaurant where people are sitting
close to each other for a prolonged period, not wearing,
not distancing, eating and drinking and projecting their
voices (and respiratory and aerosol droplets) toward each
other. Id.
The benefits of being outdoors are reduced when a
space is partially enclosed, such as is often the case on a

90a
Appendix C
restaurant patio. Davis Decl., ¶38. Even partial enclosures
affect airflow and the extent to which virus-containing
respiratory droplets and aerosols can accumulate. Id. The
benefits of being outdoors are further diminished when
people from different households gather for prolonged
periods without wearing masks. Davis Decl., ¶39. The
Department consulted with members of the County’s
restaurant industry in an attempt to avoid an outdoor
dining closure. Id. The Department proposed that
restaurants take steps to ensure that all persons seated at
a table were from the same household. Id. The Department
was informed that restaurants had no way of verifying
that information for their diners. Id.
A September 2020 CDC report found that adults
testing positive for COVID were twice as likely to have
reported dining at a restaurant within the past two weeks
than those who tested negative. Davis Decl., ¶42. See
Gunzenhauser Decl., ¶50. The fact that the study did not
distinguish between indoor and outdoor dining does not
undermine its usefulness and validity in determining the
County’s responses to the recent surge in COVID cases.
Davis Decl., ¶42. The study looked at dining in any area
designated by the restaurant, including indoor, patio, and
outdoor seating. Id.
Studies show that asymptomatic cases can have higher
viral loads and be more infectious than asymptomatic cases.
Davis Decl., ¶43. Asymptomatic and pre-symptomatic
spread of COVID are believed to be significant drivers of
community spread, which was not understood earlier in
the pandemic. Davis Decl., ¶44. “Viral load” refers to the

91a
Appendix C
quantity of virus in a given volume of fluid, such as saliva. A
person with a high viral load expels more virus, exposing
others to a higher dose of virus. Id. While intuitively one
would expect an asymptomatic person to carry a lower viral
load, and thus be less infectious, there is data suggesting
that is not the case with COVID. Id. A study published on
November 24, 2020 found that asymptomatic patients had
a higher viral load than symptomatic ones, and that those
who were severely ill had lower viral loads. Davis Decl.,
¶45. Other studies have found little to no difference in the
viral loads of asymptomatic and symptomatic patients. Id.
This suggests that asymptomatic individuals as a category
are at least as infectious as those with symptoms. Id.
The County has not conducted a clinical study on
how outdoor dining affects the transmission rates of
COVID. Davis Decl., ¶48. The County has limited time and
resources to conduct clinical studies during a pandemic
when it must act swiftly and proactively to halt the spread
of the disease. Id. Clinical studies provide minimal value in
deciding how to respond to an emergency like the COVID
pandemic. Davis Decl., ¶49. Clinical studies have a higher
evidentiary standard and take longer to complete whereas
field investigations are intended to identify those factors
and behaviors that impose a higher risk of transmission,
so that those factors can be quickly addressed. Id.
Davis made the decision to issue the Restaurant
Closure Order based on the evidence that COVID spreads
most easily when individuals from different households are
in close proximity to one another for prolonged periods of
time, without wearing masks. Davis Decl., ¶51. Restaurant
dining was the only remaining setting where this was

92a
Appendix C
largely still permitted, and while dining outdoors is less
risky than dining indoors, the nature of dining together
at a restaurant still presents a substantial risk of viral
transmission. Id.
Based on the current projections and reported data,
COVID is projected to be one of the leading causes
of death in the County in 2020. Davis Decl., ¶53. For
the period between March 15 and November 14, 2020,
there were 339,000 excess COVID deaths in the United
States—18% above normal. Davis Decl., ¶54. COVID is
currently the third leading cause of death in the United
States, behind heart disease and cancer. Davis Decl., ¶55.
As of December 3, 2020, the County had recorded 7,782
COVID deaths. Davis Decl., ¶56.
Beyond hospitalizations and mortality rates, emerging
evidence suggests that some number of patients who
recover from active COVID infection experience longterm effects. Davis Decl., ¶57. The full extent of the longterm health consequences after recovering from COVID
is not yet known, but the evidence available is concerning.
Id. Scans and tests of some people who recovered from
COVID have shown damage to heart muscle and scarring
in the lungs, which is believed to be the result of COVIDrelated blood clotting. Davis Decl., ¶58.
The Department hoped the County would not reach
a 4,000 case per day average after the initial outbreak
of the pandemic in March 2020. Davis Decl., ¶64.
Hospitalizations trail new cases by two to three weeks,
meaning that when cases go up, hospitalizations will

93a
Appendix C
increase a few weeks after that. Davis Decl., ¶65. While
most people who contract the virus will not need to be
hospitalized, the larger the number of infected people,
the larger the number of people who will need hospital
treatment. Id.
If the state’s Regional Stay Home Order takes effect
in the Southern California Region, this would mean
that all restaurants in the County must be closed for inperson dining pursuant to state law, but could continue
to service their customers through take-out, pick-up, or
delivery. Davis Decl., ¶71. Based upon the current data
being reported by the hospitals, counties, and California
Department of Public Health, it is projected that the
Southern California Region, of which the County is part,
will cross this threshold within the next few days because
ICU availability in the Southern California Region will
be less than 15%. Davis Decl., ¶69.
b.

Gausche-Hill

Marianne Gausche-Hill (“Hill”) is the Medical
Director for the County Department of Emergency
Medical Services (“EMS”) Agency and has served in that
capacity since July 1, 2015. Hill Decl., ¶¶ 1, 5. The EMS
Agency serves as the lead agency for emergency medical
services system in the County and is responsible for
coordinating all hospitals with emergency rooms in the
County, both public and private. Hill Decl., ¶6.
There has been a recent surge in COVID cases
and hospitalizations in the County. Hill Decl., ¶9. From

94a
Appendix C
November 1 to November 22, 2020, the County’s seven-day
average of new daily cases more than doubled from 1,216
per day to 3,099 per day. Hill Decl., ¶10. On November 23,
2020, the County reported 6,124 new cases for that day
alone, which was the most since the onset of the pandemic at
that time. Hill Decl., ¶11. About a week later, on December
1, 2020, the County reported a record-breaking 7,593
new cases. Id. That same day, 46 deaths were reported,
up from the average of 30 deaths per day the prior week.
Id. Hospitalizations have also seen a marked increase in
the last month. Hill Decl., ¶12. Between November 13 and
November 27, 2020, hospitalizations of confirmed COVID
patients increased by 101%. Id.
On average, there are approximately 14,000 licensed
non-intensive care unit (“non-ICU”) beds and 2,500
licensed intensive care unit (“ICU”) beds available in the
County at 70 designated 911-receiving hospitals. Hill Decl.,
¶13. The number of beds can fluctuate from day-to-day
depending on staff availability and other factors, including
a mix of COVID and non-COVID patients and the need
for cohorting (collecting in one place) COVID patients. Id.
Non-COVID patients occupy between 9,500 and
11,000 non-ICU beds on average, and between 1,000 and
1,500 ICU beds on average. Hill Decl., ¶14. The County
tracks daily the number of COVID patients who are
hospitalized. Hill Decl., ¶15. When the County started to
reopen in the summer, there was a surge of COVID cases
and hospitalizations. Hill Decl., ¶16. During the months
of June and July, COVID positive patients and patients
under investigation (“PUIs”) occupied as much as 15% of

95a
Appendix C
the County’s non-ICU capacity and as much as 30% of the
County’s ICU capacity. Id.
The hospitalization rate began to decrease in August
2020 after the County re-implemented certain public health
restrictions and the number of COVID hospitalizations
decreased significantly. Hill Decl., ¶17. Between August
and October 2020, COVID patients and PUIs occupied as
low as 6% of the County’s non-ICU capacity and as low as
14% of the County’s ICU capacity. Id.
Beginning in November 2020, the number of COVID
cases and hospitalizations began to surge again. Hill Decl.,
¶18. The percentage of non-ICU and ICU beds occupied
by COVID patients has increased every week:
Percentage of Non-ICU Beds Occupied by COVID
Patients
November 1-7: 6%
November 8-14: 7%
November 15-21: 9%
November 22-28: 12%
Percentage of ICU Beds Occupied by COVID
Patients
November 1-7: 15%
November 8-14: 16%
November 15-21: 19%
November 22-28: 24%
(Hill Decl., ¶18).

96a
Appendix C
On November 1, 2020, approximately 960 COVID
patients were hospitalized in ICU and non-ICU beds. Hill
Decl., ¶19. On November 28, 2020, approximately 2,000
COVID patients were hospitalized in ICU and non-ICU
beds. Hill Decl., ¶20.
These numbers have continued to rise in the beginning
of December. Hill Decl., ¶21. On December 1, 2020,
2,690 COVID patients were hospitalized as follows: 573
COVID positive patients and 42 PUIs occupied ICU beds,
a total of 615. Id. That means approximately 25% of the
County’s ICU beds were occupied by COVID patients. Id.
Additionally, 1,858 COVID positive patients and 217 PUIs
occupied non-ICU beds, a total of 2,075. Id. That means
approximately 15% of the County’s non-ICU beds were
occupied by COVID patients. Id.
The number of COVID patients hospitalized in the
County has nearly tripled. Hill Decl., ¶22. The strain on
the healthcare system caused by COVID hospitalization
is particularly concerning for ICU beds. ICU beds are
generally reserved for the sickest of patients (acutely
ill patients) and are staffed by specially trained medical
professionals. Hill Decl., ¶23. As a result of the recent
surge, the number of available ICU beds in the County
has significantly decreased. In mid-October, there were
149 available ICU beds. Hill Decl., ¶24. The County’s ICU
bed availability in the month of November has decreased
to less than 5% of total capacity, with 4.44% available from
November 22-28. Hill Decl., ¶25.

97a
Appendix C
The numbers and the trajectory show a fast-moving
and substantial upward trend of COVID hospitalizations.
Hill Decl., ¶26. In one week, the number of COVID
hospitalizations has increased by greater than 40%.
Id. The surge in hospitalizations will further stress the
County’s healthcare system, which can manifest itself
in many ways. Hill Decl., ¶28. Hospitals will have to
change what they do day-to-day to meet the needs of their
patients. Id. For example, an emergency room may have
to be re-purposed to treat ICU patients, which will impact
the number of day-to-day medical emergencies that can be
treated. Id. The healthcare workforce will also be taxed
heavily because staffing and related costs will significantly
increase. Id. Medical workers also have to comply with
very restrictive precautions, such as the use of personal
protective equipment, to treat COVID patients. Id.
The County’s projections concerning the demand for
non-ICU hospital beds shows that demand could exceed
the County’s available beds before the end of the year and
within a couple of weeks. Hill Decl., ¶¶ 31-32. Typically,
when a shortage occurs, the availability of ICU beds
diminishes first because there are fewer alternatives
where ICU-patients can be treated effectively. Hill Decl.,
¶33.
On December 3, 2020, the state announced its Regional
Stay at Home Order (“Regional Order”). Hill Decl., ¶34.
For the purposes of the Regional Order, the Southern
California Region includes Imperial, Inyo, Los Angeles,
Mono, Orange, Riverside, San Bernardino, San Diego,
San Luis Obispo, Santa Barbara, and Ventura counties.

98a
Appendix C
Hill Decl., ¶35. The Southern California Region was at
82% ICU capacity as of December 3, 2020, meaning 18%
ICU availability. Hill Decl., ¶36. If the surge continues
unchanged, it is projected that the Southern California
Region, of which the County is a part, will cross this
threshold and have less than 15% ICU availability by the
end of this week. Id.
c.

Reingold10

Arthur I. Reingold (“Reingold”) is the Division Head
of Epidemiology and Biostatistics at the University of
California, Berkeley, School of Public Health and has
previously worked at the CDC on the prevention and
control of infectious diseases. Reingold Decl., ¶1.
The rise in cases nationwide is not just a reflection of
increased testing. Reingold Decl., ¶9. If the rate of COVID
were stable or decreasing, increased testing would produce
a lower proportion of tests being positive, as presumably a
larger and more representative selection of the population
(not only those with symptoms or known exposure) would
be included. Id. Since the case rate and the proportion of
tests positive rate have increased simultaneously, data
suggest that the increase in confirmed cases indicates a
true rise in cases. Id.
COVID can be spread when an infected person talks,
breaths, coughs, sneezes, and the like, expelling droplets
10. The Reingold declaration is Exhibit 16 to the County’s
request for judicial notice in support of its opposition to the OSC.

99a
Appendix C
that can transmit the virus to others in their proximity.
Reingold Decl., ¶18. Because of this, COVID can spread
rapidly in crowded conditions, particularly indoors. Id. It
is generally believed that such droplets can infect people
who are within six feet of an infected person, and on this
basis, it is recommended that people maintain at least six
feet of distance from each other. Id.
There is now very strong evidence that the virus
can also be aerosolized, such that microscopic droplets
containing the virus are expelled into the air by
breathing, talking, singing, sneezing, and coughing; they
remain in the air; and they can be inhaled by others who
subsequently come into contact with the air. Reingold
Decl., ¶19. Multiple studies have shown that COVID may
remain airborne for extended periods. Id. One study
found that COVID remained viable in aerosols for the
entire three-hour experiment. Id. Another analysis led
by researchers at Tulane University concluded that
“preliminary data suggest that COVID is resilient in
aerosol form,” and that respirable-sized aerosols could
retain infectivity for up to 16 hours. Id.
This research is consistent with studies showing
that sharing indoor space increases the risk of infection.
Reingold Decl., ¶20. When indoors, it is more likely that
one will inhale respiratory droplets and aerosols from an
infected person. Id. When outdoors, more frequent air
movement disperses and dilutes respiratory droplets and
aerosols making transmission less likely. Id. The CDC
currently advises that activities are safer when held in
outdoor spaces. Id.

100a
Appendix C
Some individuals who are infected with COVID but
do not develop symptoms are nonetheless infectious and
can transmit the virus to others. Reingold Decl., ¶23.
Those who do develop symptoms may be infectious up to
48 hours before the onset of symptoms. Id. This means
that isolating only persons known to be ill with COVID
or with symptoms of COVID will not stop the spread of
COVID infection. Id.
It is currently unknown if those who have had
COVID develop protective immunity from reinfection.
Reingold Decl., ¶24. Only those who have been infected
and recovered are possibly immune; there is no known
population with pre-existing immunity to the virus. Id.
Anyone who has not yet been infected with COVID is
likely susceptible to infection. Id. For those who have
been infected, it is unknown if any protective immunity is
permanent, will exist for only a limited time, and whether
reinfection is possible. Id. Research has found that the
level of antibodies in those recovering from the virus
appears to decline within a few months of infection, which
may indicate a limited period of protective immunity. Id.
Epidemics and pandemics occur when the number of
infections grows exponentially. Reingold Decl., ¶33. When
describing exponential growth rates, epidemiologists
often refer to the doubling period of a disease, which is
the amount of time required for the number of infections
to double. Id. The shorter the doubling time, the greater
the growth rate of the epidemic/pandemic. If exponential
growth rates are not moderated, the number of infections
and resultant illnesses can quickly overwhelm a given

101a
Appendix C
health system. Id. For this reason, public health officials
often prioritize efforts to reduce the growth rate of
infections, including lengthening the doubling time. Id.
Reducing the growth rate of infections and resultant
disease is achieved through both official policies and
changes to individual social behavior. Id.
Easing or ending restrictions on the community
spread of the COVID virus would lead to an increase in
cases and risk exponential growth in the spread of the
virus. Reingold Decl., ¶34. This would increase serious
and potentially long-term illness and death caused by
the disease. Id. It would also risk overburdening the
healthcare system, particularly in areas where critical
care facilities and beds are limited. Id.
It is true that development of herd immunity is another
means through which dissemination of certain viruses in a
population can cease. Reingold Decl., ¶35. Herd immunity
occurs when a high percentage of the population becomes
immune to an infectious agent such that the spread is
dramatically slowed as infected persons become deadends
for the infectious agent. Id. Approximately 40-95% of
a population must be immune in order to achieve herd
immunity, depending on the infectiousness of the agent. Id.
There are significant risks to pursuing a herd
immunity approach without a vaccine, which is why the
vast majority of epidemiologists and infectious disease
experts reject the approach for COVID. Reingold Decl.,
¶36. There is the risk that it would not work, as it has not
been confirmed that those who have had the virus develop
protective immunity. Id. Even if it does work, because

102a
Appendix C
herd immunity may take a year or more to develop in
the population, it is unlikely to prevent the spread of the
virus in the near future. Id. The approach would result
in very significant increases in illnesses, hospitalizations,
and deaths for a disease that has already killed almost
250,000 over ten months—despite a concerted public
health response to minimize those deaths. Id.
4.

Reply Evidence

Davis misinterprets the CDC study in claiming that
it has relevance to outdoor dining. Weiler Reply Decl., ¶6.
The CDC study did not ask what risks come with outdoor
dining compared to indoor dining. Id. Nor did it parse
out the relative contribution of outdoor and indoor dining
to the overall risk of transmission. Weiler Reply Decl.,
¶¶ 7-8. Contrary to Davis’ statement, it cannot possibly
be used to support a finding that outdoor dining is less or
more risky than indoor dining, or whether outdoor dining
poses a risk at all. Id.
Davis’s use of data related to the “number of cases”
and the “number of deaths” is insufficient to show that
outdoor dining presents any significant risk for increased
COVID transmission. Weiler Reply Decl., ¶9. Population
sizes change over time and increased testing or changes
in testing protocols could lead to an artificially higher
absolute number of positive tests. Id. In addition, the
numbers reported in Davis’s declaration do not address the
demonstrable false positive rate in the test results. Weiler
Reply Decl., ¶10. Unless we know the false positive rate
of RT-PCR testing in the County, we cannot know what

103a
Appendix C
percentage of “laboratory confirmed” and “asymptomatic”
cases are actually false positives. Id. Because Davis’ data
does not account for false positives and because the CDC
shifted in April to count all positive test results showing
the presence of virus as COVID, some of the counted cases
will be other infections with similar symptoms, including
viral pneumonia, bacterial pneumonia, or pneumonia from
other coronaviruses. Weiler Reply Decl., ¶11.
Crucially, Davis provides no estimates for expected
new cases from outdoor dining. In other words, his data
does not answer the single most important question
whether any future spread may be attributed to outdoor
dining rather than other activities. Weiler Reply Decl.,
¶13.
Hill’s presentation of statistics as to the amount of
beds occupied by COVID patients in both ICU and nonICU settings does not provide relevant statistical context.
Weiler Reply Decl., ¶14. There is seasonal variation in
hospitalizations, and other diseases have similar symptom
profiles to COVID, these figures are not meaningful
without a comparison to hospitalizations in prior years,
expressed per capita and per available bed. Id.
Hill does not provide any data on the key factor
relevant to percentages and numbers of ICU beds being
utilized. Weiler Reply Decl., ¶15. As both the total
population size and the number of hospital beds both
change over time, the relevant data set needs to address
the number of hospital beds per capita. Id.

104a
Appendix C
Hill’s projection model fails to consider several key
parameters, including changes in population size, the
impact of changes in the number of tests applied and
changes in testing protocols on the number of cases,
increased immunity due to past exposure within the
relevant population, and improvements over time in the
medical care and treatment of COVID. Weiler Reply
Decl., ¶17.
5. 	The Governor’s December 3, 2020 Regional
Order
The Governor issued the Regional Order on December
3, 2020. County Opp. to OSC, RJN Ex. 9. The Governor’s
Regional Order takes effect on December 5, 2020 and is
triggered for the Southern California Region if its ICU
capacity falls below 15%. The Governor’s reasoning is that
“we are at a tipping point” and “we need to take decisive
action now to prevent California’s hospital system from
being overwhelmed in the coming weeks.” The Governor
acknowledged the burden the Regional Order will place
on small businesses that are struggling and is helping
those businesses with grants and tax relief to get through
the month.
The Regional Order is effective for three weeks after
the trigger and affects numerous activities and businesses.
In pertinent part, the Regional Order prohibits restaurant
dining, indoor or outdoor, permitting only take-out or pickup. The Regional Order ends if a region’s ICU capacity
projection for four weeks (three weeks after the order) is
above or equal to 15%. Conversely, the Regional Order

105a
Appendix C
continues if the ICU projection for that period is less than
15%. The assessment will occur on a weekly basis.
D. Analysis
Petitioners CRA and MEC seek a preliminary
injunction enjoining the County and the Department from
enforcing the Restaurant Closure Order on the ground
that it is an improper use of emergency powers. The
County and Department oppose.
1.

Standard of Review

The notion that a municipality’s health officer has broad
authority is well-established and long-standing. Jacobson
v. Commonwealth of Massachusetts, (“Jacobson”) (1905)
197 U.S. 11, 25. “[A] community has a right to protect itself
against an epidemic of disease which threatens the safety
of its members.” Id. at 27. According to settled principles,
the police power of a state must be held to embrace, at
least, such reasonable regulations established directly by
legislative enactment as will protect the public health and
public safety. Ibid.
The health officer’s authority is not unbridled. Courts
have the duty to evaluate an exercise of that authority
to ensure actions taken have a “real and substantial
relationship” to public health and safety:
“[I]f a statute purporting to have been enacted
to protect the public health, the public morals,
or the public safety, has no real or substantial

106a
Appendix C
relation to those objects, or is, beyond all
question, a plain, palpable invasion of rights
secured by the fundamental law, it is the duty of
the courts to so adjudge, and thereby give effect
to the Constitution.” Id. at 31 (emphasis added).
In addition, the health officer cannot engage in
a “plain, palpable invasion of rights” secured by the
Constitution or act arbitrarily or oppress. Id. at 31, 38.
See also Jew Ho v. Williamson, (C.D. Cal. 1900) 103 F. 10
(whether the regulation in question is a reasonable one and
directed to accomplish the apparent purpose is a question
for the court to determine); Cross Culture Christian Ctr.
v. Newsom, (E.D. Cal. 2020) 445 F. Supp. 3d 758, 766; Six
v. Newsom, (C.D. Cal. 2020) 462 F. Supp. 3d 1060, 1068
(upholding physical distancing measures to slow down
spreading of the virus).
As Justice Gorsuch recently explained, the Jacobson
test is equivalent to rational basis review. See Roman
Catholic Diocese, supra, 2020 WL 6948354 at *4 (Gorsuch,
J. concurring). In the same case, the high court reaffirmed
that because the “Constitution ‘principally entrusts the
safety and the health of the people to the politically
accountable officials of the States’[,]…courts therefore
must afford substantial deference to state and local
authorities about how best to balance competing policy
considerations during the pandemic. Id. at *8 (Kavanaugh,
J. concurring).
Petitioners CRA and MEC both initially agree that
their challenge to the Restaurant Closure Order, which is
the exercise of the Department’s authority in a legislative

107a
Appendix C
capacity, is a substantive due process claim subject to a
rational basis standard of review.11 CRA App. at 14; MEC
App. at 13-14. In reply, MEC relies on County of Butler
v. Wolf, (W.D. Pa. Sept. 14, 2020) 2020 WL 5510690 at *9,
to argue that the deferential Jacobson standard no longer
applies nine months into the pandemic. MEC Reply at 7.
For purposes of equal protection claims, the rational
basis test does not allow a party to probe the decisionmaking processes of the government because the
Constitution “does not demand for purposes of rationalbasis review that a legislature or governing decisionmaker
actually articulate at any time the purpose or rationale
supporting its classification.” Nordlinger v. Hahn, (1992)
505 U.S. 1, 15; FCC v. Beach Communications, Inc., (1993)
508 U.S. 307, 315. When a court applies rational basis
review, “a legislative choice is not subject to courtroom
factfinding and may be based on rational speculation
unsupported by evidence or empirical data.” Warden v.
State Bar, (1999) 21 Cal.4th 628, 650. While the rational
basis test is forgiving, the government action must still
bear at least a rational relationship to some legitimate
end. Romer v. Evans, 517 U.S. 620, 631(1996). Rational
basis review is a forgiving standard for government acts,
but it “is not a toothless one ....” Mathews v. Lucas, (1976)
427 U.S. 495, 510.
11. MEC also argues that the Restaurant Closure Order
violates the California Constitution by interfering with its
constitutional right to operate its business and is subject to strict
scrutiny review. MEC Op. Br. at 6. As the County correctly notes
(MEC Opp. at 12), neither the state nor the federal Constitution
guarantees the unrestricted privilege of conducting business as
one pleases. Ex parte Maki, (1943) 56 Cal.App.2d 635, 641.

108a
Appendix C
The Due Process Clause of the Fourteenth Amendment
includes a substantive component that bars arbitrary,
wrongful, government action “regardless of the fairness
of the procedures used to implement them.” Zinermon v.
Burch, (1990) 494 U.S. 113, 125. The “core of the concept” of
substantive due process is the protection against arbitrary
government action. Hurtado v. California, (1884) 110 U.S.
516, 527 (1884). Indeed, “the touchstone of due process
is protection of the individual against arbitrary actions
of government ....” Id. When executive branch agencies
act in a legislative capacity, courts evaluate whether the
challenged agency action has been “arbitrary, capricious,
or entirely lacking in evidentiary support.” Davies v.
Contractors’ State License Bd., (1978) 79 Cal. App. 3d 940,
946. While courts do not weigh evidence when applying
this test, they must ensure that the agency has adequately
considered all relevant factors and has demonstrated a
rational connection between those factors and the choice
made. Carrancho v. California Air Resources Board,
(“Carrancho”) (2003) 111 Cal. App. 4th 1255, 1265.
“[A]ctions which are irrational, arbitrary or capricious
do not bear a rational relationship to any end.” Wolf, supra,
2020 WL 5510690 at *26. In Wolf, a federal district court
found constitutional violations in a governor’s COVID
emergency restrictions limiting the number of people
permitted to attend gatherings and determining which
businesses could remain open based on whether they
are “life-sustaining” in nature. Plaintiff’s challenge was
rooted in claims of equal protection, due process, and
First Amendment rights. The closures were temporary
but had no certain end date. With respect to the open

109a
Appendix C
ended uncertainty, the district court recognized the harm
to the that would result to businesses: “A total shutdown
of a business with no end-date and with the specter of
additional, future shutdowns can cause critical damage
to a business’s ability to survive, to an employee’s ability
to support him/herself, and adds a government-induced
cloud of uncertainty to the usual unpredictability of nature
and life.” Id. at *26.12
2.

Probability of Success
a.

Petitioners’ Position
(i). Petitioners’ Evidence

Petitioners’ evidence may be summarized as follows.
The CDC’s “Considerations for Restaurant and Bar
Operators,” updated November 18th, 2020, states
that outdoor dining may occur with relative safety at
restaurants if precautionary measures are observed,
including but not limited to, social distancing and mask
wearing by servers and by patrons (when not eating).
Bhattacharya Decl., ¶20. The CDC includes outdoor dining
12. Both CRA and MEC cite the recent United States Supreme
Court case of Roman Catholic Diocese, supra, 2020 WL at 6948354
(CRA Op. Br. at 9; MEC Op. Br. at 13), but that case concerned
the First Amendment rights of churches, synagogues, and their
members with respect to COVID restrictions for which the high
court applied a strict scrutiny standard of review. As such, it has
little bearing on this case except to highlight that the government
does not have unfettered discretion to restrict activities during a
pandemic.

110a
Appendix C
in the second lowest tier of risk, and notes that even this
risk can be mitigated by reasonable accommodations
such as spacing tables appropriately, encouraging mask
wearing by servers, frequent sanitizing of surfaces, and
other actions that are well within the capability of LA
County restaurants. Id.
The County’s Restaurant Closure Order has no
scientific justification for imposing stricter requirements
on these activities. The Department’s available data does
not contain any epidemiological or other model that shows
prohibiting outdoor dining on a countywide basis has any
relationship to avoiding circumstances that challenge the
healthcare delivery system’s ability to deal with a surge
with space, supplies, and staff. Bhattacharya Decl., ¶28.
The County has no basis to close outdoor dining because
the Department has provided no supporting evidence and/
or scientific studies, data, or evidence that the operating
of outdoor dining establishments poses an unreasonable
risk to public health. Allen Decl., ¶5.
The safety of outdoor dining has been well-established
by numerous studies, including the China Study and the
Japan Study. See Barke Decl. ¶¶ 7-10. The China Study
found that only one of the 318 identified outbreaks – two
infected persons – implicated an outdoor environment.
See id. ¶ 8. The Japan Study found that closed, not open,
environments contribute to the secondary transmission
of COVID and that the odds of transmission of COVID
in a closed environment was 18.7 times greater than
an open-air environment. See id., ¶ 9. An article from
the Mayo Clinic described a general medical consensus

111a
Appendix C
regarding “safe outdoor activities during the COVID-19
pandemic.” See id. ¶10. According to this article, “when the
weather is appropriate to be outside, patio dining can be
a good outdoor option. Outdoor patio dining at uncrowded
restaurants where patio tables are spaced appropriately
is safer than indoor dining.” Id. CRA Op. Br. at 18.
The Department’s own data provides no support
for a shutdown of outdoor restaurant operations. Allen
Decl., ¶6. The data tracks all non-residential settings at
which three or more laboratory-confirmed COVID cases
have been identified. Id. Of the 204 locations identified
on this list, fewer than 7% are restaurants. Id. Based on
the case data for October-November 2020, it is clear that
the County’s increased cases are not due to restaurants,
which only make up 3.10% of new infections during that
period. Allen Decl., ¶7.
Contrary to Davis’s statement that the CDC study
is the “best data” in support of the Restaurant Closure
Order, the CDC study is not specific to restaurants and
does not support a conclusion that outdoor dining should be
banned. Kaufman Decl., ¶¶ 16-17. The study showed that a
subset of COVID patients reported that they had recently
dined at restaurants more than the general population. Id.
The CDC study made no distinction between indoor and
outdoor dining, even though all available evidence on the
transmission of any airborne illness suggests that this is
a key factor. Kaufman Decl., ¶17.13
13. The CDC report also is not specific to restaurants, let
alone outdoor dining. See Kaufman Decl. ¶ 17; Ellis Decl., Ex. 20.
At a general level, that study showed that a subset of COVID
patients reported they had recently dined at restaurants more than

112a
Appendix C
As a result, County public officials have cited no
evidence that demonstrates that there is a measurable
risk of transmission of COVID in an outdoor dining
situation when the appropriate safety measures are
implemented. Kaufman Decl., ¶19. With the precautions
already implemented by most restaurants in the County
prior to the Restaurant Closure Order -- socially distanced
outdoor dining, masks, and temperature checks -- the
transmission of the virus from one person to another is
highly unlikely. Id.
The Department has provided no indication that it has
taken into account any of the economic, social, and public
health costs of restricting outdoor dining. Bhattacharya
Decl., ¶29. Basic standards of public health policy design
require a comparison of both costs and benefits of a policy
to justify it from a scientific and ethical point of view. Id.
A scientifically justified policy must explicitly account for
these costs – including an explicitly articulated economic
analysis – in setting, imposing and removing criteria for
business restrictions such as the blanket prohibition on
outdoor dining. Id.
The risks of COVID transmission should be considered
against the substantial evidence that social eating provides
the general population. Kaufman Decl. ¶ 17. The CDC report also
was limited to adults in eleven participating healthcare facilities
and did not take into specific factors about the County, such as its
climate, that might make it safer than other places for outdoor
dining. For example, outdoor areas in Los Angeles may not need
to be enclosed in the same way as a restaurant patio in Boston. Id.
CRA Op. Br. at 15-16.

113a
Appendix C
significant and tangible psychological and physiological
benefits for diners that are lost through the imposition
of such scientifically and epidemiologically unjustified
blanket and untargeted bans. Bhattacharya Decl., ¶45.
A comprehensive survey of 17,612 men and 19,581 women
over age 65 found that eating alone has been linked to a
higher incidence of depression among adults, particularly
those who live alone. Id. Eliminating the possibility of all
outdoor dining reduces or eliminates these important
benefits. Id.
There is no rational and legitimate scientific or public
health basis supporting the ban on outdoor dining in
restaurants (Kaufman Decl., ¶21) and the Restaurant
Closure Order is inconsistent with the CDC’s guidance.
Bhattacharya Decl., ¶20. Restaurants in the County
can safely permit outdoor dining by following the CDC
guidelines. Bhattacharya Decl., ¶20. The likelihood
of symptomatic and pre-symptomatic transmission,
reproduction rates, signs, symptoms, mortality, risks and
other infectious disease characteristics of COVID in both
child and adult populations do not rationally support the
Restaurant Closure Order. Kaufman Decl., ¶22.
(ii). 	Petitioners’ Argument
From this evidence, Petitioner CRA argues that
restaurants across the County are on the verge of total
economic collapse, with 89.6% of surveyed restauranteurs
are at risk of closure. The outdoor dining ban is not
the result of any rational thought process about how to
mitigate the spread of COVID, but rather is a politically-

114a
Appendix C
motivated decision to create merely the appearance of
action. CRA Op. Br. at 8. The County has no data showing
that outdoor dining is a significant risk for spreading
COVID. CRA Op. Br. at 9.
The Restaurant Closure Order irrationally singles out
the restaurant industry and its hundreds of thousands of
workers. The County’s explanation for the decision is the
rise in positive COVID test results, even though a positive
test does not show that the person actually is ill; a positive
test includes persons who are asymptomatic as well as
false positives. Nor does the order consider the number of
deaths in the County. The County did not bother to assess
evidence particular to outdoor dining or even consider
the relative risks and benefits of such a sweeping order.
Kaufman Decl. ¶¶ 15-19. CRA Op. Br. at 14-15.
Allowing restaurants to operate with outdoor dining
has not produced significant coronavirus cases to date. The
County’s own data shows that restaurants are responsible
for only 3.10% of new coronavirus infections, paling in
comparison to sectors which have not been shut down
like groceries, manufacturing, automotive, construction,
aviation, and more. See Kaufman Decl. ¶ 19; Allen Decl.,
¶¶ 6-9. Simply put, there is no scientific evidence that
there is a significant risk of transmission of COVID in
an outdoor dining situation when the appropriate safety
measures are implemented. See Kaufman Decl. ¶¶ 2131; Barke Decl. ¶ 7; Bhattacharya Decl. ¶¶ 18-29. In a
recent interview, Health Director Ferrer, who is not a
medical doctor, presented the County’s rationale for the
Restaurant Closure Order: “I think one of the sad realities

115a
Appendix C
is that we’ve never seen a rate of increase as high as we’ve
just seen. We know places where people are eating are
places where transmission is easiest, and most likely.”
See Ellis Decl. Ex. 14. These assertions are not based on
science or data showing restaurants as the cause of the
problem. CRA Op. Br. at 15.
The Restaurant Closure Order actually is likely
to exacerbate the spread of COVID. The Restaurant
Closure Order will drive residents indoors, to gather
with friends and family in their homes. See Bhattacharya
Decl. ¶¶ 22, 45-46; Kaufman Decl. ¶ 28; Allen Decl. ¶ 10.
Those indoor gatherings easily become super-spreader
events; the scientific and medical data clearly show
the danger of indoor gatherings. See, e.g., Barke Decl.
¶¶ 7-11; Kaufman Decl. ¶ 28. These are the exact kind of
unintended consequences that would have been avoided
had the County considered actual evidence prior to the
Restaurant Closure Order. CRA Op. Br. at 18-19.
In addition to the lack of scientific evidence, the
Department has provided no indication that it has
estimated or otherwise considered any of the economic,
social and public health costs of restricting outdoor
dining. Basic standards of public health policy require
a comparison of both costs and benefits of a policy to
justify it from a scientific and ethical point of view. See
Kaufman Decl. ¶¶ 21-22, 29-31; Bhattacharya Decl. ¶ 29.
A scientifically justified policy must explicitly account for
these costs – including an explicitly articulated economic
analysis – in setting, imposing, and removing criteria for
business restrictions such as the blanket prohibition on
outdoor dining. Id. CRA Op. Br. at 16.

116a
Appendix C
CRA argues that the Restaurant Closure Order is an
unmistakable example of the Politician’s Fallacy: “1. We
must do something. 2. This is something. 3. Therefore, we
must do this.” The actual scientific evidence—available
to Respondents but ignored by them—shows that
transmission of COVID in an outdoor dining scenario is
negligible. See Lyons-Weiler Decl. ¶¶ 20-34; Barke Decl.
¶¶ 7-11; Bhattacharya Decl. ¶¶ 36-44; Kaufman Decl.
¶¶ 19-31. If closing an entire industry without evidence of
any significant quantum of disease spread is not arbitrary,
what is? CRA Op. Br. at 16-17.
CRA concludes that the Restaurant Closure Order
infringes CRA’s fundamental rights under the Fifth and
Fourteenth Amendments to pursue common professions.
See Truax v. Raich, 239 U.S. 33, 41 (1915) (the Fourteenth
Amendment secures “[t]he right to work for a living
in the common occupations of the community”). “The
right to hold specific private employment and to follow a
chosen profession free from unreasonable governmental
interference comes w ithin both the ‘liberty’ and
the ‘property’ concepts of the Fifth and Fourteenth
Amendments.” Greene v. McElroy, (1959) 360 U.S. 474,
492 (citing cases). CRA Op. Br. at 19.14
14. CRA also makes a disparate treatment argument that the
County did not close (a) parks or picnic tables for private gatherings
and outdoor dining, (b) indoor nail and hair salons, tattoo parlors, and
barbershops, (c) indoor day camps—where attendees undoubtedly
eat meals, (d) indoor music, film, and television production, and
(e) outdoor fitness centers, even though patrons are undoubtedly
encouraged to drink beverages while exercising. See Restaurant
Closure Order, §§ 3(a)(ii), 9.5(a), (b), (c), (f), (h). CRA argues that

117a
Appendix C
MEC makes similar arguments concerning the
measurable scientific and statistical data showing that
outdoor dining with the correct precautionary measures
is safe and has no correlation with the spread of COVID.
Even under the most lenient standard of constitutional
review, no rational reason exists for singling out Plaintiff’s
business activities. There is no rational reason to continue
to ban MEC and the restaurant industry from providing
outdoor dining as they continue to follow the County’s
recommended precautionary measures while doing so.
MEC Op. Br. at 15-16. Not only will the ban not avert
the crisis, but it has already contributed to the crisis of
unemployment and severe economic damages and harm.
MEC Op. Br. at 16.
MEC cites Jew Ho v. Williamson, (“Jew Ho”) (C.C.
Cal. 1900) 103 F. 10 and Wong Wai v. Williamson,
(“Wong Wai”)(C.C. Cal. 1900) 103 F. 1, where the courts
found that public health officials could not quarantine
12 blocks of San Francisco Chinatown because of nine
deaths due to bubonic plague. The courts found that
there were more than 15,000 people lived in the twelve
blocks to be quarantined. The courts found it arbitrary
and unreasonable to shut down the ability of over 15,000
people to make a living because of nine deaths where the
complainant had never contracted the bubonic plague, had
these activities and locations are much more likely to spread COVID
than restaurants. See Kaufman Decl. ¶¶ 16-18, 30; Allen Decl.
¶¶ 6-9. CRA contends that, by singling out restaurants for disparate
treatment without a rational basis, the Restaurant Closure Order
violates CRA’s members’ equal protection rights under the
Fourteenth Amendment. CRA Op. Br. at 16-17.

118a
Appendix C
never been exposed to the danger of contracting it, and
had never been in any locality where the bubonic plague
existed. Id.15
MEC notes that California has a population of almost
40 million. As of November 29, 2020, California has
sustained a total of 19,121 COVID deaths. This means one
death for every 2,066 inhabitants. MEC concludes that, if
public health officers were denied the ability to stop the
people of Chinatown from operating their businesses for
one death for every 1,666 inhabitants, then the County
should not be allowed to deny restaurants the ability to
make a living when the death rate is even lower then it
was in Jew Ho and there is zero evidence that outdoor
dining has contributed to the spread of the virus. MEC
Op. Br. at 16.
According to the CDC, in the last seven days,
California is ranked 44th in the nation for per capita
COVID deaths. There are 43 other states with a higher
COVID death rate than California. This data undercuts
the need for the Department’s draconian measures
15. The County properly distinguishes Jew Ho as a case which
dealt with a discriminatory, arbitrary, and counterproductive
quarantine enacted in response to a seemingly illusory public
health threat. The quarantine’s failure to limit travel within
the quarantined district counterproductively increased the
risk of bubonic plague transmission and the quarantine also
impermissibly “discriminate[d] against the Chinese population
of this city, . . . in favor of the people of other races.” Id. at 21-23.
The County points out that the companion case, Wong Wai, supra,
103 F. at 1, is similar. Opp. to MEC Ex Parte at 18.

119a
Appendix C
targeting the restaurant industry. See Ex Parte Jentzsch,
(1896) 112 Cal. 468, 474-75 (there must be a substantial
reason why [a law] is made to operate only upon a class,
and not generally upon all). MEC Op. Br. at 17.
b.

The County’s Position
(i). The County’s Evidence

The County’s evidence opposing the ex par te
applications may be summarized as follows.
While older adults and those with underlying medical
conditions are at higher risk of severe illness and death
from COVID, the virus can cause severe illness and death
in individuals of any age. Gunzenhauser Decl., ¶9. The
effectiveness of treatment remains limited, and a widely
available vaccine is still months away. Gunzenhauser
Decl., ¶11.
Emerging evidence also suggests that some persons
who recover from COVID experience serious effects
that linger long after clearing the viral infection.
Gunzenhauser Decl., ¶10. Some of these long-term effects
may be attributable to organ damage caused by the
COVID infection. Id. Scans and tests of some patients
who recovered from COVID have shown damage to
heart muscle and scarring in the lungs. Id. Some of this
damage is believed to be the result of COVID-related
blood clotting, including clots that weaken blood vessels
and very small clots that block capillaries. Id.

120a
Appendix C
There is consensus among epidemiologists that the
most common mode of transmission for COVID is from
person-to-person through respiratory droplets expelled
when a person coughs, sneezes, or projects their voice.
Gunzenhauser Decl., ¶13. There is no scientifically agreedupon safe distance, but it is widely accepted that standing
or sitting near an infectious person is riskier than being
farther away. Id.
There is a consensus that in-person eating and
drinking at restaurants, breweries, and w ineries
are among the riskiest activities in terms of COVID
transmission. Gunzenhauser Decl., ¶48. Studies have
demonstrated that COVID is less likely to be transmitted
in outdoor spaces than in indoor spaces, where respiratory
droplets and aerosols can accumulate. Id. The risk of
transmission is further reduced when outdoor diners are
spaced from each other, when restaurant staff wear face
coverings and face shields, and when patrons only remove
their face coverings to eat and drink. Id.
Studies show the role of masks in limiting the spread
of COVID, and that situations where unmasked individuals
from different households spend prolonged periods of
time in proximity to one another present a higher risk of
transmission than settings where one or more of these
factors is absent. Gunzenhauser Decl., ¶51.
Not every exposure to the COVID virus will lead
to infection. Gunzenhauser Decl., ¶15. Infection occurs
when a person receives a dose of the virus large enough to
overcome the body’s defenses, which may vary from person

121a
Appendix C
to person. Id. Measures to control the spread of COVID
should therefore include efforts to limit interactions in
conditions that support exposure to higher viral doses. Id.
Conditions that pose a particularly high risk are present
in gatherings. Id. It is widely accepted that a gathering
of any size increases the risk of community transmission.
Risk increases with the size of the gathering because the
more people who gather, the likelier it is that one or more
infected persons will be present. Id.
The risk of transmission increases when individuals are
in close proximity for an extended period. Gunzenhauser
Decl., ¶16. Risk is also increased when individuals are
not wearing face coverings. Id. Close proximity to an
unmasked infected person for a prolonged period presents
an especially high risk of receiving a viral dose sufficient
to cause COVID infection. Id. Evidence indicates that
gatherings of non-family members facilitates the spread
of COVID. Gunzenhauser Decl., ¶26.
There is wide consensus that risk reduction in
a pandemic does not require definitive proof that a
particular sector or activity is the cause of an increase in
cases. Gunzenhauser Decl., ¶58. Best practices dictate
that public health departments identify those sectors
and activities that present a higher risk of transmission
and take steps to mitigate those risks, especially during
a surge in cases and hospitalizations like we are now
experiencing. Id.
The County’s experience bears out the effectiveness of
systematic responses such as prohibitions on gatherings.
Gunzenhauser Decl., ¶29. The County’s experience also

122a
Appendix C
demonstrates the risk inherent in relying on widespread
individualized compliance alone to control the spread of
COVID. Gunzenhauser Decl., ¶30. In September, the
County reported that 20% of restaurants inspected were
violating COVID protocols. Id.
A key part of any public health department’s response
to outbreaks involves conducting field investigations. The
level of evidence required in a field investigation is not the
same as that required in a clinical trial. Gunzenhauser
Decl., ¶32. The purpose of a field investigation is to
determine what steps can be taken to stop or slow the
spread of an infectious disease. Id. The purpose of public
health decisions based on field investigations is to take
actions in a timely manner that will prevent or curtail the
spread of the virus or other disease-causing agent. Id.
Often, officials will have to make decisions in a brief period
and when information is limited, especially in comparison
to other medical studies such as full-blown, clinical trials
when the urgency of the situation is not so severe. Id.
Despite improved treatment, the proportion of
COVID patients requiring hospitalization has remained
elevated above 10% throughout the pandemic. It has
averaged about 10% in the most recent four months, with
approximately 25-33% of hospitalized patients in the
ICU and approximately one half of those ICU patients
requiring ventilators. Id.
When community spread of the virus increases, the
number of known and suspected COVID patients in both
ICU and non-ICU beds increases as well. Gunzenhauser
Decl., ¶43. On most days in June, there were fewer than

123a
Appendix C
1,500 confirmed COVID cases in the County’s hospital
beds. Id. For ICU beds, that number rarely exceeded
500. Id. During the July surge, the number of confirmed
COVID patients exceeded 1,500 every day and often
approached 2,000. Id. For the ICU, those numbers never
dropped below 500 and at times approached 700. Id.
On November 1, 2020, known and suspected COVID
cases accounted for 721 non-ICU beds and 239 ICU beds.
Id. By the day before Thanksgiving, those numbers had
risen to 1,431 and 475, respectively. Id.
On November 21, 2020, the County reported 4,522
new confirmed cases and 1,391 people hospitalized, 26% of
whom were in the ICU. On November 22, 2020, the County
reported that the five-day average surpassed 4,000 new
daily cases, the Department’s threshold for suspending
in-person dining. Gunzenhauser Decl., ¶40.
On November 23, 2020, the County reported its
highest number of COVID cases in a single day at 6,124.
Gunzenhauser Decl., ¶41. This brought the total number
of COVID cases to 370,636, with 7,446 deaths. Id. As of
November 23, 2020, the R number for the County was
1.27, meaning the daily number of new cases of COVID is
expected to increase over time. Gunzenhauser Decl., ¶29.
As of November 29, 2020, 2,049 COVID patients were
hospitalized in the County, with 24% of those patients in
the ICU. Gunzenhauser Decl., ¶41. From October 27 to
November 27, 2020, COVID hospitalizations jumped from
747 to 1,893. Gunzenhauser Decl., ¶43. The current surge

124a
Appendix C
is accelerating much more rapidly than the prior surge
in July. Between November 13 and November 27, 2020,
hospitalizations of confirmed COVID patients increased
by 101%. Gunzenhauser Decl., ¶41.
This indicates widespread and uncontrolled community
transmission of the virus. Id. Currently, approximately one
in 145 County residents is infectious to others. During the
week of November 16, 2020, that number was 1 in 250. Id.
The number of new cases and hospitalizations is expected
to rapidly increase over the next 21 days without rapid
public health interventions, which will lead to a major
increase in the number of persons with severe illness and
the number of deaths and will stress the healthcare system
and healthcare workers. Gunzenhauser Decl., ¶37. This
stress will limit the availability of ICU beds for patients
who may need them, including patients hospitalized for
conditions other than COVID. Gunzenhauser Decl., ¶37.
Increased hospitalizations due to COVID, including
ICU admissions, risk overwhelming the County’s hospital
capacity. Gunzenhauser Decl., ¶45. A secondary effect
of the COVID pandemic is that some individuals delay
seeking treatment for other conditions for fear of being
exposed to COVID at healthcare facilities. Gunzenhauser
Decl., ¶46. Based on public health observations of the
effects of the virus during this pandemic, hospitalizations
typically increase two to three weeks after a spike in cases,
and deaths increase thereafter. Gunzenhauser Decl., ¶49.
Therefore, while the County is currently experiencing a
surge in hospitalizations, it expects the current high case
counts to lead to an even higher hospitalization rate in the
coming weeks. Id.

125a
Appendix C
(ii). The County’s Argument
The County argued that the Restaurant Closure
Order easily meets the highly deferential standard of a
rational basis because of the recent surge in COVID cases
and hospitalizations. Petitioners cannot refute the fact
that the risk of spreading COVID becomes heightened
when people are sitting in close proximity without face
coverings, eating and drinking, and projecting their
voices toward each other. Gunzenhauser Decl., ¶52. All of
these things occur when diners are eating and drinking
at restaurants. Id. Opp. to CRA Ex Parte at 11.
Courts have repeatedly held that orders limiting
gatherings and requiring businesses to close in response
to the pandemic bear a real and substantial relation to
public health. See, e.g., Six v. Newsom, supra, 462 F.
Supp. 3d at 1068 (“[P]hysical distancing measures like
California’s Stay-at-Home Order are critical to slowing
down the spread of the virus . . . .”); Givens v. Newsom,
(E.D. Cal. 2020) 459 F. Supp. 3d 1302, 1311 (“[I]t is
uncontroverted that the State’s stay at home order bears
a real and substantial relation to public health.”). While
striking down restrictions on religious worship based on
New York Governor Cuomo’s order, the U.S. Supreme
Court reiterated that government has “authority to impose
tailored restrictions—even very strict restrictions—on
attendance at religious services and secular gatherings.”
Roman Catholic Diocese, supra, 2020 WL 6948354, at
*8 (Kavanaugh, J., concurring). If the Supreme Court
permits restrictions on enumerated, long-standing First
Amendment rights like religious worship, then it would

126a
Appendix C
clearly uphold the County’s ability to temporarily prohibit
outdoor dining at restaurants. Opp. to CRA Ex Parte at
12.
Petitioners’ experts argue that the Department failed
to consider relevant evidence and assess other evidence.
But Petitioners’ experts cannot rebut the enhanced risk
in eating and drinking at close proximity without face
coverings, which is inherent in dining at restaurants,
breweries, wineries, and bars. Moreover, Petitioners
are asking the court to weigh the evidence by making
this argument. Courts do not weigh evidence under the
arbitrary and capricious standard. Therefore, the fact
that Petitioners’ experts may have differing views about
how to address the pandemic is irrelevant; rational basis
review is not a “battle of the experts.” Opp. to CRA Ex
Parte at 12-13.
Additionally, Petitioners do not establish why their
experts’ opinions should be given more weight than
the County Health Officer’s opinion when none has
any advanced training or specialization in the study of
epidemiology—the branch of medicine which studies
the spread and control of infectious diseases. Barke is a
primary care physician (Barke Decl., ¶1), Bhattacharya,
the closest to an epidemiologist, is a researcher in the area
of health economics (Bhattacharya Decl., ¶3-4), LyansWeiler is a biomedical researcher (Lyons-Weiler Decl., ¶3),
Allen is a biostatistician (Allen Decl., ¶2), and Kaufman
is trained as a public health behaviorist and biosafety
expert (Kaufman Decl., ¶1, 3-4). The court should reject
Petitioners’ attempts to replace the considered judgment

127a
Appendix C
of the County’s public health officials with the opinions of
persons who do not have expertise in the relevant field.
Opp. to CRA Ex Parte at 13.
Petitioners’ argument that the County’s Restaurant
Closure Order lacks a rational basis is false.16 The
law does not require the County to act with exacting
scientific evidence when responding to a novel, evolving
public health emergency. A key part of any public health
department’s response to a new virus involves conducting
field investigations. Gunzenhauser Decl., ¶32. The purpose
of public health decisions based on field investigations is
to combat the spread of the virus when officials do not
have sufficient time or information to conduct full-blown,
peer-reviewed clinical trials. Id. This aids the public
health experts’ understanding of COVID continues to
evolve and swift and aggressive actions must be taken
to combat community transmission. Id. Opp. to CRA Ex
Parte at 13-14.17
16. The County argues that CRA’s assertion that the
County’s data shows “restaurants are responsible for only 3.10% of
new coronavirus infections” is premised on an incorrect use of the
statistics on workplace outbreaks. The list of workplace outbreaks
on the County’s COVID webpage is not an indication of the role
played by the specific sector in community spread. Gunzenhauser
Decl., ¶¶ 54-56. Further, essential sectors that were never required
to cease indoor operations will necessarily be overrepresented on
this list. Id., ¶56. Opp. to CRA Ex Parte at 13, n.12.
17. The County argues that Petitioner MEC’s reliance on
County of Butler v. Wolf, (“Wolf”) (W.D. Pa. Sept. 14, 2020) 2020
WL 5510690 is misplaced. In Wolf, a COVID “policy team”
tasked with deciding what business were “life-sustaining” and

128a
Appendix C
For these reasons, Petitioners cannot establish a
likelihood of success on the merits of their claims. Opp. to
CRA Ex Parte at 15; Opp. to MEC Ex Parte at 19.
c.

The Court’s TRO/OSC Decision

Plainly, the County established that the surge is
legitimately concerning, particularly hospitalizations,
ICU load, and deaths. Increased hospitalizations due to
COVID, including ICU admissions, risk overwhelming the
County’s hospital capacity. Gunzenhauser Decl., ¶45. As a
result, the County is entitled to act. The principal question
is: Does the action of closing outdoor restaurants have
rational support in furthering the reduction of this risk?
Assuming that Jacobson test applies to a pandemic
nine months old, the County is correct that it is highly
deferential to an agency’s public health action. Even if
Jacobson no longer applies, the Department still has
great discretion. The court may not weigh the evidence
or substitute its judgment for that of the Department.
For this reason, the fact that Petitioners’ experts have
differing views than the County’s experts about how to
address the pandemic is not significant; the court’s rational
basis review is not a battle of the experts.
allowed to reopen and which were not, was comprised “solely of
employees from the Governor’s policy and planning office, none of
whom possess a medical background or [were] experts in infection
control.” Id. at *2. In contrast, the County’s Restaurant Closure
Order was formulated by County public health officials tasked with
responding to the pandemic and with backgrounds in epidemiology.
Opp. to MEC Ex Parte at 18-19.

129a
Appendix C
The County further is correct that the law does not
require the Department to act with exacting scientific
evidence when responding to a novel, evolving public
health emergency. The Department relies on field
investigations, the purpose of which is to combat the
spread of the virus when officials do not have sufficient
time or information to conduct full-blown, peer-reviewed
clinical trials. Gunzenhauser Decl., ¶32.
At the December 3, 2020 TRO/OSC hearing, the court
acknowledged that the Department has the right to take
prophylactic measures that require swift action to address
public health during the COVID pandemic. Suppl. Siegel
Decl., Ex. C, p. 14. In so doing, the court stated that the
Department’s public health job is “to ensure that the
[healthcare] system does not get overwhelmed.” Ex. C,
p. 8.
The court further stated that the County has evidence
to support the Restaurant Closure Order:
“The County’s evidence is general in nature,
but it’s real evidence. The evidence is that when
you don’t wear a mask and you’re sitting around,
it’s a greater risk when you’re in a group. And
we’re trying to reduce the risk, and we have this
huge problem of a surge. They have evidence.
It’s not specific to the risk of outdoor dining, but
they do have evidence.” Ex. C, p. 19. See also id.,
p. 33 (“[The County does] have a medical basis.
. . . [T]hey have a generalized basis of the risk
of taking your mask off with others around the
table. They do have that.”).

130a
Appendix C
The court further acknowledged that the County
has evidence that “restaurants are not following the
restrictions.” Id., p. 15. The court concluded:
“We have a County that is taking actions in
good faith based on a surge in cases, surge
in hospitalizations. And it has a duty to
prophylactically try to address that to avoid
overwhelming the health care system. It has
chosen to do that by a three-week limited
restaurant closure, except for take-out. No
outdoor dining in, other words. And, you know,
it sounds like it’s rational.” Id., p. 14 (emphasis
added).
Because the County had a duty to act and had
generalized evidence about dining at a restaurant without
a mask, the court denied a TRO. Id., pp. 32-33. According
to the County, that should have been the end of the inquiry
and the court also should have denied the request for an
OSC. OSC Opp. at 6.
Not so. While the County had generalized evidence
that outdoor dining necessarily means that diners will
not wear masks while eating, and that not wearing masks
in proximity to another increases the risk of COVID
transmission, Petitioners had specific evidence that
outdoor dining does not involve any significant COVID
risk.
Petitioners’ evidence consisted of the following:
(a) the opinion of experts that there is no rational and

131a
Appendix C
legitimate scientific or public health basis supporting the
ban on outdoor dining in restaurants (Kaufman Decl.,
¶21; Bhattacharya Decl., ¶20); (b) the fact that the safety
of outdoor dining has been well-established by the China
Study, the Japan Study, and a Mayo Clinic article (Barke
Decl. ¶¶ 7-10); (c) the fact that the Department’s data
provide no support for a shutdown of outdoor restaurant
operations (Allen Decl., ¶7); (d) the fact that 3.10% of
new infections have occurred at restaurants; (e) expert
conclusion that the CDC study relied upon by Davis
as the Department’s “best data” does not support the
Restaurant Closure Order (Kaufman Decl., ¶¶ 16-17);
(f) the CDC’s updated November 18th, 2020 recommendation
that outdoor dining may occur with relative safety at
restaurants if precautionary measures are observed and
that outdoor dining is in the second lowest tier of risk and
can be mitigated further by reasonable accommodations
(Bhattacharya Decl., ¶20), and (g) the fact that precautions
already are in place for outdoor dining -- socially distanced
outdoor dining, masks, and temperature checks. All of
these opinions and facts supported the conclusion that
the transmission of the virus from one person to another
in an outdoor restaurant dining setting is highly unlikely.
See Kaufman Decl., ¶19.
If the court were permitted to weigh evidence, it would
have issued the TRO. Because it may not do so, the court
concluded that the County’s evidence may be sufficient if
it provided certain additional information: (1) the actual
numbers for hospital and ICU capacity (the County’s
evidence of the surge’s impact on hospitalizations and ICU
load lacked capacity numbers); (2) the articulated risk-

132a
Appendix C
benefit analysis for restaurant closure which Plaintiffs’
evidence showed is required; (3) why the only available
study evidence suggests that outdoor dining is not a risk?;
(4) the statistics on mortality from COVID; and (5) why
the County is acting inconsistently with the Governor’s
order and his direction that restrictions would be based
on science and data.
The County’s OSC opposition addresses these issues.
(i). Actual Numbers for the Hospital and
ICU Capacity
The court has consistently viewed the County’s
daily statistics of the daily number of positive tests and
positivity (the rate at which persons who are tested test
positive) as not particularly significant to the need for
the Restaurant Closure Order. What is important is the
burden on the health care system -- which means usage
of hospital beds and ICU beds -- and the death rate.
Petitioners’ evidence shows why. A person who tests
positive for the presence of the virus may not be contagious.
Weiler Decl., ¶18. The person’s contagious nature depends
on viral load, which is the amount of virus in his or her
body. Id. All of the available empirical estimates support a
minimum false positive rate of 0.48, meaning that 45-48%
of persons who test positive for COVID have a nearly zero
risk as a source of transmission. Weiler Decl., ¶19. As a
result, concern over person-to-person transmission from
people who test positive (and are thus given a presumptive
diagnosis of COVID) must be adjusted downward by at
least 50%. Id.

133a
Appendix C
The County’s evidence shows that positive tests and
positivity are relevant to community spread. The rise
in cases nationwide is not just a reflection of increased
testing. Reingold Decl., ¶9. If the rate of COVID were
stable or decreasing, increased testing would produce a
lower proportion of tests being positive, as presumably a
larger and more representative selection of the population
(not only those with symptoms or known exposure) would
be included. Id. Since the case rate and the proportion of
tests positive rate have increased simultaneously, data
suggest that the increase in confirmed cases indicates a
true rise in cases. Id. This evidence indicates that positive
tests, which must be taken with a grain of salt because
of false positives, and positivity are relevant to COVID
spread, but do not directly bear on the burden to the
healthcare system.
Ferrer’s comments to the Board show that she agrees:
“[I] agree that it seems a little bit counterintuitive to
talk about cases when really all we are worried about
is overwhelming the healthcare system. And I think Dr.
Ghaly spoke to this as well, you don’t want to wait until
the case numbers in the hospitals are really high. Siegel
Decl., Ex B (emphasis added).
Finally, in issuing his March 4, 2020 State of
Emergency and March 19, 2020 Stay-at- Home Order,
Governor Newsom stated that the state’s actions should
be aligned to achieve the objectives of: (1) ensuring the
ability to care for the sick within the state’s hospitals.

134a
Appendix C
Thus, the key information for COVID restrictions are
hospitalizations and ICU bed utilizations.
The County now has provided this information. On
average, there are approximately 14,000 licensed non-ICU
beds and 2,500 licensed ICU beds available in the County.
Hill Decl., ¶13. The actual number of beds can fluctuate
from day-to-day. Id.
Beginning in November 2020, the number of COVID
cases and hospitalizations began to surge. Hill Decl.,
¶18. On November 1, 2020, there were approximately 960
COVID patients hospitalized in both ICU and regular
hospital beds. Hill Decl., ¶19. On November 28, 2020,
there were approximately 2,000 total COVID patients
hospitalized in both ICU and regular hospital beds. Hill
Decl., ¶20.
That number has continued to rise in the beginning
of December. Hill Decl., ¶21. On December 1, 2020, 2,690
COVID patients were hospitalized. Id. Approximately
25% of the ICU beds were occupied by COVID patients:
573 COVID positive patients and 42 PUIs (persons under
investigation), a total of 615. Id. Approximately 15% of the
regular hospital beds were occupied by COVID patients:
1,858 COVID positive patients and 217 PUIs, a total of
2,075. Id. The number of COVID patients hospitalized in
the County has nearly tripled. Hill Decl., ¶22.
As a result of the recent surge, the number of available
ICU beds in the County has significantly decreased. In
mid-October, there were 149 available ICU beds. Hill

135a
Appendix C
Decl., ¶24. The County’s ICU bed availability in November
decreased to less than 5% of total capacity, with 4.44%
available from November 22-28. Hill Decl., ¶25.
Projections for ICU beds show that demand could
exceed the County’s available beds within a couple of
weeks. Hill Decl., ¶32. Typically, when a shortage occurs,
the availability of ICU beds diminishes first because there
are fewer alternatives where ICU-patients can be treated
effectively. Hill Decl., ¶33. The surge in hospitalizations
will further stress the County’s healthcare system, which
can manifest itself in many ways. Hill Decl., ¶28. Hospitals
will have to change what they do day-to-day to meet the
needs of their patients. Id. For example, an emergency
room may have to be repurposed to treat ICU patients,
which will thus impact the number of day-to-day medical
emergencies that can be treated, such as heart attacks. Id.
The Governor’s Regional Order includes the County
in the Southern California Region, which was at 82% ICU
capacity (18% ICU availability) as of December 3, 2020.
Hill Decl., ¶36. If the surge continues unchanged, it is
projected that the Southern California Region will cross
this threshold and have less than 15% ICU availability
by the end of this week. Id. As of December 6, 2020, the
threshold has been reached and the Regional Order is in
effect.
The County has sufficiently shown the actual numbers
for hospital and ICU capacity.

136a
Appendix C
(ii). Ri sk-Benef it A n a ly si s fo r t he
Restaurant Industry
In issuing his March 4, 2020 State of Emergency and
March 19, 2020 Stay-at-Home Order Governor Newsom
stated that the state’s actions should be aligned to achieve
the objectives of: (4) reducing social, emotional, and
economic disruptions. Ellis Decl., Ex. 18.
The unrebutted evidence is that public health decisions
require a risk/benefit analysis of health restrictions. In
making public health decisions, it is important for health
officials to weigh the overall risk of the given disease to
the overall benefits of the imposed public health policy.
Kaufman Decl., ¶22. Public health recommendations
regarding behavior by private actors (such as the decision
to protest) should weigh the benefits of that behavior
against the public health costs. Bhattacharya Decl., ¶50.
If the benefits of the undertaking are important enough
relative to the public health risks, and care is taken to
minimize those risks by adhering to the extent possible to
safe practice guidelines, then the activity should receive
approval by public health experts. Id.
Basic standards of public health policy design require
a comparison of both costs and benefits of a policy to
justify it from a scientific and ethical point of view.
Bhattacharya Decl., ¶29. A scientifically justified policy
must explicitly account for these costs – including an
explicitly articulated economic analysis – in setting,
imposing, and removing criteria for business restrictions
such as the blanket prohibition on outdoor dining. Id.

137a
Appendix C
With respect to economic cost, Allen opines that the
state’s California Risk Tier System and trigger definitions
are too simple and too blunt. Allen Decl., ¶11. There is no
effort to conduct a comprehensive risk-benefit analysis
by looking at the economic consequences of the move
and whether the constricting actions are targeting the
greatest risk businesses and activities based on business
sector data and statistics in the specific country. Id.
Petitioners also present evidence concerning the
social and psychological costs of restaurant closure. One
of the risks of restaurant closure is increased feelings
of isolation and depression among some members of the
public. A comprehensive survey of 17,612 men and 19,581
women over the age of 65 found that eating alone has been
linked to a higher incidence of depression among adults,
particularly those who live alone. Id.
Finally, Petitioners note the comparative health risk
of outdoor restaurant dining. Scientists recognize that all
forms of human death should be avoided if possible. Weiler
Decl., ¶31. Nevertheless, all forms of human activity,
including eating at restaurants, carry some risk. Weiler
Decl., ¶33. The risks associated with COVID from outdoor
dining are far smaller than the risks of choking or food
poisoning. Id. While on average, there is about one death
due to COVID for every 124 days of outdoor restaurant
operation -- assuming that every restaurant in the County
is operating at full capacity with 40 outdoor seats -- about
250 people die each year in the County from either choking
or food poisoning. Id. Given the information available on
outdoor transmission, the risk is “lower than a convenience
store”. Weiler Decl., ¶33.

138a
Appendix C
The County presents no evidence that it conducted a
risk-benefit analysis. The Department merely “regrets”
that the preventative measures have an emotional and
economic impact on businesses, families, and individuals
and states that it must implement measures to fulfill its
day-to-day statutory responsibility for communicable
disease control. Davis Decl., ¶14. The Department
recognizes that it has asked businesses and its more than
ten million residents to make significant adjustments
to fight this pandemic. Davis Decl., ¶19. Yet, it is the
considered opinions of the Department’s communicable
disease experts that these temporary adjustments and
modifications are necessary to combat the ongoing surge
in COVID cases and hospitalizations, and the resulting
strain on the County’s healthcare system. Id.
Davis purports to conclude that, based on the data,
the Department determined that the risks and harms
of uncontrolled community spread, strain on the health
care system, and excess preventable deaths outweighed
the social and economic harm of a temporary suspension
on in- person restaurant dining. Davis Decl., ¶31. This
conclusion is unsupported by any evidence or analysis.
The required risk-benefit analysis must be explicitly
articulated in setting, imposing, and removing criteria
for business restrictions. Bhattacharya Decl., ¶29. An
expert’s opinion is no better than the facts upon which
it is based (Turner v. Workmen’s Comp. Appeals Board,
(1974) 42 Cal.App.3d 1036, 1044) and an expert opinion is
not substantial evidence when it is based upon conclusions
or assumptions not supported by evidence. Hongsathavij
v. Queen of Angels/Hollywood Presbyterian Med. Center,

139a
Appendix C
(1998) 62 Cal.App.4th 1123, 1137; Rorges v. Department of
Motor Vehicles, (2011)192 Cal.App.4th 1118, 1122. Davis’
conclusion carries no weight.
The County argues that it is not required to show
that it conducted a cost-benefit analysis of the Restaurant
Closure Order to meet the arbitrary and capricious
standard of review. The Restaurant Closure Order is valid
unless Petitioners disprove “every conceivable basis which
might support it.’” FCC v. Beach Communications, Inc.,
supra, 508 U.S. at 314-15. This analysis does not allow
a party to probe the decision-making processes of the
government because the Constitution “does not demand
for purposes of rational-basis review that a legislature or
governing decisionmaker actually articulate at any time
the purpose or rationale supporting its classification.”
Nordlinger v. Hahn, supra, 505 U.S. at 15. Opp. to OSC
at 10.
The County wrongly relies on equal protection cases.
In FCC v. Beach Communications, Inc., the United
States Supreme Court reviewed the federal Cable
Communications Policy Act of 1984, which requires
that cable television systems be franchised by local
governmental authorities. One provision exempted
facilities serving subscribers in one or more multiple
unit dwellings under common ownership, control, or
management. After petitioner FCC ruled that a satellite
master antenna television system -- which typically
receives a satellite signal through a rooftop dish and then
retransmits the signal by wire to units within a building -is subject to the franchise requirement, satellite operators

140a
Appendix C
petitioned for review. The high court reversed the court of
appeals and held that the common ownership classification
does not violate equal protection. 508 U.S. at 307.
In Nordlinger v. Hahn, the petitioner recently had
purchased a house and filed suit against the County and
its tax assessor, claiming that Prop. 13 violates the Equal
Protection Clause of the Fourteenth Amendment because
of dramatic disparities in the taxes paid by long-term
owners and newer owners. 505 U.S. at 1. The high court
disagreed, finding that the classifications had a rational
basis. Id.18
These equal protection cases have no bearing on the
risk-benefit analysis requirement because Petitioners
make no equal protection claim other than a cursory
disparate treatment argument. This is a substantive
due process case under the Due Process Clause of the
Fourteenth Amendment, which includes a substantive
component that bars arbitrary, wrongful, government
action “regardless of the fairness of the procedures used
to implement them.” Zinermon v. Burch, (1990) 494 U.S.
113, 125. The “core of the concept” of substantive due
process is the protection against arbitrary government
action. Hurtado v. California, (1884) 110 U.S. 516, 527
(1884). When executive branch agencies act in a legislative
capacity, courts evaluate whether the challenged agency
18. Additionally, in Warden v. State Bar, the plaintiff
attorney made an equal protection challenge to the constitutional
validity of the State Bar’s mandatory continuing legal education
(MCLE) program because categories of attorney-retired judges,
elected officials of the state, and full-time law professors were
exempt from the MCLE requirements. 21 Cal.4th at 633.

141a
Appendix C
action has been “arbitrary, capricious, or entirely lacking
in evidentiary support.” Davies v. Contractors’ State
License Bd., (1978) 79 Cal. App. 3d 940, 946. While courts
do not weigh evidence when applying this test, they
must ensure that the agency has adequately considered
all relevant factors and has demonstrated a rational
connection between those factors and the choice made.
Carrancho, supra, 111 Cal. App. 4th at 1265.19 This is
true even under the highly deferential review set forth
in Jacobson.

19. In Carrancho, the court addressed an amended
statutory scheme to phase down the practice of burning rice
straw left over after harvest. 111 Cal. App. 4th at 1255. As part
of the amendment, state agencies responsible for managing the
phasedown were required to develop a plan to divert at least 50%
of the straw to off-field uses by 2000 and to make a progress report
to the Legislature on progress in achieving that goal. Id. The rice
grower plaintiffs filed a petition for traditional mandate, alleging
that the diversion plan and progress report failed to comply with
the statute. Id. The court noted that the plan and report performed
the quasi-legislative function of gathering information and making
recommendations in aid of prospective legislation, acts that are
reviewed under a deferential standard. Id. at 1266-67.
While the plaintiffs could compel the agencies to issue the
statutorily required documents, review of their discretionary
manner of preparation and the contents was limited to whether the
actions were arbitrary, capricious, or unsupported by substantial
evidence. Id. at 1269. The judicial review must “ensure that an
agency has adequately considered all relevant factors, and has
demonstrated a rational connection between those factors, the
choice made, and the purposes of the enabling statute.” Id. at
1273-74 (citation omitted). This required deferential, but not
perfunctory, review. Ibid.

142a
Appendix C
The undisputed evidence required the County to
perform and articulate a risk-benefit analysis in imposing
the Restaurant Closure Order and it clearly did not do so.
(iii). Why the Only Available Evidence
is that Outdoor Dining Is Not a
Significant Risk?
In issuing his March 4, 2020 State of Emergency and
March 19, 2020 Stay-at-Home Order Governor Newsom
specified that California’s response to the coronavirus
pandemic “must be done using a gradual, science-based
and data-driven framework.” Ellis Decl., Ex. 18.
The federal, state, and local governments have done a
poor job of supporting COVID restrictions with science.
In March 2020, it was acceptable not to have studies at
the outset of the pandemic. This is less true nine months
into it. The County relies on field investigations instead of
studies. Should not the relevant federal, state, and county
government agencies be committing all their resources to
this problem? Why isn’t it an all hands-on-deck situation
when the public and small and large businesses are being
asked to sacrifice so much? What have these agencies
been doing besides keeping track of statistics and making
public pronouncements? Should they not be obtaining the
best information about who is at risk, what spreads the
disease, and what tasks and activities are safe?
The Department admits that the CDC recommendation
on the effectiveness of physical distancing in controlling
the spread of COVID shows that outdoor well-ventilated

143a
Appendix C
spaces, such as an open patio at a restaurant, where
unmasked persons have prolonged contact, present a
moderate risk of transmission. Davis Decl., ¶37. The
Department argues that sitting outdoors reduces risk
but does not eliminate it. Id. This risk of transmission
outdoors is more elevated at a restaurant where people
are sitting close to each other for a prolonged period of
time, not wearing masks, not socially distancing, eating
and drinking, and projecting their voices (and respiratory
and aerosol droplets) toward each other. Id.
The Department adds that the benefits of being
outdoors are reduced when a space is partially enclosed,
such as is often the case on a restaurant patio. Davis
Decl., ¶38. Even partial enclosures affect airflow and the
extent to which virus-containing respiratory droplets and
aerosols can accumulate. Id. The benefits of being outdoors
are further diminished when people from different
households gather for prolonged periods without wearing
masks. Davis Decl., ¶39. The Department consulted with
members of the restaurant industry in an attempt to avoid
an outdoor dining restriction through other measures. Id.
The Department proposed that restaurants take steps to
ensure that all persons seated at a table were from the
same household but was informed that restaurants had
no way of verifying that information for their diners. Id.
The Department defends the fact that it has not
conducted a clinical study on how outdoor dining in specific
affects the transmission rates of COVID because it has
limited time and resources to conduct clinical studies
during a pandemic when it must act swiftly and proactively

144a
Appendix C
to halt the spread of the disease. Davis Decl., ¶48. Clinical
studies provide minimal value in deciding how to respond
to an emergency like the COVID pandemic because they
have a higher evidentiary standard and take longer to
complete. Davis Decl., ¶49. Field investigations, on the
other hand, are intended to identify those factors and
behaviors that impose a higher risk of transmission so
that these factors can be quickly addressed. Id.
The Department disputes that the September 2020
CDC report has little bearing on outdoor dining. Davis
Decl., ¶42. The fact that the study did not distinguish
between indoor and outdoor dining does not undermine its
usefulness and validity in determining the Department’s
responses to the recent surge in COVID cases. Davis
Decl., ¶42. The study looked at dining in any area
designated by the restaurant, including indoor, patio, and
outdoor seating. Id.
Davis made the decision to issue the Restaurant
Closure Order based on the evidence that COVID spreads
most easily when individuals from different households are
in close proximity to one another, for prolonged periods of
time, without wearing masks. Davis Decl., ¶51. Restaurant
dining was the only remaining setting where this was
largely still permitted. While dining outdoors is less
risky than dining indoors, the nature of dining together
at a restaurant still presents a substantial risk of viral
transmission. Id.
Based on this evidence, the County argues that its
time is better spent in directly responding to the virus

145a
Appendix C
than focused on a study effort that would yield macro
results to better inform its decision-making. Opp. to OSC
at 13.
This argument – that clinical studies have little value
-- is spurious. Clinical studies plainly have more scientific
and medical value than anecdotal field investigations. The
County does not have any evidence of the risks of outdoor
dining beyond the generalized evidence of its syllogism:
(a) COVID is spread by expelled droplets that transmit
the virus to others in proximity, (b) people eating in
outdoor restaurants are in proximity to others and are
not wearing masks, (c) therefore outdoor restaurant eating
creates a risk of spreading COVID. Yet, outdoor dining
is considered by the CDC to be only a moderate risk, one
that can be mitigated further by proper controls.
The County’s argument that it does not have time in
the pandemic to conduct clinical studies does not explain
why the state, federal, and local governments cannot
perform a study (or some other reliable evaluation) of
the COVID risk for outdoor restaurants nine months
into a pandemic. To say the least, it is disappointing that
governmental agencies have yet to conduct a study on the
risks of outdoor dining, particularly in California where
outdoor dining is a viable concept even in winter (with
heaters).
(iv). The Statistics on Mortality
Although not widely publicized, the evidence shows
that the pandemic is not so overwhelming that the public

146a
Appendix C
should live in fear. It is sadly true that large numbers
of people have died from COVID: 282,000 in the United
States, 19,876 in California, and 7,886 in the County.
But the mortality rates have gone down as healthcare
professionals have learned to treat the disease and the
vulnerable groups are known. There is now a widespread
scientific consensus that COVID does not affect all people
equally. Kaufman Decl., ¶26. Over 41% of the COVID
deaths in the United States have occurred in nursing
homes. Id. 94% of all deaths associated with the COVID
involve victims with pre-existing underlying medical
conditions such as diabetes and heart disease. Id. It is now
understood that most of the severe cases of the disease
occur in individuals over the age of 65. Id. In California
through August 2020, 74.2% of all COVID-related deaths
occurred in patients 65 and older. There have been only
two deaths among COVID patients below age 18.
Of those who are infected, the median survival rate
is 99.77%. Bhattacharya Decl., ¶37. In September 2020,
the CDC updated its current best estimate of the ratio
of deaths to the number of people infected for various
age groups. Bhattacharya Decl., ¶39. Infected children
ages 0-19 years have a 99.997% survival rate. Id. Persons
ages 20-49 years have a 99.98% survivability rate. Id.
Persons ages 50-69 years have a 99.5% survivability rate.
Id. Persons age 70+ years have a 94.6% survival rate.
Id. A focus on symptomatic COVID patients also shows
very high survival rates. Bhattacharya Decl., ¶40. These
statistics provide the American public with a very high
probability that healthy people will not die from COVID
and that we should be protecting the most vulnerable –
aged persons and/or those with other risk factors.

147a
Appendix C
The County argues that “a large portion” of the
County’s population consists of people of all ages with
underlying medical conditions -- medical conditions include
cancer, heart conditions, obesity, diabetes, smoking, and
even pregnancy -- that pose an increased risk of severe
illness and death as a result of contracting COVID. See
RJN Ex. 10. People with pre-existing conditions should not
be left to die prematurely when the County can proactively
try to stop the spread of the virus. This is even more true
when a vaccine will soon be available, and those deaths
can be prevented. OSC Opp. at 16-17.
The County notes that COVID is currently the third
leading cause of death in the United States, behind heart
disease and cancer. Davis Decl., ¶55. In 2017, the most
recent year for which a published mortality report is
available, heart disease was the leading cause of death
in the County at 11,211. Id. As of December 3, 2020, the
County had recorded 7,782 COVID deaths. Id. Opp. to
OSC at 17. Emerging evidence also suggests that some
number of patients who recover from active COVID
infection experience long-term effects. The full extent
of the health consequences of COVID is not yet known,
but the evidence available is concerning. Davis Decl. ¶62;
Gunzenhauser Decl., ¶10. Opp. to OSC at 17.
The County does not explain what it means by “a large
portion” of the population, but nothing in Petitioners’
argument suggests that those persons at serious risk of
contracting COVID and death should not be protected.
Nothing in Petitioners’ papers undermines the County’s
conclusion that the mortality from COVID is serious

148a
Appendix C
and that the Department must take action to protect
those vulnerable and to avoid long-term effects for those
who recover. Petitioner CRA simply points out that the
County has not shown any link between outdoor dining
and COVID transmissions, hospitalizations, or mortality.
CRA Reply at 11.
(v). Why the County Acted Inconsistently
with the Governor’s Order
When issued, the County’s Restaurant Closure Order
was inconsistent with the Governor’s Blueprint outlining
a four-tiered system of community disease transmission
risk with activity and business tiers for each risk level.
Ellis Decl. Ex. 7. Restaurants were listed as a separate
sector in the Blueprint. Id. A county in Tier 2 may allow
indoor dining at a maximum capacity of 25% or 100 people,
whichever is fewer, while a county in Tier 1 may permit
only outdoor dining. Id. Even in the most restrictive tier,
outdoor dining was expressly permitted. Id.
The County notes that it is expressly empowered to
adopt measures more restrictive than the Blueprint: “This
framework lays out the measures that each county must
meet, based on indicators that capture disease burden,
testing, and health equity,” but that “[a] county may be
more restrictive than this framework.” Opp. to OSC,
RJN Ex. 5. The Blueprint also provides that local health
jurisdictions “may continue to implement or maintain
more restrictive public health measures if the local
health officer determines that health conditions in that
jurisdiction warrant such measures.” Id. The Legislature’s
statutory instruction to Davis provides that he “shall take

149a
Appendix C
measures as may be necessary to prevent the spread of
the disease or occurrence of additional cases.” H&S Code
§120175. OSC Opp. at 17-18.
The County notes that it has suffered disproportionately
from COVID compared to the rest of the state. With a
population of 10 million, the County accounts for 25% of
California’s population. Over the past week, the County
has accounted for 32.6% of new cases. Opp. to OSC,
RJN Ex. 6. Because of the recent surge, Davis imposed
restrictions that are more stringent than the state’s in
several sectors—not just limited to outdoor dining at
restaurants, breweries, bars, and wineries. The County
has taken a more aggressive approach than the state
framework because the pandemic has been felt more
severely in the County than the state overall. The County
thus implemented its own plan to close outdoor dining
once the County reached a five-day average of 4,000
cases/day, which it has. Because hospitalizations trail new
cases by about two weeks, this 4,000 cases/day threshold
indicates that the surge has become so widespread that
it risks overwhelming County hospitals and resulting
in a shortage of critical ICU staffed beds. Davis Decl.
¶¶ 64-66. 20
In any event, on December 3, 2020 the State
announced its Regional Order. Hill Decl., ¶34. Under
the Regional Order, the Southern California Region
20. As CRA argues (CRA Reply at 12), the County’s
argument does not demonstrate any rationale for the 4000 cases/
day trigger, even though the court asked for it. A trigger of
4000 new cases per day is not directly related to the burden on
hospitalizations and ICU beds.

150a
Appendix C
includes Imperial, Inyo, Los Angeles, Mono, Orange,
Riverside, San Bernardino, San Diego, San Luis Obispo,
Santa Barbara, and Ventura counties. Hill Decl., ¶35. The
Regional Order will prohibit on-site dining at restaurants
for three weeks, while restaurants can still provide drivethru, take-out and delivery services.
The Regional Order takes effect on December 5,
2020 and, pertinent to the Southern California Region, is
triggered if the Southern California Region’s ICU capacity
falls below 15%. The Regional Order is effective for three
weeks after the trigger. It affects numerous activities
and businesses. In pertinent part, the order prohibits
restaurant dining, indoor or outdoor, permitting only takeout or pick-up. The Regional Order will end if the region’s
ICU capacity projection for four weeks (three weeks after
the order) is above or equal to 15%. Conversely, the order
continues if the ICU projection for that period is less than
15%. The assessment will occur on a weekly basis.
The County argues the identical restrictions are at
issue in the County’s Restaurant Closure Order. The
County argues that the Regional Order proves that (1)
the health emergency is ongoing, and courts must give
deference to the public health officials responsible for
protecting the public; and (2) the County’s Restaurant
Closure Order, is not arbitrary and capricious. If the
Regional Order takes effect, the OSC and Petitioners’
request for relief will be moot. Opp. to OSC at 6-7.
As of December 6, 2020, the Regional Order has
been triggered by the fact that the Southern California

151a
Appendix C
Region has less than 15% ICU capacity. Sur-Reply RJN
Exs. 20, 21. However, the County has drawn overbroad
conclusions from the Regional Order. The Regional Order
does not moot this case. Petitioners are entitled to attack
the County’s Restaurant Closure Order without regard
to the viability of the Governor’s Regional Order, which
they may separately attack if they wish. It is true that
the Regional Order takes some of the urgency out of
Petitioners’ application. It is also true that it serves some
evidentiary value, including that the issue why the County
acted inconsistently with the Governor’s Blueprint is no
longer significant.
3.

Balance of Hardships

In determining whether to issue a preliminary
injunction, the second factor which a trial court examines
is the interim harm that plaintiff is likely to sustain if
the injunction is denied as compared to the harm that
the defendant is likely to suffer if the court grants a
preliminary injunction. Donahue Schriber Realty Group,
Inc. v. Nu Creation Outreach, (2014) 232 Cal.App.4th 1171,
1177. This factor involves consideration of the inadequacy
of other remedies, the degree of irreparable harm, and
the necessity of preserving the status quo. Id.
Petitioners argue that the supposed benefit, if
any, of the Restaurant Closure Order is unclear, while
its negative impact is apparent and imminent. The
Restaurant Closure Order has put at least tens of
thousands of economically fragile Los Angelenos out of
work since before Thanksgiving and will cause businesses

152a
Appendix C
to permanently close. See Gay Decl., ¶24 (“The loss of
revenue associated with an outright ban on outdoor
dining, especially in conjunction with the amounts already
spent on making outdoor dining possible, would likely
drive many restaurants out of business entirely.”), ¶26
(“Outdoor dining also maintains jobs for a large number
of servers who would otherwise not be able to work at all
during the Pandemic.”); Leon Decl., ¶¶ 7-8 (144 jobs would
be eliminated due to outdoor dining ban); Declaration
of John Terzian of h.wood Group ¶¶ 7-8 (350 jobs would
be eliminated); Rosenthal Decl., ¶4 (potential closure
of restaurant and hotel due to outdoor dining ban), ¶6
(describing potential permanent loss of jobs); Thornberg
Decl. ¶¶ 6-15. CRA Op. Br. at 20-21.
A significant number of restaurants will shutter
their doors completely as they will be uncertain as to
the future, unable to retrain employees and reopen
due to lack of capital, which has already been severely
depleted by the pandemic. See Gay Decl., ¶2; Thornberg
Decl., ¶¶ 6-15. Expert analysis and statistical evidence
confirm that outdoor dining was, for many restaurants,
the difference between staying in business and closing
permanently, allowing thousands of restaurant workers
to avoid permanent unemployment until the Restaurant
Closure Order took effect. Gay Decl., ¶¶ 24-26; Thornberg
Decl., ¶14 (outdoor dining is a “critical revenue lifeline”
for restaurants until vaccines become available). Out of
nearly 1,000 surveyed restauranteurs, 96.7% responded
that the outdoor dining ban will require them to fire staff
and 89.6% responded that they are at risk of closing their
restaurants. Shams Decl., ¶¶ 8-9, Ex. B (29 restauranteur

153a
Appendix C
declarations detailing irreparable harm due to the
Restaurant Closure Order). Depriving restaurants of
significant holiday income will further the devastation.
See Gay Decl., ¶¶ 20-28. Restaurants would be forced to
close, even those that invested heavily in the equipment
and procedures that Respondents had previously advised
would be sufficient to allow them to operate safely. See id.
CRA Op. Br. at 21. 21
The County argues that the Restaurant Closure Order
is a critical part of efforts by public health officials to
prevent the further spread of a highly contagious disease,
protect the health and safety of residents from exposure,
illness and possibly death, and avoid overwhelming the
healthcare system at a time of increasing rates of infection.
Opp. to CRA Ex Parte at 18; Opp. to MEC Ex Parte at
19. Petitioners are temporarily prevented from being
allowed to conduct outdoor dining. They are not precluded,
however, from continuing to provide take-out, drive-thru
and delivery services for customers. Comparing this
harm to the harm an injunction would do to the County’s
efforts to protect its more than ten million residents,
the balance of equities tips sharply in the County’s
favor. The potential consequences of community spread
of COVID and concomitant risk of death to members
21. Petitioners also argue that enjoining the Restaurant
Closure Order will save lives because a closure of all dining options
at restaurants will cause individuals to move into homes and
encourage indoor gatherings, one of the highest-risk areas for the
spread of COVID. See Bhattacharya Decl., ¶¶ 22, 45-46; Kaufman
Decl., ¶28; Allen Decl., ¶10. CRA Op. Br. at 21. The court views
this evidence and argument as speculative.

154a
Appendix C
of the community outweigh the harm from temporary
restrictions on businesses. Opp. to CRA Ex Parte at 1819; Opp. to MEC Ex Parte at 19-20.
The court cannot adequately balance the harms
without the County’s performance of a risk-benefit
analysis. While the County clearly may take action to
reduce COVID’s impact on hospital bed space and ICUs,
it is not clear that the closure of restaurants may aid in
reducing that stress to the system or that the benefits of
doing so outweigh the costs.
E. Conclusion
As the County argues, the alarming surge in COVID
cases, hospitalizations, and deaths entitle the Department
to act. OSC Opp. at 6. The County has shown that the
greatly decreased capacity of hospitals and ICUs are
burdening the healthcare system and action is necessary.
However, the County’s syllogism – (a) COVID is spread
by expelled droplets that transmit the virus to others
in proximity, (b) people eating outdoors in restaurant
are in proximity to others and they are not wearing
masks, (c) therefore outdoor restaurant dining has a risk
of spreading COVID – only weakly supports closure of
outdoor restaurant dining because it ignores the outdoor
nature of the activity, which the CDC says carries only
a moderate risk (and less with mitigations). Nonetheless,
the County is correct that the court cannot weigh evidence
in deciding whether the restriction has a rational basis,
and the Department does have generalized evidence of a
COVID risk in outdoor dining.

155a
Appendix C
However, the County clearly has failed to perform
the required risk-benefit analysis. By failing to weigh
the benefits of an outdoor dining restriction against its
costs, the County acted arbitrarily and its decision lacks
a rational relationship to a legitimate end. The balance
of harms works in Petitioners’ favor until such time as
the County concludes after proper risk-benefit analysis
that restaurants must be closed to protect the healthcare
system.
The applications for an OSC are granted in part. The
proper remedy is not to enjoin the County’s Restaurant
Closure Order. The Governor’s Regional Order is in effect
and outdoor restaurant dining in the County cannot open
at this time. Instead, the County should be prevented from
continuing the Restaurant Closure Order indefinitely. As
proposed on November 22, 2020, the Department planned
to ban outdoor dining for at least three weeks. Ellis Decl.,
Ex. 1. Three days later the County’s Restaurant Closure
Order made the ban indefinite. Ellis Decl., Ex. 17. The
County will be limited to the initially proposed three-week
period which ends on December 16, 2020, and it is enjoined
from extending the Restaurant Closure Order only after
conducting an appropriate risk-benefit analysis.
This means that the outdoor restaurant dining
portion of the County’s revised Restaurant Closure Order
(Sur-Reply RJN Ex. 21) must be enjoined. The revised
Restaurant Closure Order was revised to “align and
comply” with the Governor’s Regional Order because it
may not be less restrictive than that order. Ex. 21. Fair
enough, but the County has no basis for the outdoor dining

156a
Appendix C
portion of the order and it must be enjoined until the riskbenefit analysis is performed for outdoor dining.
The court cannot dictate what the Department must
do as part of the risk-benefit analysis. A reasonable person
would expect the County to consider all pertinent evidence
on the benefits of closure, including its own expert
evidence, the opinions of other experts such as Kaufman
and Bhattacharya (and criticisms of their opinions), the
China Study, the Japan Study, and the Mayo Clinic article
(and criticisms of their significance), the CDC study, the
CDC recommendation concerning outdoor dining, the
precautions already in place for outdoor dining -- socially
distanced outdoor dining, masks, and temperature checks,
and whether its trigger of 4000 new cases has any bearing
on hospital burden. As part of the risks of closure, the
County could be expected to consider the economic cost
of closing 30,000 restaurants, the impact to restaurant
owners and their employees, and the psychological and
emotional cost to a public tired of the pandemic and
seeking some form of enjoyment in their lives. This
analysis must be articulated for Petitioners and the public
to see. See Bhattacharya Decl., ¶29.

157a
D statutory
Appendix d —Appendix
relevant
provisions
West’s Ann. Cal. Health & Safety Code § 101040
§ 101040. Authority to take preventive
measures during emergency
(a) The local health officer may take any preventive
measure that may be necessary to protect and preserve
the public health from any public health hazard during any
“state of war emergency,” “state of emergency,” or “local
emergency,” as defined by Section 8558 of the Government
Code, within his or her jurisdiction.
(b) “Preventive measure” means abatement, correction,
removal or any other protective step that may be taken
against any public health hazard that is caused by a
disaster and affects the public health. Funds for these
measures may be allowed pursuant to Sections 29127
to 29131, inclusive, and 53021 to 53023, inclusive, of the
Government Code and from any other money appropriated
by a county board of supervisors or a city governing body
to carry out the purposes of this section.
(c) The local health officer, upon consent of the county
board of supervisors or a city governing body, may certify
any public health hazard resulting from any disaster
condition if certification is required for any federal or
state disaster relief program.

158a
Appendix D
West’s Ann. Cal. Health & Safety Code § 120175
§ 120175. Prevention of spread of disease
Each health officer knowing or having reason to believe
that any case of the diseases made reportable by
regulation of the department, or any other contagious,
infectious or communicable disease exists, or has recently
existed, within the territory under his or her jurisdiction,
shall take measures as may be necessary to prevent the
spread of the disease or occurrence of additional cases.

159a
E the health
Appendix e —Appendix
order of
officer of the county of los angeles
department of public health,
dated november 25, 2020
COUNTY OF LOS ANGELES DEPARTMENT
OF PUBLIC HEALTH
ORDER OF THE HEALTH OFFICER
REOPENING SAFER AT WORK AND IN THE
COMMUNITY FOR CONTROL OF COVID-19
BLUEPRINT FOR A SAFER ECONOMY–TIER 1
SURGE RESPONSE
Revised Order Issued: November 25, 2020
Effective as of November 25, 2020
Please read this Order carefully. Violation of
or failure to comply with this Order is a crime
punishable by fine, imprisonment, or both.
(California Health and Safety Code § 120295;
Los Angeles County Code § 11.02.080.)
SUMMARY OF THE ORDER: This Revised County of
Los Angeles Health Officer Order (Order) supersedes all
prior Safer At Home orders (Prior Orders) issued by the
County of Los Angeles Health Officer (Health Officer).
This Order is issued to comply with State Executive
Orders N-33-20 and N-60-20 issued by Governor Gavin
Newsom, and the accompanying orders of the State Public
Health Officer issued on March 19, May 7, July 13, July
17, 2020, August 28, 2020, and November 19, 2020.
This Order’s intent is to continue to ensure that County of
Los Angeles (County) residents remain in their residences

160a
Appendix E
as much as practicable, to limit close contact with others
outside their household in both indoor and outdoor spaces.
All persons who can telework or work from home should
continue to do so as much as possible during this pandemic.
This Order allows persons to engage in all permitted
activities, as defined by the Order, but requires that
persons practice Social (Physical) Distancing, at all times
while out in public and wear a cloth face covering over both
the nose and mouth when in or likely to be in contact with
others, to lower the risks of disease transmission through
person-to-person contact for themselves and others.
This Order is issued to account for the recent steep surge
of COVID-19 cases and large increases in hospitalizations
and testing positivity rates in the County. This Order will
be revised in the future to reflect the State Executive
Orders and State Public Health Officer Orders and
guidance that progressively designate sectors, businesses,
establishments, or activities that may reopen with certain
modifications, based on health and safety needs and at a
pace designed to protect health and safety, and that may
also progressively close specific activities and business
sectors based on increases in daily reported COVID-19
cases, hospitalizations, and the testing positivity rates.
Should local COVID-19 conditions warrant, the Health
Officer may, after consultation with the Board of
Supervisors, issue Orders that are more restrictive than
those of the State Public Health Officer. Changes from
the previous Order are highlighted.
This Order is effective within the County of Los Angeles
Public Health Jurisdiction, defined as all cities and
unincorporated areas within the County of Los Angeles,

161a
Appendix E
with the exception of the cities of Long Beach and
Pasadena that must follow their respective City Health
Officer orders and guidance. This Order is effective
immediately and will continue until further notice.
UNDER THE AUTHORITY OF CALIFORNIA
HEALTH AND SAFETY CODE SECTIONS 101040,
101085, AND 120175, THE COUNTY OF LOS
ANGELES HEALTH OFFICER ORDERS:
1.

This Order supersedes the Health Officer’s Prior
Orders. This Order mainly aligns the County with
both the Governor’s July 13, 2020, announcement
requiring the closure of specific activities and
business sectors and the State’s August 28, 2020
issuance of a Blueprint for a Safer Economy, which
describes a tiered approach to relaxing and tightening
restrictions on activities based upon specified criteria
and as permitted by this Order based on County
health conditions and circumstances, as well as the
State’s November 19, 2020 Limited Stay At Home
Order. The Health Officer will continue to assess
the phased reopening allowed by the State Public
Health Officer and this Order on an ongoing basis
and determine, after consultation with the Board of
Supervisors, whether this Order needs to be modified
if the public health risk associated with COVID-19
increases in the future.

2.

This Order’s intent is to continue to ensure that
County residents remain in their residences as much
as practicable, to limit close contact with others outside

162a
Appendix E
their household in both indoor and outdoor spaces. All
persons who can telework or work from home should
continue to do so as much as possible during this
pandemic. Sustained Social (Physical) Distancing
and infection control measures will continue slowing
the spread of COVID-19 and diminishing its impact
on the delivery of critical health care services. All
provisions of this Order must be interpreted to
effectuate that intent. Failure to comply with any of
the Order’s provisions constitutes an imminent threat
and menace to public health, and a public nuisance,
and is punishable by fine, imprisonment or both.
3.

All persons living within the County of Los Angeles
Public Health Jurisdiction should remain in their
residences whenever practicable.
a)

Nothing in this Order prohibits persons living
together as a single household in a household
or living unit (“household”) from engaging in
permitted activities together. For purposes of this
Order, and in relationship to private gatherings, a
“household” shall not include institutional group
living situations such as dormitories, fraternities,
sororities, monasteries, convents, or residential
care facilities, nor does it include such commercial
group living arrangements as boarding houses,
hotels, or motels.1 Private gatherings are defined

1. Los Angeles County Code, Title 22. §22.14.060- F. Family
definition. (Ord. 2019-0004 § 1, 2019.) https://library.municode.
com/ca/los_angeles_county/codes/code of ordinances?nodeldTIT22PLZO_DIV2DE_CH22.14DE_22.14.060F

163a
Appendix E
as social situations that bring together people
from different “households” at the same time
in a single space or place. When people from
different “households” mix, the risk of COVID-19
transmission increases. Private gatherings of
people who are not part of a single household
or living unit must comply with the following
requirements:
i.

Attendance. 1) Private gatherings that include
more than three different “households”
are prohibited. This includes everyone
present, including hosts and guests. Private
gatherings of persons from three different
“households” or less are limited to a maximum
of 15 people. The smaller the number of
people, the lower the risk. 2) Keep the up to 3
“households” that choose to privately gather
or interact together constant or stable over
time. Participating in multiple gatherings
with different “households” and communities
poses a higher risk of transmission and spread
of COVID-19 if one or more attendees is/are
discovered to be infected with the virus. 3)
Persons from the “households” who do choose
to privately gather together should discuss
and agree upon the specific group rules for
reducing the risk of exposure among the
attendees at the private gathering before
convening together. 4) The host “household” of
the private gathering should collect names of
all attendees and contact information in case
contact tracing is needed later.

164a
Appendix E
ii.

Outdoors only. 1) All private gatherings must
be held outside; they are permitted in a public
park or other outdoor space. Unlike indoor
spaces, wind and air in outdoor spaces can
help reduce the risk of spread of the virus
from one person to another. Attendees may
go inside to use restrooms as long as the
restrooms are frequently sanitized. 2) Private
gatherings may occur in outdoor spaces that
are covered by umbrellas, canopies, awnings,
roofs, and other shade structures provided
that at least three sides of the space (or 75%)
are open to the outdoors. 3) Multiple private
gatherings of three “households” may not be
jointly organized or coordinated to occur in
the same public park or other outdoor space
at the same time - this would constitute a
private gathering exceeding the permitted
size. 4) Mixing between unrelated private
gatherings in the same public space or other
outdoor space at the same time is not allowed.

iii. Keep it short. Private gatherings should be
limited to two hours or less in duration. The
longer the duration, the risk of transmission
increases.
iv. Physical distancing and hand hygiene.
1) A ll attendees must follow the Social
(Physical) Distancing Protocol requirements
of Paragraph 19 of this Order. 2) The outdoor
space must be large enough so that everyone

165a
Appendix E
at the private gathering can maintain at
least a 6-foot physical distance from others
(not including their own “household”) at
all times. 3) A place to wash hands or hand
sanitizer must be available for participants to
use. 4) Shared items may not be used during
a private gathering. As much as possible,
any food or beverages at outdoor gatherings
must be in single-serve disposable containers.
If providing single-serve containers is not
possible, food and beverages must be served
by an attendee who washes or sanitizes their
hands frequently and wears a face covering
over their nose and mouth. Self-serve items
from communal containers may not be used.
v.

Singing, Chanting, and Shouting at Outdoor
Gatherings. Singing, chanting, shouting,
and physical exertion significantly increases
the risk of COVID-19 transmission because
these activities increase the release of
respiratory droplets into the air. Because
of this, singing, chanting, and shouting are
strongly discouraged. If they occur and to
reduce the spread of respiratory droplets,
all attendees who are singing or chanting 1)
must wear a face covering at all times while
singing or chanting, including anyone who is
leading a song or chant, and 2) must maintain
at least 8-10 feet of physical distance from
others. 3) Instrumental music is allowed as
long as the musicians maintain at least 8-foot

166a
Appendix E
physical distancing. Musicians must be from
only one of the three “households”. Playing
of wind instruments (any instrument played
by the mouth, such as a trumpet or clarinet)
is strongly discouraged.
vi. Anyone who develops COVID-19 within 48
hours after attending a private gathering
should notify the other attendees as soon as
possible regarding the potential exposure. If
you have not been contacted by Public Health
within a week of your diagnosis, please call
and report your case at 833-540-0473.
b)

People leaving their residences must strictly
comply with the Social (Physical) Distancing
requirements stated in this Order and specified
in guidance or protocols established by the
County Department of Public Health. This
Order, beginning June 19, 2020, requires all
persons wear a cloth face covering over both
the nose and mouth whenever they leave their
place of residence and are or can be in contact
with or walking near or past others who are nonhousehold members in both public and private
places, whether indoors or outdoors. This includes
wearing a cloth face covering when patronizing a
business. Wearing a cloth face covering reduces
the risk of transmission to others from people
who do not have symptoms and do not know
they are infected. The use of face coverings is
commonly referred to as “source control.”

167a
Appendix E
i.

c)

Pursuant to the November 19, 2020 Limited
Stay At Home Order issued by the State
P ubl ic Hea lth Of f icer, a l l gather i ngs
with member of other households and all
activities conducted outside the residence,
lodg ing, or temporar y accommodation
with members of other households must
cease between 10:00 pm PST and 5:00 am
PST, except for those activities associated
w ith Healthcare Operations, Essential
Infrastructure or Essential Government
Functions, and as expressly restricted in
this Order. This provision does not apply
to persons experiencing homelessness.
Nothing in this Order prevents any number
of persons from the same household from
leaving their residence, lodging or temporary
accommodation, as long as they do not engage
in any interaction with (or otherwise gather
with) any number of persons from any other
household, except as permitted herein.

Persons and businesses within the County of Los
Angeles Public Health Jurisdiction are required
to follow the COVID-19 infection control protocols
and guidance provided by the County Department
of Public Health. In instances where the County
has not provided a specific guidance or protocol,
specific guidance or protocols established by the
State Public Health Officer shall control.

168a
Appendix E
i.

In the event that an owner, manager, or
operator of any business knows of three (3)
or more cases of COVID-19 among their
employees within a span of 14 days, the
employer must report this outbreak to the
Department of Public Health at (888) 3973993 or (213) 240-7821.

ii.

In the event that an owner, manager, or
operator of any business is informed that one
or more employees of the business has tested
positive for, or has symptoms consistent
with COVID-19 (case), the employer must
have a protocol to require the case(s) to
isolate themselves at home and require the
immediate self-quarantine of all employees
that had a workplace exposure to the case(s).

d) Pursuant to the State of California’s action 2 and
the United States District Court Central District
of California’s order, 3 jurisdictions within the
County of Los Angeles Public Health Jurisdiction
2. Office of Governor Gavin Newsom, Action re: Project
Roomkey, 4/3/2020, https://www.gov.ca.gov/2020/04/03/at-new!yconverted-motel-governor-newsom-launches-project-roomkeya-first-in-the-nation-initiative-to-secure-hotel-motel-rooms-toprotect-homeless-individuals-from-covid-19/; 2020-21 May Rev’s
on to the Governor’s Budget, Project Roomkey, pg. 78-79
3. Order re: Preliminary Injunction (Case No. LA CV
20-02291-DOC-KES), LA Alliance for Human Rights et al v. City
of Los Angeles et al, States District Court Central District of
California, 5/15/2020.

169a
Appendix E
are expected to comply with the provision of
hotel and motel rooms for vulnerable people
experiencing homelessness through Project
Roomkey, which slows the spread of COVID-19
and retains capacity of the healthcare system.
4.

All people residing within the County of Los Angeles
Public Health Jurisdiction who are age 65 or older
and all people of any age who have active or unstable
pre-existing health conditions, should remain in their
residences as much as possible during the pandemic.
People in these categories should leave their residences
only when necessary to seek medical care, exercise
or obtain food or other necessities. People in these
categories should avoid any gatherings. The Health
Officer strongly recommends that all employers offer
telework or other accommodations to persons who are
age 65 or older and all people of any age who have an
active or unstable preexisting health condition(s).

5.

All government agencies working in the course and
scope of their public service employment are Essential
Government Functions.
a)

All government employees are essential, including
but not limited to, health care providers and
emergency responders including employees who
serve in the following areas: law enforcement;
emergency services and management; first
responders; fire; search and rescue; juvenile
detention; corrections; healthcare services and
operations; public health; laboratory or medical

170a
Appendix E
testing; mental health; community health; public
works; executive management employees serving
in these fields; all employees assigned to serve in
or support the foregoing fields; and all employees
whose services are otherwise needed to assist in
a declared emergency.
b)

While all government employees are essential,
the employees identified here, and others called to
serve in their Disaster Service Worker capacity,
must be available to serve the public or assist
in response or continuity of operations efforts
during this health crisis to the maximum extent
allowed under the law.

c)

This Order does not, in any way, restrict (a) first
responder access to the site(s) named in this
Order during an emergency or (b) local, state or
federal officers, investigators, or medical or law
enforcement personnel from carrying out their
lawful duties at the site(s) named in this Order.

d) All persons who perform Essential Governmental
Functions are categorically exempt from this
Order while performing such governmental
functions or ser vices. Each governmental
entity shall identify and designate appropriate
employees, volunteers, or contractors to continue
providing and carrying out any Essential
G over n ment a l F u nc t ion s . A l l Es sent i a l
Governmental Functions should be performed
in compliance with Social (Physical) Distancing
Protocol, to the extent possible.

171a
Appendix E
6.

This Order does not supersede any stricter limitation
imposed by a local public entity within the County of
Los Angeles Public Health Jurisdiction.

7.

The Health Officer orders the closure of the following
types of higher-risk businesses, recreational sites,
commercial properties, and activities, where more
frequent and prolonged person-to-person contacts
are likely to occur:
a)

Lounges and nightclubs;

b)

Bars and craft distilleries that possess a valid
low risk restaurant public health permit issued
by the County of Los Angeles.

c)

[Intentionally omitted];

d) Public entertainment venues: movie theaters,
live performance theaters, concert venues, theme
parks, and festivals;
e)

Family enter tainment centers for indoor
operations only and other prohibited activities
under Appendix V;

f)

All restaurants, but only for indoor and outdoor
in-person onsite dining until further notice;

g) Satellite wagering facilities, and racetrack onsite
wagering facilities until further notice;

172a
Appendix E
h) Indoor playgrounds;
i)

Indoor portions and exhibits of museums, zoos
and aquariums are closed to the public until
further notice;

j)

Hot tubs, steam rooms and saunas not located on
a residential property;

k) All events and gatherings, unless specifically
allowed by this Order.
8.

All Essential Businesses, unless specific modifications
are required by this Order, may remain open to
the public and conduct normal business operations,
provided that they implement and maintain the Social
(Physical) Distancing Protocol defined in Paragraph
20 and attached to this Order as Appendix A. Further,
an essential business must also comply with the
applicable Los Angeles County Department of Public
Health Protocol(s) for its business sector. An Essential
Business’ owner, manager, or operator must prepare
and post a Social (Physical) Distancing Protocol
and any other applicable protocol for each facility
or office located within the County of Los Angeles
Public Health Jurisdiction and must ensure that the
Essential Business meets all other requirements
of all applicable protocols and the Social (Physical)
Distancing Protocol.

9.

Lower-Risk Businesses are businesses that are
not specified in Paragraph 7 of this Order, and not

173a
Appendix E
defined as an Essential Business in Paragraph 18
of this Order. There are four categories of LowerRisk Businesses that may reopen under this Order:
(1) retailers (“Lower-Risk Retail Businesses”), (2)
manufacturing and logistics sector businesses that
supply Lower-Risk Retail Businesses, (3) NonEssential office-based businesses (although telework
is strongly encouraged), and (4) Indoor Malls and
Shopping Centers .. These four categories of LowerRisk Businesses may reopen subject to the following
conditions:
a)

For any Lower-Risk Retail Business that sells
goods and services, the owner, manager, or
operator must, for each facility located within
the County of Los A ngeles Public Health
Jurisdiction, prior to reopening, prepare,
implement and post the Reopening Protocols for
Retail Establishments: Opening for In Person
Shopping, attached to this Order as Appendix B.
Lower-Risk Retail Businesses that are open for
indoor operations must limit indoor capacity to
25% of maximum occupancy. Lower-Risk Retail
Businesses must close for indoor retail operations
between the hours of 10:00 pm - 5:00am PST but
may remain open for delivery and curbside pickup.

b)

For any non-retail Lower-Risk Business, that is
a manufacturing and logistics sector business
that supplies Lower-Risk Retail Businesses,
the owner, manager, or operator must, prior

174a
Appendix E
to reopening, prepare, implement and post the
required Los Angeles County Department of
Public Health Reopening Protocol, applicable
to the business type or location, attached to this
Order as Appendix C.
c)

For any Non-Essential office-based business,
all indoor portions and operations must cease
in-person operations until further notice. Nonessential office-based businesses whose operations
require employees to work from an office
worksite, and that this Order does not identify
as an Essential Business, Healthcare Operation,
or Essential Infrastructure, may operate via
telework and for Minimum Basic Operations only.
Essential Businesses, Healthcare Operations,
or Essential Infrastructure whose operations
require that employees operate from an office
worksite, must require employees to telework to
the extent feasible and any in-person operations
must be in accordance with the required Los
Angeles County Department of Public Health
Reopening Protocol Office-Based Worksites,
attached to this Order as Appendix D. Essential
office-based businesses that are open for indoor
operations must limit indoor capacity to 25%
of maximum occupancy. This restriction does
not apply to Healthcare Operations, Essential
Infrastructure, and Essential Government
Functions.

175a
Appendix E
d) For Indoor Malls and Shopping Centers, defined
as: A building with (7) or more sales or retail
establishments with adjoining indoor space,
beginning October, 7, 2020, the owner or operator
of the Indoor Mall or Shopping Center, including
indoor swap meets, may reopen at up to 25% of
overall mall or shopping center capacity. Higherrisk businesses located within an Indoor Mall or
Shopping Center must continue to comply with
Paragraph 7 of this Order and remain closed until
each of those types of establishments is allowed
to resume modified or full operations. Food court
dining areas and specified common areas located
within an Indoor Mall or Shopping Center must
remain closed to the public until further notice.
Members of the public may not consume food or
beverages inside the Indoor Mall or Shopping
Center. All businesses located within an Indoor
Mall or Shopping Center, and not subject to
Paragraph 7 of this Order, must adhere to the
applicable requirements of this Order. Indoor
Malls and Shopping Centers must close for
indoor retail operations between the hours of
10:00 pm- 5:00 am, but retailers may remain open
for delivery and curbside pick-up. The owner or
operator of the Indoor Mall or Shopping Center
must, prior to reopening, prepare, implement
and post the required Los Angeles County
Department of Public Health Protocols for
Shopping Center Operators, attached to this
Order as Appendix E.

176a
Appendix E
9.5. The State Public Health Officer has provided guidance
for certain sectors, businesses and activities in Stage
3 of the California Pandemic Resilience Road map to
conditionally reopen with workplace and operational
modifications. The Health Officer, after considering
local epidemiological data and after consultation with
the Board of Supervisors, approves the reopening of
the following specific sectors, businesses and activities
subject to the following conditions:
a)

Music, film and television production. Operations
for music, film and television production may
resume on June 12, 2020. The owner, manager, or
operator of music, film and television production
must, prior to reopening, prepare, implement
and post the required Los Angeles County
Department of Public Health Reopening Protocol
for Music, Film and Television Production,
attached to this Order as Appendix J, as well as
abide by applicable industry-generated protocols.

b)

Day camps. Day camps may reopen on June
12, 2020. Day camp owners and operators must
implement and post the required Los Angeles
County Department of Public Health Reopening
Protocol for Day Camps, attached to this Order
as Appendix K. Day camps must close in-person
operations between the hours of 10:00 pm - 5:00
am.

c)

Fitness facilities. Fitness facilities, including
private gymnasiums, may be open for outdoor

177a
Appendix E
operations only. The indoor portions of Fitness
facilities are closed to the public until further
notice. The owner, manager, or operator of fitness
facilities must, prior to reopening, prepare,
implement and post the required Los Angeles
County Department of Public Health Reopening
Protocol for Gyms and Fitness Establishments
attached to this Order as Appendix L. Fitness
facilities must close in-person operations between
the hours of 10:00 pm - 5:00 am.
d) Outdoor portions of museums, galleries, botanical
gardens, and outdoor facilities at zoos, aquariums,
and other similar exhibition spaces (collectively,
“Museums”) may remain open to the public. The
indoor portions of Museums are closed to the
public until further notice. The owner, manager,
or operator of Museums and exhibition spaces
must, prior to reopening, prepare, implement
and post the required Los Angeles County
Department of Public Health Reopening Protocol
for Museums, Galleries Zoos, and Aquariums
attached to this Order as Appendix M. Museums
must close in-person operations between the
hours of 10:00 pm- 5:00am.
e)

P r ofe s s ion a l sp or t s w it hout aud ienc e s .
Professional sports teams and franchises may
restart operations and competitions without
audiences on June 12, 2020. The owner, manager,
or operator of professional sports teams and
franchises must, prior to reopening, prepare,

178a
Appendix E
implement and post the required Los Angeles
County Department of Public Health Protocol
for Professional Sports Leagues and Facilities
Opening for Training Sessions and SpectatorFree Events, attached to this Order as Appendix
N, as well as abide by applicable industrygenerated protocols.
f)

Campgrounds, RV Parks and associated outdoor
activities. Campgrounds and recreational vehicle
parks may reopen on June 12, 2020. The owner,
manager, or operator of campgrounds and
RV Parks must, prior to reopening, prepare,
implement and post the required Los Angeles
County Department of Public Health Reopening
Protocol for Campgrounds, RV parks and Cabin
Rental Units, attached to this Order as Appendix
O.

g) Schools (K-12) and School Districts. The County
Public Health Officer requires all public and
private schools (K-12) and school districts
within the County of Los Angeles to conduct
distance learning only. Beginning September 14,
2020, K-12 schools may offer in-school services
for a small, stable cohort of students with
Individualized Education Programs (IEPs) or
English Learners (ELs) needing assessments
and/or specialized in-school services, with
priority given to students with disabilities.
Other prioritized groups for in person support
and services include students not participating

179a
Appendix E
in distance learning, students at risk of abuse or
neglect, foster youth, and students experiencing
homelessness. Permissible in-person specialized
services that require cohorting of students, must
limit the maximum stable cohort size to twelve
(12) students and two (2) staff (not including
aides assigned to children with special needs),
and adhere to all provisions for safe opening of
schools, as outlined in Appendix T1: Reopening
Protocols for K-12 Schools. Schools must limit
the number of students with IEPs and ELs, and
other prioritized students allowed at any one
time on campus for essential assessments and/
or specialized in-school services to 25% or less of
the total student body. In addition, Schools may
reopen TK-2nd Grades for classroom instruction
with a waiver application approved by the County
Department of Public Health. Schools and
School Districts that are permitted to reopen
for prioritized individual and cohorted students
(K-12) or upon an approved waiver application
(TK-12) must follow the Reopening Protocols
for K-12 Schools and the Protocol for COVID-19
Exposure Management Plan in K-12 Schools,
attached to this Order as Appendices T1 & T2.
h) Personal Ca re Establishments. Personal
Care Establishments may reopen for indoor
operations with required modifications. Personal
Care Establishments also include hair salons,
nail salons, barbershops, esthetic, skin care,
electrology, body art professionals, tattoo

180a
Appendix E
parlors, and piercing shops, tanning salons and
massage therapy (in non-healthcare settings).
Indoor capacity at Personal Care Establishments
is limited to 25% of maximum capacity at all
times. Services at Personal Care Establishments
may only be provided by appointment. Customers
and staff must keep their face coverings on, over
both their nose and mouth, at all times; services
that require a customer/client or a personal
care attendant to remove their face covering,
e.g., facials and shaves, are prohibited. The
owner, manager or operator of a personal care
establishment must, prior to reopening, prepare,
implement and post the required Los Angeles
County Department of Public Health Reopening
Protocol for Personal Care Establishments,
attached to this Order as Appendix R. Personal
Care Establishments must close in-person
operations between 10:00 pm - 5:00am.
i)

Institutes of Higher Education. Colleges and
universities in Los Angeles County will not be
able to resume all in-person academic instruction,
at this time. Institutions may continue to offer
in person training and instruction for essential
workforce for required activities that cannot be
accomplished through virtual learning. All other
academic instruction must continue to be done
via distance-learning as specified in the County’s
Protocols for Institutes of Higher Education
attached to this Order as Appendix U. Faculty
and other staff may come to campus for the

181a
Appendix E
purpose of providing distance learning, and other
activities related to the purposes above, as well
as maintaining minimum basic operations. The
institution must comply with all relevant portions
of the County’s Protocols for Institutes of Higher
Education to maximize safety for all employees,
also noted in Appendix U.
j)

Cardrooms. On October 5, 2020, Cardrooms
may reopen for outdoor operations only. The
indoor portions of cardrooms remain closed
to the public until further notice. Capacity of
outdoor operations at cardrooms is limited to 50%
maximum occupancy of the outdoor operations
area. No food or beverages are permitted at or
near the gaming tables or machines. The owner or
operator of a cardroom must, prior to reopening,
prepare, implement and post the required Los
Angeles County Department of Public Health
Reopening Protocol for Card rooms attached to
this Order as Appendix Q. Cardrooms must close
in-person operations between 10:00 pm - 5:00 am.

k) Miniature Golf, Batting Cages, and Go Cart
Racing. On October 23, 2020, Miniature Golf,
Batting Cages, and Go Cart Racing may reopen
for outdoor operations only. The indoor portions of
these businesses remain closed to the public until
further notice. Capacity of outdoor operations
at Miniature Golf, Batting Cages, and Go Cart
Racing businesses is limited to 50% maximum
occupancy of the outdoor operations area.

182a
Appendix E
Arcade and other amusement games may not be
operated outside. Food and beverages may not be
consumed during use of the miniature golf course,
batting cages or go carts. The owner or operator
of an establishment that offers miniature golf,
batting cages, and/or go cart racing must, prior
to reopening, prepare, implement and post the
required Los Angeles Public Health Protocols
for Miniature Golf, Batting Cages, and Go Cart
Racing attached to this Order as Appendix
V. These establishments must close in-person
operations between 10:00 pm- 5:00 am.
REASONS FOR THE ORDER
10. This Order is based upon the following determinations:
evidence of continued community transmission of
COVID-19 within the County; continued uncertainty
regarding the degree of undetected asymptomatic
transmission; scientific evidence and best practices
regarding the most effective approaches to slow the
transmission of communicable diseases generally and
COVID-19 specifically; evidence that a significant
portion of the County population is at risk for serious
health complications, including hospitalizations and
death from COVID-19, due to age or pre-existing
health conditions; and further evidence that other
County residents, including younger and otherwise
healthy people, are also at risk for serious negative
health outcomes and for transmitting the virus to
others. The Order’s intent is to protect the public
from the avoidable risk of serious illness and death
resulting from the spread of COVID-19.

183a
Appendix E
11. Existing community transmission of COVID-19 in Los
Angeles County remains widespread and continues to
present a substantial and significant risk of harm to
residents’ health. There is still no vaccine available yet
to protect against COVID-19, and no treatment for it.
As of November 24, 2020, there have been at least 37
4,134 cases of COVID-19 and 7,497 deaths reported
in Los Angeles County. There remains a strong
likelihood that increased interactions among members
of the public will result in a significant and increasing
number of cases of community transmission. Making
the community transmission problem worse, some
individuals who contract the virus causing COVID-19
have no symptoms or have only mild symptoms, and
so are unaware that they carry the virus and are
transmitting it to others. Further, evidence shows
that the virus can, at times, survive for several hours
on surfaces and can be indirectly transmitted between
individuals. Because even people without symptoms
can transmit the virus, and because evidence shows
the infection is easily spread, preventing, limiting, and
placing conditions on various types of gatherings and
other direct and indirect interpersonal interactions
have been proven to reduce the risk of transmitting
the virus.
12. Evidence suggests that until recently the restrictions
and requirements imposed by Prior Orders slowed
the rate of increase in community transmission
and hospitalizations by limiting interactions among
people, consistent with the efficacy of similar
measures in other parts of the country and world.

184a
Appendix E
Unfortunately, the daily number of new cases is
substantially increasing, and COVID-19 remains
increasingly widespread in Los Angeles County.
Moreover, because there is not yet a vaccine or ample
therapeutic drugs, the public health emergency and
attendant risks to the public’s health by COVID-19
still predominate.
13. In line with the State Public Health Officer, the
Health Officer is monitoring several key indicators
(COVID-19 Indicators) within the County. Activities
and business operations that are permitted must be
conducted in accordance with the required Social
(Physical) Distancing, reopening protocols, and other
infection control protocols ordered by the Health
Officer.
14. The Health Officer will continue monitoring COVID-19
Indicators to assess the impact of easing restrictions
and re-opening sectors. Those Indicators include, but
are not limited to:
a)

The number of new cases, hospitalizations and
deaths and the testing positivity rate.

b)

The capacity of hospitals and the healthcare
system in the County, including acute care
beds, Intensive Care Unit beds, and ventilators
to provide care for existing COVID-19 patients
and other patients, and capacity to surge with an
increase of COVID-19 cases.

185a
Appendix E
c)

The supply of personal protective equipment
(PPE) available for hospital staff, nursing
home staff and other healthcare providers and
personnel who need PPE to safely respond to and
treat COVID-19 patients and other patients.

d) The ability and capacity to quickly and accurately
test persons to determine whether individuals are
COVID-19 positive, especially those in vulnerable
populations or high-risk settings or occupations,
and to identify and assess outbreaks.
e)

The ability to conduct case investigation and
contact tracing for the volume of future cases and
associated contacts, isolating confirmed cases
and quarantining persons who have had contact
with confirmed cases.

DEFINITIONS AND EXEMPTIONS
15. The following activities are permitted under this
Order:
a)

Engaging in activities or performing tasks
important to the health and safety of family or
household members (including pets), such as,
visiting a health or veterinary care professional,
obtaining medical supplies or medication, visiting
a physician or child’s pediatrician for routine
care, such as, well-child visits and vaccinations;

186a
Appendix E
b)

Obtaining necessary services and supplies for
family or household members, or delivering
the same, such as, obtaining grocery items or
necessary supplies from Essential Businesses
for one’s household or for delivery to others;

c)

Performing work for or accessing businesses
that are open, or to carry out Minimum Basic
Operations for businesses that are closed or
operating remotely.

d) Obtaining or accessing services from Essential
Governmental Functions, such as, accessing
court, social and administrative services, or
complying with an order of law enforcement or
court;
e)

Caring for minors, the elderly, dependents,
persons with disabilities, or other vulnerable
persons;

f)

Obtaining in-person behavioral health or
substance use disorder support in therapeutic
small g roup meetings, such as A lcoholics
Anonymous or Narcotics Anonymous, provided
that the gathering is limited to 10 people or fewer
and Social (Physical) Distancing is practiced.

g) Obtaining in-person faith-based counselling
services where the service cannot reasonably be
practiced remotely, provided that the gathering is
limited to 10 people or fewer and Social (Physical)
Distancing is practiced.

187a
Appendix E
h) Attending in-person faith-based ser vices,
provided that the faith-based service is held
outdoors. There is no maximum attendance
for faith-based services that are held outdoors,
provided that the attendees have enough space
to observe strict Social (Physical) Distancing,
including a minimum of six feet between attendees
from different households, and are wearing cloth
face coverings. Faith-based organizations holding
in-person outdoor services, must follow the
Department of Public Health Places of Worship
Protocols, attached to this Order as Appendix F.
i)

Engaging in outdoor recreation activity, in
compliance with Social (Physical) Distancing
requirements and wearing a face covering,
subject to the following limitations:
i.

Outdoor recreation activity at parks, trails,
piers, and beaches, and other open spaces must
comply with any access or use restrictions
separately established by the Health Officer,
government, or other entity that manages
the area to reduce crowding and the risk of
COVID-19 transmission.

ii.

Use of shared outdoor facilities for recreational
activities, including but not limited to
golf courses, tennis and pickleball courts,
children’s playgrounds, shooting and archery
ranges, equestrian centers, model airplane
areas, community gardens, skate parks, and

188a
Appendix E
bike parks, must comply with any access or
use restrictions separately established by the
Health Officer, government, or other entity
that manages the area to reduce crowding
and the risk of COVID-19 transmission.
iii. Local public entities may elect to temporarily
close certain streets or areas to automobile
traffic, to allow for increased space for
persons to engage in recreational activity
permitted by and in compliance with Social
(Physical) Distancing requirements specified
in this Order.
iv. Swimming pools and splash pads in any
non-residential setting may reopen on
June 12, 2020, with the owner, manager, or
operator of the swimming pool or splash pad
implementing and posting the required Los
Angeles County Department of Public Health
Protocol for Swimming Pools. All hot tubs,
saunas, and steam rooms located on nonresidential property remain closed.
v.

For-hire fishing, guided fishing, or smallgroup chartered boat trips may resume
operating on June 12, 2020, with the owner,
manager, or operator of the charter business
implementing the required Los Angeles
County Department of Public Health Protocols
for Small Water Vessel Charters.

189a
Appendix E
j)

Participating in a Vehicle-Based Parade. The host
of the Vehicle-Based Parade must comply with
all local ordinances, traffic control requirements,
and state and local laws. Further, the host of
Vehicle-Based Parades must comply with the Los
Angeles County Department of Public Health
Vehicle-Based Parade Protocol, attached to this
Order as Appendix G. Vehicle-Based Parades
may not occur during the hours of 10:00 pm 5:00am.

k) Participating in an in-person protest as long as
the protest is held outdoors. Outdoor protests are
permitted without a limit on attendees. Persons
participating in a protest must wear a cloth face
covering and maintain physical distancing of six
(6) feet between persons or groups of persons
from different households at all times, as well
as observe the Department of Public Health
Protocol for Public Demonstrations.
16. Individuals may work for, train for, volunteer
at, or obtain services at Healthcare Operations:
hospitals, clinics, laboratories, dentists, optometrists,
pharmacies, physical therapists, rehabilitation
and physical wellness programs, chiropractors,
pharmaceutical and biotechnology companies,
other licensed healthcare facilities, healthcare
suppliers, home healthcare service providers, mental
or behavioral health providers, alcohol and drug
treatment providers, cannabis dispensaries with a
medicinal cannabis license and all other required

190a
Appendix E
state and local licenses, blood and blood product
donation organizations, medical or scientific research
companies, or any related and/or ancillary healthcare
services, manufacturers, distributors and servicers
of medical devices, diagnostics, and equipment,
veterinary care, and other animal healthcare. This
exemption shall be construed to avoid any impact to
the delivery of healthcare, broadly defined.
17. Individuals may provide any service, train for, or
perform any work necessary to the operation and
maintenance of Essential Infrastructure, which is
defined as, public health operations, public works
construction, airport operations, port operations, food
supply, water, sewer, gas, electrical, oil extraction and
refining, roads and highways, public transportation,
solid waste collection, removal and processing,
flood control and watershed protection, cemeteries,
mor tua r ies, cremator iums, and inter net and
telecommunications systems (including the provision
of essential global, national, local infrastructure
for computing services, business infrastructure,
communications, and web-based services), and
manufacturing and distribution companies deemed
essential as part of the Essential Infrastructure
supply chain, provided that they carry out those
services or that work. In providing these services,
training for, or performing this work, individuals
must comply with Social (Physical) Distancing
requirements to the extent practicable.
18. For purposes of this Order, Essential Businesses are:

191a
Appendix E
a)

Grocery stores, certified farmers’ markets,
farm and produce stands, supermarkets, food
banks, convenience stores, warehouse stores,
and other establishments engaged in the retail
sale of canned food, dry goods, fresh fruit and
vegetables, pet supply, water, fresh meats, fish,
and poultry, and any other household consumer
products (such as cleaning or personal care
products). This includes stores that sell groceries
and other non-grocery products, such as products
necessary to maintaining the safety, sanitation,
and essential operation of residences. Retail food
markets, including but not limited to grocery
stores, convenience stores, liquor stores and other
retail locations that sell food or beverage products
and that are required to have a health permit
issued by the Department of Public Health as a
Food Market Retail, must comply with the Los
Angeles County Department of Public Health
Protocols for Grocery Stores and Retail Food
Markets, attached to this Order as Appendix B-1;

b)

Food processors, confectioners, food packagers,
food testing labs that are not open to the public,
and food cultivation, including farming, livestock,
and fishing;

c)

Organizations and businesses that provide food,
shelter, social services, and other necessities of
life for economically disadvantaged or otherwise
needy individuals (including gang prevention and
intervention, domestic violence, and homeless
service agencies);

192a
Appendix E
d) Newspapers, television news, radio, magazine,
podcast and journalism activities, including
taped, digitally recorded or online-streamed
content of any sort that is produced by one or
more members of a single household, within the
household’s residence and without the physical
presence of any non-member of the household;
e)

Gas stations, auto-supply, mobile auto repair
operations, auto repair shops (including, without
limitation, auto repair shops adjacent to or
otherwise in connection with a retail or used auto
dealership), and bicycle repair shops and related
facilities;

f)

Banks, credit unions, financial institutions and
insurance companies;

g) Hardware stores, nurseries; building supply
stores;
h) Plumbers, electricians, exterminators, custodial/
janitorial workers, handyman services, funeral
homes and morticians, moving services, HVAC
installers, carpenters, vegetation services, tree
maintenance, landscapers, gardeners, property
managers, private security personnel and
other service providers who provide services
to maintain the safety, sanitation, and essential
operation to properties and other Essential
Businesses;

193a
Appendix E
i)

Businesses providing mailing and shipping
services, including post office boxes;

j)

Educational institutions (including public and
private K-12 schools, colleges, and universities);

k) Laundromats, dry cleaners, and laundry service
providers;
l)

Restaurants and other food facilities that prepare
and serve food, but only for delivery, drive thru,
and carry out. Indoor and outdoor dining is not
permitted. Restaurants may continue to offer
delivery, drive thru and carry out between the
hours of 10:00 pm - 5:00 am. Restaurants with
a moderate risk or high risk restaurant permit
issued by the County of Los Angeles Department
of Public Health and other food facilities must
follow the revised Department of Public Health
Protocols for Restaurants, attached to this Order
as Appendix I. Cafeterias, commissaries, and
restaurants located within hospitals, nursing
homes, or other licensed health care facilities
may provide dine-in service, as long as Social
(Physical) Distancing is practiced;

m) Businesses that supply office or computer
products needed by people who work from home;
n) Businesses that supply other Essential Businesses
with the support or supplies necessary to operate;

194a
Appendix E
o)

Non - m a nu f a c t u r i n g, t r a n s p o r t a t i on o r
distribution businesses that ship, truck, transport,
or provide logistical support to deliver groceries,
food, goods or services directly to residences,
Essential Businesses, Healthcare Operations,
and Essential Infrastructure. This exemption
shall not be used as a basis for engaging in sales
to the general public from retail storefronts;

p)

Airlines, taxis, ride sharing services and other
private transportation providers providing
transportation services necessary for activities
of daily living and other purposes expressly
authorized in this Order;

q) Businesses that manufacture parts and provide
necessary service for Essential Infrastructure;
r)

Home-based care for seniors, adults, disabled
persons, or children;

s)

Residential facilities and shelters for homeless
residents, disabled persons, seniors, adults,
children and animals;

t)

Professional services, such as legal, payroll or
accounting services, when necessary to assist
in compliance with legally mandated activities,
and the permitting, inspection, construction,
transfer and recording of ownership of housing,
including residential and commercial real estate
and anything incidental thereto, provided that

195a
Appendix E
appointments and other residential viewings
must only occur virtually or, if a virtual viewing
is not feasible, by appointment with no more
than two visitors at a time residing within the
same household or living unit and one individual
showing the unit (except that in-person visits are
not allowed when the occupant is still residing in
the residence);
u) Childcare facilities. All childcare facilities,
including those operating at schools, must
operate under the LAC DPH Childcare Guidance
and the following conditions: (1) Child care must
be carried out in stable cohorted groups of 12 or
fewer (“stable” means the same twelve (12) or
fewer children are in the same group each day);
(2) Children shall not change from one group to
another; (3) If more than one group of children
is cared for at one facility, each group shall be in
a separate room. Groups shall not mix with each
other; (4) Childcare providers shall remain solely
with one group of children;
v)

Hotels, motels, shared rental units and similar
facilities. Beginning June 12, 2020, these may
reopen for tourism and individual travel, in
adherence with the required Los Angeles County
Department of Public Health Reopening Protocol
for Hotels, Lodging and Short-Term Rentals,
attached to this Order as Appendix P;

196a
Appendix E
w) Construction, which includes the operation,
inspection, and maintenance of construction
sites and construction projects for construction
of commercial, office and institutional buildings,
residential and housing construction;
x)

[Intentionally omitted].

19. For purposes of this Order, “Social (Physical)
Distancing” means: (1) Maintaining at least six (6)
feet of physical distance from individuals who are
not members of the same household; (2) Frequently
washing hands with soap and water for at least 20
seconds, or using hand sanitizer that contains at least
60% alcohol; (3) Wearing a cloth face covering when
whenever an individual leaves their home or place
of residence, and when an individual is or can be in
contact with or walking by or past others who are
non-household members in both public and private
places, whether indoors or outdoors. Wearing a cloth
face covering over both the nose and mouth reduces
the risk of transmission to others from people who do
not have symptoms and do not know they are infected;
and (4) Avoiding all physical interaction outside the
household when sick with a fever or cough, except for
necessary medical care.
20. For purposes of this Order, the “Social (Physical)
Distancing Protocol” that must be implemented
and posted must demonstrate how the following
infection control measures are being implemented
and achieved, as applicable:

197a
Appendix E
a)

Limiting the number of people who may enter into
the facility at any one time to ensure that people
in the facility can easily maintain a minimum six
(6) foot physical distance from others, at all times,
except as required to complete a business activity
or transaction. Members of a single household or
living unit may stand or move together but must
be separated from others by a physical distance
of at least six (6) feet.

b)

Where lines may form at a facility, marking six (6)
foot increments at a minimum, establishing where
individuals should stand to maintain adequate
Social (Physical) Distancing, whether inside or
outside the facility.

c)

Providing hand sanitizer, soap and water, or
effective disinfectant at or near the entrance
of the facility and in other appropriate areas
for use by the public and employees, and in
locations where there is high-frequency employee
interaction with members of the public (e.g.,
cashiers). Restrooms normally open to the public
shall remain open to the public.

d) Posting a sign in a conspicuous place at all public
entries that instructs the public not to enter if
they are experiencing symptoms of respiratory
illness, including fever or cough, to wear face
coverings, and to maintain Social (Physical)
Distancing from one another.

198a
Appendix E
e)

Providing for the regular disinfection of hightouch surfaces, and disinfection of all payment
portals, pens, and styluses after each use. All
businesses are encouraged to also offer touch
less payment mechanisms, if feasible.

f)

Providing face coverings to employees and
contracted workers whose duties require close
contact with other employees and/or the public.
Those who have been instructed by their medical
provider that they should not wear a face covering
should wear a face shield with a drape on the
bottom edge, to be in compliance with State
directives, as long as their condition permits
it. A drape that is form fitting under the chin is
preferred. Masks with one-way valves should not
be used.

g) Requiring that members of the public who
enter the facility wear a face-covering over
both the nose and mouth, which reduces the
risk of “asymptomatic” or “presymptomatic”
transmission to workers and others, during their
time in the facility.
h) Adhering to communicable disease control
protocols provided by the Los Angeles County
Depa r tment of P ubl ic Hea lth, i nclud i ng
requirements for cleaning and disinfecting the
site. See protocols posted at www.publichealth.
lacounty.gov/media/Coronavirus/.

199a
Appendix E
21. Operators of businesses that are required to cease
in-person operations may conduct Minimum Basic
Operations, which means:
a)

The minimum necessary activities to maintain
and protect the value of the business’s inventory
and facilities; ensure security, safety, and
sanitation; and process payroll and employee
benefits;

b)

The minimum necessary activities to facilitate the
business’s owners, employees, and contractors
being able to continue to work remotely from
their residences, and to ensure that the business
can deliver its services remotely.

ADDITIONAL TERMS
22. The County shall promptly provide copies of this Order
by: (a) posting it on the Los Angeles Department of
Public Health’s website (www.publichealth.lacounty.
gov), (b) posting it at the Kenneth Hahn Hall of
Administration located at 500 West Temple Street,
Los Angeles, CA 90012, (c) providing it to any member
of the public requesting a copy, and (d) issuing a press
release to publicize the Order throughout the County.
a)

The owner, manager, or operator of any facility
that is likely to be impacted by this Order is
strongly encouraged to post a copy of this Order
onsite and to provide a copy to any member of
the public requesting a copy.

200a
Appendix E
b)

Because guidance may change, the owner,
manager, or operator of any facility that is
subject to this Order is ordered to consult the Los
Angeles County Department of Public Health’s
website (www.publichealth.lacounty.gov) daily
to identify any modifications to the Order and
is required to comply with any updates until the
Order is terminated.

23. If any subsection, sentence, clause, phrase, or word
of this Order or any application of it to any person,
structure, gathering, or circumstance is held to be
invalid or unconstitutional by a decision of a court
of competent jurisdiction, then such decision will
not affect the validity of the remaining portions or
applications of this Order.
24. This Order incorporates by reference, the March 4,
2020 Proclamation of a State of Emergency issued
by Governor Gavin Newsom and the March 4, 2020
declarations of a local and public health emergency
issued by the Los Angeles County Board of Supervisors
and Los Angeles County Health Officer, respectively,
and as they may be supplemented.
25. This Order is issued in consideration of the County’s
current status within the tiered reopening approach
of California’s Blueprint for a Safer Economy issued
August 28, 2020, as well as the November 19, 2020
Limited Stay At Home Order issued by the State
Public Health Officer. This Order may be revised
in the future as the State Public Health Officer

201a
Appendix E
prog ressively designates sectors, businesses,
establishments, or activities for reopening with
required modifications or closure at a pace designed
to protect health and safety. Should local CO VI D-19
conditions warrant, the Health Officer may, after
consultation with the Board of Supervisors, issue
orders that are more restrictive than the guidance
and orders issued by the State Public Health Officer.
26. This Order is consistent with the provisions in the
Governor’s Executive Order N-60-20 and the State
Public Health Officer’s May 7, 2020 Order, that local
health jurisdictions may implement or continue more
restrictive public health measures in the jurisdiction
if the local health officer believes conditions in that
jurisdiction warrant them. Where a conflict exists
between th is Order and any state public health order
related to controlling the spread of COVID-19 during
this pandemic, the most restrictive provision controls.
Consistent with California Health and Safety Code
section 131080, except where the State Health Officer
may issue an order expressly directed at this Order
or a provision of this Order and based upon a finding
that a provision of this Order constitutes a menace to
the public health, any more restrictive measures in
th is Order may continue to apply and control in the
County of Los Angeles Public Health Jurisdiction.
27. Pursuant to Sections 26602 and 41601 of the California
Government Code and Section 101029 of the California
Health and Safety Code, the Health Officer requests
that the Sheriff and all chiefs of police in all cities

202a
Appendix E
located in the Los Angeles County Public Health
Jurisdiction ensure compliance with and enforcement
of this Order. The violation of any provision of this
Order constitutes an imminent threat and menace
to public health, constitutes a public nuisance, and is
punishable by fine, imprisonment or both.
28. This Order shall become effective at 10:00 pm on
November 25, 2020 and will continue to be until it is
revised, rescinded, superseded, or amended in writing
by the Health Officer.
IT IS SO ORDERED:
/s/					
11/25/2020
Muntu Davis, M.D., M.P.H.	Date
Health Officer,
County of Los Angeles

203a
Appendix E
Appendices At-A-Glance
All DPH protocol is available at:
http://wvvw.publichealth.lacounty.gov/media/
Coronavirus/
Appendix A: Protocol for Social Distancing [Revised
10/5/2020]
Appendix B: Protocols for Retail Establishments Opening
for In-person Shopping [Revised 11/19/2020]
Appendix B-1: Protocols for Grocery Stores and Retail
Food Markets [Revised 11/19/2020]
Appendix C: Reopening Protocol for Warehousing,
Manufacturing and Logistic Establishments [Revised
7/18/2020]
Appendix D: Protocols for Office Worksites [Revised
11/19/2020]
Appendix E: Protocols for Shopping Center Operators
[Revised 11/25/2020]
Appendix F: Protocol for Places of Worship [Revised
7/17/2020]
Appendix G: Protocol for Vehicle-Based Parades [Revised
10/13/2020]

204a
Appendix E
Appendix H: [Rescinded and Incorporated into Appendix
R on 10/23/2020]
Appendix I: Protocol for Restaurants, Breweries and
Wineries [Revised 11/25/2020)
Appendix J: Reopening Protocol for Music, Film, and
Television Production [Revised 8/18/2020]
Appendix K: Reopening Protocol for Day Camps [Revised
8/11/2020]
Appendix L: Reopening Protocol for Gyms and Fitness
Establishments [Revised 11/25/2020]
Appendix M: Reopening Protocol for Museums, Galleries,
Zoos, and Aquariums [Revised 11/25/2020]
Appendix N: Protocol for Professional Sports Leagues and
Facilities Opening for Training Sessions and SpectatorFree Events [Revised 11/4/2020]
Appendix O: Reopening Protocol for Campgrounds, RV
parks and Cabin Rental Units [Revised 8/21/2020]
Appendix P: Reopening Protocol for Hotels, Lodging, and
Short-Term Rentals [Revised 10/26/2020]
Appendix Q: Reopening Protocol for Cardrooms [Revised
11/25/2020)

205a
Appendix E
Appendix R: Reopening Protocol for Personal Care
Establishments [Revised 11/25/2020]
Appendix S: [Rescinded 6/28/2020]
Appendix T1: Reopening Protocols for K-12 Schools
[Revised 10/27/2020]
Appendix T2: Protocol for COV ID -19 Exposure
Management Plan in K-12 Schools [Revised 10/18/20]
Appendix U: Reopening Protocol for Institutes of Higher
Education [Revised 9/14/2020]
Appendix V: Protocols for Miniature Golf, Batting Cages,
and Go Cart Racing [Revised 11/25/2020]

